No.

In the Supreme Court of the United States
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
PETITIONERS

v.
CITY AND COUNTY OF SAN FRANCISCO, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
EDWIN S. KNEEDLER
Deputy Solicitor General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
JONATHAN C. BOND
Assistant to the Solicitor
General
MARK B. STERN
DANIEL TENNY
LAURA MYRON
BRAD HINSHELWOOD
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

The Department of Justice administers the Edward
Byrne Memorial Justice Assistance Grant (Byrne JAG)
program, which provides millions of dollars in financial
assistance to law enforcement in the form of grant
awards to States and local governments nationwide.
For Fiscal Year 2017, the Department announced two
new special conditions designed to ensure that, in their
programs receiving such federal assistance, grantees
provide a basic level of cooperation with federal authorities with respect to aliens held in state or local criminal
custody. The “notice condition” requires grantees to
have a policy designed to ensure that facilities provide,
upon a request by the Department of Homeland Security, advance notice of the scheduled release date and
time for a particular alien. The “access condition” requires grantees to have a policy to afford federal authorities access to the grantee’s facilities to meet with
an alien. In addition, the Department of Justice imposed the “certification condition,” requiring grantees
to comply with 8 U.S.C. 1373—which generally bars
state and local governments from restricting the sharing of “information regarding the citizenship or immigration status * * * of any individual” with federal immigration authorities, ibid.—and to certify such compliance. The questions presented are as follows:
1. Whether the Department has statutory authority
to impose the notice and access conditions on grantees
that accept Byrne JAG awards.
2. Whether the Department may withhold Byrne
JAG funds from respondents for noncompliance with
8 U.S.C. 1373.

(I)

PARTIES TO THE PROCEEDING

Petitioners are William P. Barr, in his official capacity as Attorney General; * Katharine Sullivan, in her official capacity as Principal Deputy Assistant Attorney
General of the Office of Justice Programs;** and the
United States Department of Justice.
Respondents are the City and County of San Francisco, which was the plaintiff in the district court in
No. 17-cv-4642 and the appellee in the court of appeals
in No. 18-17308; and the State of California ex rel. Xavier Becerra, in his official capacity as Attorney General
of the State of California, which was the plaintiff in the
district court in No. 17-cv-4701 and the appellee in the
court of appeals in No. 18-17311.

Former Attorney General Jefferson B. Sessions III was originally named as a defendant in both cases. Attorney General Barr is
automatically substituted for his predecessor under this Court’s Rule
35.3.
**
Former Acting Assistant Attorney General Alan R. Hanson was
originally named as a defendant in both cases. Principal Deputy Assistant Attorney General Sullivan, who is performing the functions of
the office of Assistant Attorney General, is automatically substituted
for former Acting Assistant Attorney General Hanson under this
Court’s Rule 35.3.
*

(II)

RELATED PROCEEDINGS

United States District Court (N.D. Cal.):
City & County of San Francisco v. Sessions,
No. 17-cv-4642 (Oct. 5, 2018)
California ex rel. Becerra v. Sessions,
No. 17-cv-4701 (Nov. 20, 2018)
(amended judgment)
United States Court of Appeals (9th Cir.):
City & County of San Francisco v. Barr,
No. 18-17308 (July 13, 2020)
California ex rel. Becerra v. Barr,
No. 18-17311 (July 13, 2020)

(III)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory provisions involved ...................................................... 2
Statement ...................................................................................... 2
A. The Byrne JAG program ......................................... 2
B. The challenged conditions ........................................ 4
C. The present controversies ........................................ 9
Reasons for granting the petition ............................................. 15
I. The decision below is incorrect .................................... 16
A. OJP had statutory authority to impose the
notice and access conditions ................................... 19
B. OJP may withhold Byrne JAG funds from
respondents for noncompliance with Section
1373 ........................................................................... 28
II. The decision below warrants review............................ 32
Conclusion ................................................................................... 35
Appendix A — Court of appeals opinion (July 13, 2020) ...... 1a
Appendix B — District court order regarding motions for
summary judgment (Oct. 5, 2018)............ 24a
Appendix C — District court judgment and order
(Oct. 5, 2018) ............................................ 114a
Appendix D — District court amended judgment and
order (Nov. 20, 2018) ............................... 117a
Appendix E — Statutory provisions ................................... 122a
TABLE OF AUTHORITIES

Cases:
American Sur. Co. v. Marotta, 287 U.S. 513 (1933) .......... 23
Arizona v. United States, 567 U.S. 387 (2012) ............... 4, 22
City of Chicago v. Barr,
961 F.3d 882 (7th Cir. 2020) ............................................... 33

(V)

VI
Cases—Continued:

Page

City of Los Angeles v. Barr,
941 F.3d 931 (9th Cir. 2019) ...................................... passim
City of Philadelphia v. Attorney Gen.,
916 F.3d 276 (3d Cir. 2019) .......................................... 33, 34
City of Providence v. Barr,
954 F.3d 23 (1st Cir. 2020) ........................................... 33, 34
Jennings v. Rodriguez, 138 S. Ct. 830 (2018) ....................... 5
Lamar, Archer & Cofrin, LLP v. Appling,
138 S. Ct. 1752 (2018) ......................................................... 31
Loughrin v. United States, 573 U.S. 351 (2014) ................. 31
New York v. United States Dep’t of Justice:
951 F.3d 84 (2d Cir.),
reh’g denied, 964 F.3d 150 (2d Cir. 2020) ....... passim
964 F.3d 150 (2d Cir. 2020) ............................................. 34
Norfolk & W. Ry. Co. v. American Train
Dispatchers’ Ass’n, 499 U.S. 117 (1991) ........................... 29
United States v. California,
921 F.3d 865 (9th Cir. 2019),
cert. denied, No. 19-532 (June 15, 2020) .................... 14, 31
Constitution, statutes, and regulations:
U.S. Const.:
Art. I, § 8, Cl. 1, (Spending Clause) ............................... 12
Amend. X.................................................................... 10, 12
Administrative Procedure Act,
5 U.S.C. 551 et seq., 701 et seq. .......................................... 12
Illegal Immigration Reform and Immigrant
Responsibility Act of 1996, Pub. L. No. 104-208,
Div. C, Tit. VI, § 642, 110 Stat. 3009-707 ............................ 5
8 U.S.C. 1373 .................................................. passim, 122a
8 U.S.C. 1373(a) ......................................6, 29, 31, 32, 122a
8 U.S.C. 1373(b) ................................................. 6, 29, 122a

VII
Statutes and regulations—Continued:

Page

8 U.S.C. 1373(c) ................................................. 6, 31, 123a
Immigration and Nationality Act,
8 U.S.C. 1101 et seq. .............................................................. 4
8 U.S.C. 1182 ...................................................................... 4
8 U.S.C. 1226 ................................................................ 4, 22
8 U.S.C. 1226(a) ................................................................. 5
8 U.S.C. 1226(c) ............................................................... 22
8 U.S.C. 1226(c)(1) ............................................................. 5
8 U.S.C. 1226(c)(2) ............................................................. 5
8 U.S.C. 1227 ...................................................................... 4
8 U.S.C. 1231 ................................................................ 4, 22
8 U.S.C. 1231(a)(1)(A) ........................................... 5, 22, 32
8 U.S.C. 1231(a)(1)(B)(iii) ..................................... 5, 22, 32
8 U.S.C. 1231(a)(2)....................................................... 5, 22
8 U.S.C. 1231(a)(4)(A) ........................................... 5, 22, 32
8 U.S.C. 1305(a) ............................................................... 32
8 U.S.C. 1306(b) ............................................................... 32
Violence Against Women and Department of Justice
Reauthorization Act of 2005, Pub. L. No. 109-162,
Tit. XI, Subtit. B, 119 Stat. 2960:
§ 1111, 119 Stat. 3094 .................................................. 2, 20
§ 1152(b), 119 Stat. 3113 ............................................. 3, 20
Water Resources Reform and Development Act of
2014, Pub. L. No. 113-121, § 1043(a)(3)(C)(ii)(II),
128 Stat. 1246 ...................................................................... 30
34 U.S.C. Ch. 101 ......................................................... 3, 10, 20
Subch. I:
34 U.S.C. 10102 .................................................. 3, 123a
34 U.S.C. 10102(a)(6) ............................... passim, 124a
34 U.S.C. 10109(a)(2) ................................. 24, 25, 125a

VIII
Statutes and regulations—Continued:

Page

Subch. V, Pt. A:
34 U.S.C. 10151 et seq............................................ 2, 10
34 U.S.C. 10152(a)(1) ......................................... 2, 125a
34 U.S.C. 10152(a)(1)(A) ........................... 19, 26, 126a
34 U.S.C. 10152(a)(1)(B) ................................. 26, 126a
34 U.S.C. 10152(a)(1)(D) ................................. 26, 126a
34 U.S.C. 10152(a)(2) ......................................... 2, 126a
34 U.S.C. 10152(b) ............................................. 2, 126a
34 U.S.C. 10153 .......................................................... 14
34 U.S.C. 10153(a) ...................... 3, 12, 13, 17, 19, 128a
34 U.S.C. 10153(a)(1) ....................................... 19, 129a
34 U.S.C. 10153(a)(1)-(5) ................................. 19, 129a
34 U.S.C. 10153(a)(1)-(6) ................................... 3, 129a
34 U.S.C. 10153(a)(4) ............................... passim, 129a
34 U.S.C. 10153(a)(5)(C) ......................... passim, 130a
34 U.S.C. 10153(a)(5)(D) ......................... passim, 130a
34 U.S.C. 10153(a)(6) ....................................... 19, 130a
34 U.S.C. 10154 ................................................ 19, 132a
34 U.S.C. 10155 .................................................. 3, 132a
34 U.S.C. 10156 ...................................................... 2, 19
34 U.S.C. 10156(c) ........................................................ 2
Subch. VIII:
34 U.S.C. 10251(a)(7) ................................................... 8
42 U.S.C. Ch. 46 (2000)............................................................ 3
42 U.S.C. 3712 (2000) .............................................. 3, 132a
42 U.S.C. 3712(a)(6) (2000) ............................... 3, 20, 133a
42 U.S.C. 16154(g)(1) ............................................................. 30
Cal. Gov’t Code (West 2019):
§ 7284.4(a) .......................................................................... 9
§ 7284.6(a)(1)(C) .......................................................... 9, 32
§ 7284.6(a)(1)(D) .......................................................... 9, 32

IX
Statutes and regulations—Continued:

Page

S.F. Mun. Admin. Code (Supp. Apr.- June 2020):
§ 12H.2 .......................................................................... 9, 32
§ 12I.2 ........................................................................... 9, 32
§ 12I.3 ........................................................................... 9, 32
2 C.F.R. Pt. 200:
Section 200.207(a) ............................................................ 23
Section 200.300(a) ............................................................ 23
28 C.F.R. 66.12 (2006) ........................................................... 24
Miscellaneous:
California Bd. of State and Cmty. Corr.,
Edward Byrne Memorial Justice Grant
Assistance Program: Federal Fiscal Year 2017
California State Application (Aug. 25, 2017),
https://go.usa.gov/xGFHz .................................................. 27
H.R. Conf. Rep. No. 725, 104th Cong., 2d. Sess.
(1996) ................................................................................ 6, 32

In the Supreme Court of the United States
No.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
PETITIONERS

v.
CITY AND COUNTY OF SAN FRANCISCO, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of the Attorney General, et al., respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Ninth Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra,
1a-23a) is reported at 965 F.3d 753. The order of the
district court (App., infra, 24a-113a) is reported at
349 F. Supp. 3d 924.
JURISDICTION

The judgment of the court of appeals was entered on
July 13, 2020. On March 19, 2020, the Court extended
the time within which to file any petition for a writ of
certiorari due on or after that date to 150 days from the
date of the lower-court judgment, order denying discretionary review, or order denying a timely petition for
(1)

2
rehearing. The effect of that order was to extend the
deadline for filing a petition for a writ of certiorari to
December 10, 2020. The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED

Pertinent statutory provisions are reprinted in an
appendix to this petition. App., infra, 122a-133a.
STATEMENT
A. The Byrne JAG Program

1. The Edward Byrne Memorial Justice Assistance
Grant (Byrne JAG) program, see 34 U.S.C. 10151 et
seq., “is the ‘primary provider’ of federal grant dollars
to support state and local criminal justice programs.”
App., infra, 4a. The program is administered by the Office of Justice Programs (OJP) within the Department
of Justice. Id. at 4a-5a. Each year, OJP disburses hundreds of millions dollars in Byrne JAG awards. New
York v. United States Dep’t of Justice, 951 F.3d 84, 92
(2d Cir.), reh’g denied, 964 F.3d 150 (2020).
Byrne JAG funds are divided among recipients based
on a statutory formula, largely premised on population
and crime statistics. 34 U.S.C. 10156. Funds may be
used for any purpose specified in 34 U.S.C. 10152(a)(1);
see 34 U.S.C. 10152(a)(2). A recipient of a Byrne JAG
award may further distribute Byrne JAG funds through
subawards to localities and community organizations,
and a State that receives a Byrne JAG award must distribute a portion of its grant funds to localities through
subawards. 34 U.S.C. 10152(b), 10156(c).
2. Congress created the Byrne JAG program in 2006
by combining two preexisting grant programs. See Violence Against Women and Department of Justice
Reauthorization Act of 2005 (DOJ Reauthorization Act),

3
Pub. L. No. 109-162, Tit. XI, Subtit. B, § 1111, 119 Stat.
3094. In the same statute, Congress also amended an
existing statutory provision that addresses the powers
of the Assistant Attorney General for OJP. 42 U.S.C.
3712 (2000), recodified as amended, 34 U.S.C. 10102.
That provision had previously authorized the Assistant
Attorney General for OJP (among other things) to “exercise such other powers and functions as may be vested
in [him] pursuant to” Chapter 46 of Title 42 (2000)—
which is now codified as Chapter 101 of Title 34—“or
by delegation of the Attorney General.” 42 U.S.C.
3712(a)(6) (2000). The DOJ Reauthorization Act added
to that provision the clause: “including placing special
conditions on all grants, and determining priority purposes for formula grants.” § 1152(b), 119 Stat. 3113;
see 34 U.S.C. 10102(a)(6).
Since 2006, OJP has relied on that authority to impose a variety of conditions on Byrne JAG (and other)
awards, such as information-technology requirements,
e.g., C.A. E.R. 411 (¶¶ 26-27); protections for human research subjects, e.g., ibid. (¶ 29); restrictions on the purchase of certain military-style equipment, e.g., id. at
413-414 (¶¶ 45-50); requirements regarding purchases
of body armor, e.g., id. at 413 (¶¶ 38-39); and training
requirements, e.g., id. at 411 (¶¶ 32-33).
Congress has provided that an applicant for a Byrne
JAG award must submit an application “in such form as
the Attorney General may require,” 34 U.S.C. 10153(a),
and it has authorized the Attorney General to “issue
rules to carry out” the program, 34 U.S.C. 10155. In
addition, Congress has specified certain application requirements in the statute. 34 U.S.C. 10153(a)(1)-(6). As
relevant here, the statute requires an applicant to submit with its application an “assurance” that it “shall

4
maintain and report such data, records, and information
(programmatic and financial) as the Attorney General
may reasonably require.” 34 U.S.C. 10153(a)(4). The
applicant also must submit a “certification, made in a
form acceptable to the Attorney General,” that “there
has been appropriate coordination with affected agencies,” and that the applicant “will comply with” the principal statutory provisions establishing the Byrne JAG
program “and all other applicable Federal laws.”
34 U.S.C. 10153(a)(5)(C) and (D).
B. The Challenged Conditions

These cases concern three grant conditions that OJP
adopted pursuant to its statutory authority for Byrne
JAG awards in Fiscal Year (FY) 2017. The conditions
are designed to ensure that jurisdictions that receive
federal law-enforcement funds are complying with federal laws that govern communications between state
and local law enforcement and federal immigration authorities, and to ensure that those jurisdictions’ programs supported by Byrne JAG funds do not obstruct
the enforcement of federal immigration law with respect to aliens whom they hold in criminal custody.
1. The federal government has “broad, undoubted
power over the subject of immigration and the status of
aliens,” and in the Immigration and Nationality Act
(INA), 8 U.S.C. 1101 et seq., Congress has “specified
which aliens may be removed from the United States
and the procedures for doing so.” Arizona v. United
States, 567 U.S. 387, 394, 396 (2012). Congress has authorized the Department of Homeland Security (DHS)
to remove an alien who is inadmissible or deportable
from the United States and authorized (and sometimes
required) DHS to arrest and detain the alien pending
removal. See 8 U.S.C. 1182, 1226, 1227, 1231.

5
Recognizing, however, state and local governments’
interests in the enforcement of their laws against aliens
who commit crimes within their jurisdictions, Congress
has provided that DHS “may not remove an alien who
is sentenced to imprisonment until the alien is released
from imprisonment.” 8 U.S.C. 1231(a)(4)(A). If the alien is already subject to a final order of removal, then
upon his release from state or local custody, DHS “shall
remove the alien from the United States” within 90 days
of the release, and DHS generally “shall detain the alien” during that period pending removal. 8 U.S.C.
1231(a)(1)(A), (B)(iii), and (2).
If instead the alien is not yet subject to a final order
of removal, DHS may issue a warrant and may arrest
and detain the alien pending a determination of whether
to remove him. See 8 U.S.C. 1226(a). If the alien has a
certain criminal history or has engaged in certain terrorist activities, however, DHS “shall” take the alien into
custody “when the alien is released” from state or local
custody, 8 U.S.C. 1226(c)(1), and (with a limited exception) it may not release the alien for the duration of the
removal proceedings, see 8 U.S.C. 1226(c)(2); Jennings
v. Rodriguez, 138 S. Ct. 830, 846-847 (2018).
2. Congress enacted 8 U.S.C. 1373 in 1996 to facilitate communication between federal immigration officials and state and local authorities, as well as to prevent state and local governments from frustrating or
impeding federal officials’ efforts to enforce the immigration laws. Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Pub. L. No. 104-208,
Div. C, Tit. VI, § 642, 110 Stat. 3009-707. Section 1373
principally provides that “State” and “local government
entit[ies] or official[s]” “may not prohibit, or in any way
restrict,” any government entity or official from sharing

6
with federal immigration authorities “information regarding the citizenship or immigration status, lawful or
unlawful, of any individual.” 8 U.S.C. 1373(a). It similarly provides that “no person or agency may prohibit,
or in any way restrict, a Federal, State, or local government entity from” “[s]ending” to or “requesting or receiving” from federal immigration authorities “information regarding the immigration status, lawful or unlawful, of any individual”; from “[m]aintaining” such information; or from “[e]xchanging such information”
with “any other * * * government entity.” 8 U.S.C.
1373(b). The statute further provides that federal immigration authorities “shall respond to an inquiry by a
Federal, State, or local government agency, seeking to
verify or ascertain the citizenship or immigration status
of any individual within the jurisdiction of the agency
for any purpose authorized by law, by providing the requested verification or status information.” 8 U.S.C.
1373(c).
Section 1373 thus seeks to ensure that no obstacles
will prevent federal, state, and local governments from
sharing information that is crucial to enforcement of the
immigration laws. A House Conference Report noted
that provisions such as Section 1373 were intended to
enable state and local officials to “communicate with the
[former Immigration and Naturalization Service] regarding the presence, whereabouts, or activities of illegal aliens.” H.R. Conf. Rep. No. 725, 104th Cong., 2d. Sess.
383 (1996) (Conference Report).
3. The three grant conditions at issue here were
adopted in response to increasing concern about States
and localities that receive federal law-enforcement
funds but decline to cooperate with federal authorities’
efforts to enforce the immigration laws.

7
In May 2016, prompted by a congressional inquiry,
the Department of Justice Inspector General issued a
report addressing concerns about compliance with
8 U.S.C. 1373 by ten jurisdictions that received Department grants, including respondent California. See C.A.
E.R. 203-218. In July 2016, in light of that report, OJP
articulated its understanding that, for purposes of the
Byrne JAG program, Section 1373 is an “applicable
Federal law[ ]” with which grant recipients must comply under 34 U.S.C. 10153(a)(5)(D). C.A. E.R. 185-186.
For many jurisdictions the Inspector General’s report
had examined, including California, OJP also included a
special condition in their FY 2016 Byrne JAG awards
requiring the applicant to review its compliance with
Section 1373 and to submit a letter explaining the jurisdiction’s basis for its belief that it complied. See, e.g.,
id. at 182, 350, 358-359. California accepted its FY 2016
award subject to that condition, and no jurisdiction challenged the condition in connection with FY 2016 Byrne
JAG awards. See id. at 335, 396; see also, e.g., id. at
355-357.
In October 2016, OJP published guidance explaining
that “all Byrne/JAG grant applicants must certify compliance with all applicable federal laws, including Section 1373.” C.A. E.R. 200; see id. at 199-202. The guidance explained that the certification requirement would
not affect Byrne JAG awards for FY 2016 or prior
years, but that OJP expected grant recipients to “examine their policies and procedures to ensure they will be
able to submit the required assurances” in their FY
2017 applications. Id. at 200.
In accordance with that guidance, in the solicitations of applications for FY 2017 Byrne JAG awards
released in August 2017, OJP specified that applicants

8
would be required to certify their compliance with Section 1373 in connection with their applications. C.A.
E.R. 228, 242, 247, 249-250, 256 (local governments);
id. at 269-270, 284, 289, 291-292, 299 (States). The solicitations included a certification form on which an applicant’s Chief Legal Officer was to certify that any
“program or activity” funded in whole or in part by the
grant complies with Section 1373. See id. at 265, 308.
The special-conditions section of the award documents
for FY 2017 accordingly stated that a grantee must
comply with Section 1373, that its authority to obligate
funds is contingent on such compliance, and that the
grantee must certify its compliance (the certification
condition). See, e.g., id. at 433-435 (¶¶ 52-54).
In addition, OJP’s solicitations for FY 2017 Byrne
JAG awards included two other conditions designed to
ensure that the activities of recipients of federal lawenforcement grants do not impair the federal government’s ability to detain and remove aliens upon their release from state or local criminal custody. See C.A.
E.R. 257, 300. One requires a Byrne JAG program
grantee to have a policy designed to ensure that facilities provide notice to DHS “as early as practicable” of
the scheduled release date and time for a particular alien if DHS has provided a formal written request for
advance notice (the notice condition). See, e.g., id. at
437 (¶ 56.1.B). The other requires a grantee to have a
policy that federal agents will be “given access” to correctional or detention facilities to meet with aliens and
“inquire as to such individuals’ right to be or remain in
the United States” (the access condition). Ibid. (¶ 56.1.A);
see id. at 436-437 (¶¶ 55.4.A(2), 56.4.B); 34 U.S.C.
10251(a)(7). Those conditions also apply to any “pro-

9
gram or activity” funded by the grant. The Acting Assistant Attorney General for OJP announced that compliance with the conditions “will be an authorized and
priority purpose of the award.” C.A. E.R. 300.
C. The Present Controversies

1. Respondents, the State of California and the City
and County of San Francisco, have policies that restrict
the exchange of information with federal immigration
authorities. See App., infra, 13a-15a & nn.4-6. For example, California law prohibits “state or local law enforcement agenc[ies]” in the State from “[p]roviding information regarding a person’s release date or responding to requests for notification by providing release dates or other information unless that information is available to the public, or is in response to a
notification request from immigration authorities” under certain circumstances. Cal. Gov’t Code §§ 7284.4(a),
7284.6(a)(1)(C) (West 2019). California law also bars
those agencies from “[p]roviding personal information
* * * about an individual, including, but not limited to,
the individual’s home address or work address unless
that information is available to the public.” Id.
§ 7284.6(a)(1)(D). Similarly, San Francisco’s administrative code bars city officials and law-enforcement officers from sharing information about an individual’s
“release status” or “home or work contact information”
with federal immigration authorities. S.F. Mun. Admin.
Code §§ 12H.2, 12I.2, 12I.3 (Supp. Apr.- June 2020).
After OJP solicited applications for FY 2017 Byrne
JAG awards, respondents each brought suit against the
Department and its officials challenging the certification, notice, and access conditions. See 17-cv-4701 Am.
Compl. ¶¶ 1-16, 122-153 (D. Ct. Doc. 11 (Oct. 13, 2017));
17-cv-4642 Am. Compl. ¶¶ 1-20, 166-192 (D. Ct. Doc. 61

10
(Dec. 12, 2017)). Both suits asserted that the conditions
are not statutorily authorized and that Section 1373 violates the Tenth Amendment. See ibid. Respondents
sought preliminary and permanent injunctions barring
the Department from enforcing the conditions, and California sought a writ of mandamus compelling the Department to issue the FY 2017 grants. See 17-cv-4701
Am. Compl. 37-38; 17-cv-4701 D. Ct. Doc. 116, at 33-35;
17-cv-4642 Am. Compl. 41-42. Respondents each also
sought a declaration that Section 1373 violates the
Tenth Amendment, or alternatively that their respective laws comply with Section 1373. See 17-cv-4701 Am.
Compl. 37-38; 17-cv-4642 Am. Compl. 41-42.
2. In a consolidated decision addressing both suits,
the district court granted summary judgment to respondents, and it awarded a permanent injunction to
both respondents and a writ of mandamus to California.
App., infra, 24a-113a.
As relevant here, the district court concluded that all
three conditions are statutorily unauthorized. App., infra, 48a-57a, 69a-70a. The court held that no provision
of the Byrne JAG statute, 34 U.S.C. 10151 et seq., authorizes the imposition of the notice and access conditions. App., infra, 48a-57a. The court rejected the government’s contention that both conditions are authorized by 34 U.S.C. 10102(a)(6), which (as noted) allows
the Assistant Attorney General for OJP to “exercise
such other powers and functions as may be vested in the
Assistant Attorney General pursuant to [Chapter 101]
or by delegation of the Attorney General, including
placing special conditions on all grants, and determining priority purposes for formula grants.” Ibid. (emphasis added). The court determined that Section
10102(a)(6) does not “establish[ ] an independent grant

11
of authority” to place special conditions on Byrne JAG
awards, observing that “Section 10102(a)(6) is in a different subchapter than the Byrne JAG statute and
there is no text expressly applying it to the Byrne JAG
program.” App., infra, 55a-56a. The court did not address whether the notice and access conditions are independently authorized by 34 U.S.C. 10153(a)(4) and
(5)(C), which require grantees to “report such data, records and information (programmatic and financial) as
the Attorney General may reasonably require” and to
undertake “appropriate coordination with affected
agencies.” Ibid.
The district court also held that OJP lacked authority to impose the condition requiring a grantee to certify its compliance with 8 U.S.C. 1373. App., infra,
69a-70a. The court concluded that, although 34 U.S.C.
10153(a)(5)(D) requires an applicant for a Byrne JAG
award to certify that it “will comply with * * * all
other applicable Federal laws,” Section 1373 is not an
“applicable Federal law[ ]” within the meaning of that
provision. App., infra, 57a, 70a (citation and emphasis
omitted). The court construed “applicable Federal
laws” in Section 10153(a)(5)(D) to refer only to “laws
related to grant applications.” Id. at 70a. The court
additionally concluded that both California’s and San
Francisco’s laws comply with Section 1373, holding
that Section 1373 encompasses (and prohibits a state
or local government from withholding) only “ ‘information strictly related to immigration status,’ ” and

12
thus not “release dates and addresses.” Id. at 96a, 98a
(citation omitted). *
In addition to declaring the three conditions unlawful, the district court found that respondents were entitled to a “nationwide” permanent injunction from enforcing the conditions, but it “stay[ed] [the] nationwide
scope” of the injunction pending appeal. App., infra,
110a; see id. at 102a-110a, 115a-116a, 118a-120a. The
court also found that California was entitled to a writ of
mandamus compelling OJP to disburse Byrne JAG
funds to the State. Id. at 110a-112a, 120a-121a.
3. In a consolidated decision addressing both cases,
the court of appeals affirmed except with respect to the
nationwide scope of the injunction, which it vacated.
App., infra, 1a-23a.
a. The court of appeals concluded that OJP lacked
statutory authority to impose the notice and access conditions. App., infra, 10a-12a. The court reasoned that
its recent decision in City of Los Angeles v. Barr,
941 F.3d 931 (9th Cir. 2019), which had upheld a preliminary injunction against enforcement of those conditions while the appeals in this case were pending, had
rejected the government’s arguments that those conditions are authorized by 34 U.S.C. 10102(a)(6) or
10153(a). App., infra, 10a-11a.
The district court also concluded that the three conditions violate the separation of powers and the Spending Clause, U.S. Const.
Art. I, § 8, Cl. 1; that 8 U.S.C. 1373 violates the Tenth Amendment;
and that all three conditions are arbitrary and capricious, in violation
of the Administrative Procedure Act, 5 U.S.C. 551 et seq., 701 et seq.
App., infra, 47a-49a, 58a-67a, 71a-94a. The court of appeals, however, “d[id] not address” those other questions, expressly limiting
its decision to respondents’ challenges to OJP’s statutory authority.
Id. at 12a. Those other questions accordingly are not presented
here.
*

13
The court of appeals observed that, in Los Angeles,
it had acknowledged that Section 10102(a)(6) does confer “independent authority” on OJP to impose grant
conditions. App., infra, 11a. But the court noted that
it had further held that Section 10102(a)(6) authorizes
only “ ‘special conditions’ ” or “ ‘priority purposes,’ ” and
that the notice and access conditions “were not imposed
pursuant to th[at] authority.” Ibid. (citation omitted).
The Los Angeles panel had interpreted “special conditions” in Section 10102(a)(6) to mean “individualized requirements included in a specific grant” designed to
“tailor[ ]” the grant “when necessary” to account for a
grantee’s particular circumstances. 941 F.3d at 941.
The court then had concluded that the notice and access
conditions did not qualify because they “are not conditions triggered by specific characteristics not addressed by established conditions.” Id. at 942. And the
Los Angeles panel had additionally held that “[n]one of
the purposes” of Byrne JAG awards enumerated in the
statute—“ ‘provid[ing] additional personnel, equipment,
supplies, contractual support, training, technical assistance, and information systems for criminal justice’ ”—
“corresponds to [OJP’s] requirement that the recipient
honor DHS’s requests for advance notice of detained
aliens’ release dates or allow federal agents access to
correctional facilities to meet with detained aliens.”
Ibid. (citation omitted).
The court of appeals further observed that, in Los
Angeles, it had rejected the contention that the notice
and access conditions are authorized by provisions of
Section 10153(a) that require an applicant to provide an
“assurance” that the applicant will provide “programmatic” information, 34 U.S.C. 10153(a)(4), and a “certification” that there has been “appropriate coordination

14
with affected agencies,” 34 U.S.C. 10153(a)(5)(C). App.,
infra, 11a. The Los Angeles panel had concluded that
“programmatic” information encompasses only information about the specific program for which the grant
funds are used. 941 F.3d at 944-945. And the court held
that the requirement of “appropriate coordination with
affected agencies” involves only an applicant’s certification that “it has coordinated with the agencies affected
by the program to be funded by the Byrne JAG award.”
Id. at 945. The court in Los Angeles found that the notice and access conditions exceeded the scope of that authority. See id. at 944-945.
The court of appeals acknowledged that the question
of OJP’s authority to impose the notice and access conditions had “resulted in a circuit split,” as the Second
Circuit had recently held that the notice and access conditions are authorized by Section 10153. App., infra,
11a-12a & n.3 (citing New York, supra). But the court
of appeals noted that it was bound by its decision in Los
Angeles. Id. at 12a.
b. The court of appeals additionally concluded that
OJP may not withhold Byrne JAG funds from respondents for noncompliance with the certification condition
because it found that respondents’ “sanctuary laws do
not violate 8 U.S.C. § 1373.” App., infra, 12a. The court
explained that, in another intervening decision issued
while the appeals in this case were pending, it had construed Section 1373 to encompass only “ ‘information
strictly pertaining to immigration status (i.e., what
one’s immigration status is),’ ” and thus not “information about when a person will be released from state
or local custody.” Id. at 14a (quoting United States v.
California, 921 F.3d 865, 891 (2019), cert. denied,
No. 19-532 (June 15, 2020)).

15
Applying that “narrow construction,” the court of appeals here concluded that California’s and San Francisco’s laws do not violate Section 1373. App., infra, 16a;
see id. at 14a-18a. The court reasoned that those laws
“do not apply to information regarding a person’s citizenship or immigration status,” but instead restrict the
sharing of information regarding “release status” and
certain other personal information, as well as certain
forms of cooperation with federal officials’ enforcement
of immigration laws. Id. at 16a, 18a; see id. at 16a-18a.
c. The court of appeals vacated the nationwide scope
of the permanent injunction the district court had issued. App., infra, 18a-22a. But the court left the injunction in force within “California’s geographical
boundaries.” Id. at 22a.
REASONS FOR GRANTING THE PETITION

Through the Byrne JAG program, Congress provides hundreds of millions of dollars of federal aid each
year to state and local law-enforcement entities. Congress has made receipt of Byrne JAG awards contingent on a grantee’s compliance with certain requirements set forth in the statute—which are implemented
in the terms of grants that OJP issues—and with special conditions Congress authorized OJP to adopt for
some or all grants. The three conditions at issue here,
applicable to all Byrne JAG grantees nationwide, seek
to ensure a baseline level of coordination and cooperation with the federal government by state and local governments that request and accept Byrne JAG funds.
All three seek to ensure that grantees are good partners and that the grants advance rather than undermine Congress’s objectives. And all three are lawful
both as exercises of OJP’s general authority to adopt
special conditions for grant programs and as measures

16
to implement requirements specific to the Byrne JAG
program prescribed by Congress.
Deepening an existing circuit conflict, the decision
below held two of those conditions unlawful and eviscerated the third. Those rulings rest on untenably narrow
interpretations of the statutes that establish OJP’s authority and that set the terms of the Byrne JAG program. The Ninth Circuit read into the statutes limitations that have no foundation in the text. And its decision severely curtails OJP’s ability to adopt grant conditions going forward, while enabling state and local governments to obtain federal financial assistance for their
law-enforcement programs even as those programs actively undermine federal law-enforcement efforts.
The lower-court conflict the decision below cemented
is very unlikely to disappear on its own. The Second
Circuit recently denied rehearing en banc of a panel decision upholding the same conditions. This Court’s review is warranted to resolve the entrenched conflict on
this important and recurring question. The petition for
a writ of certiorari should be granted.
I. THE DECISION BELOW IS INCORRECT

Congress established the Byrne JAG program to
provide federal financial assistance to state and local
governments’ law-enforcement efforts. Accepting that
aid brings with it an obligation to satisfy certain requirements that Congress established and authorized
OJP to implement in administering grants, and others
Congress authorized OJP to prescribe. All three conditions at issue here are lawful exercises of that authority.
Congress set the ground rules for Byrne JAG
grants in the statute itself, establishing baseline requirements that grantees must meet to obtain grant

17
funds. Apart from procedural rules about the application process, those requirements largely serve to ensure a grantee is a good partner with the federal government whose aid it seeks and accepts. 34 U.S.C.
10153(a). For Byrne JAG grants and other grant programs OJP administers, however, Congress recognized that it could not anticipate every issue that might
arise and that OJP would need authority to adopt requirements above and beyond the statutory baseline.
In the same 2006 statute that established the Byrne
JAG program, Congress accordingly granted OJP express statutory authority to “place special conditions
on all grants,” including Byrne JAG grants. 34 U.S.C.
10102(a)(6). The three conditions at issue in this case
are valid both (1) as exercises of OJP’s general authority to adopt special conditions and (2) as implementations of Byrne JAG-specific statutory requirements.
The shortest and simplest path to that conclusion is
the first. Section 10102(a)(6) authorizes OJP to “place
special conditions on all grants.” 34 U.S.C. 10102(a)(6).
That text makes clear, and the court of appeals agreed,
that OJP has “independent authority” to prescribe
conditions on Byrne JAG grants beyond the baseline
statutory requirements. App., infra, 11a. The notice,
access, and certification conditions at issue here fall
squarely within that independent authority. Nothing
in the statutory language suggests that those modest
commitments to coordinate and cooperate with the federal government exceed OJP’s authority.
The Ninth Circuit avoided that straightforward
conclusion by reading into Section 10102(a)(6) a limitation not found in the text. The court construed that
provision to permit only “individualized requirements”
“tailored” to a specific grantee’s circumstances. City

18
of Los Angeles v. Barr, 941 F.3d 931, 941 (9th Cir.
2019); see App., infra, 10a-11a. The court had no license
to create limitations that Congress did not. And the
particular atextual restriction the court superimposed
is irreconcilable with the statutory language (authorizing conditions on “all grants,” 34 U.S.C. 10102(a)(6))
and with the statutory context and structure. Wherever
the outer limits of Section 10102(a)(6) lie, at a minimum
the provision authorizes OJP to adopt conditions that,
like the three at issue here, are reasonably related to
the program funded by a Byrne JAG grant.
Each of the three conditions is independently authorized as a means of implementing the statutory
ground rules for Byrne JAG grants. The notice condition implements a grantee’s statutorily required commitment to report “such * * * information * * * as
the Attorney General may reasonably require.”
34 U.S.C. 10153(a)(4). And both the notice and access
conditions implement grantees’ duty to ensure “appropriate coordination with affected agencies.” 34 U.S.C.
10153(a)(5)(C). The court of appeals found both conditions unauthorized based on crabbed interpretations of
each of those provisions. The certification condition
implements the requirement that a grantee certify that
it “will comply with all provisions of [the Byrne JAG
statute] and all other applicable Federal laws,”
34 U.S.C. 10153(a)(5)(D), which include 8 U.S.C. 1373.
The court largely nullified that condition by giving
Section 1373 an atextual, artificially narrow scope.
The court of appeals thus disregarded the statutory
text and context at every turn. And the end product of
its multiple errors is a statute Congress would not recognize. Its decision replaces a statutory framework
designed to ensure that grantees are good partners

19
with one that enables them to accept federal assistance
even while openly obstructing the federal government’s own law-enforcement efforts.
A. OJP Had Statutory Authority To Impose The Notice
And Access Conditions

1. The Byrne JAG statute provides that the “Attorney General may * * * make grants to States and units
of local government” to be used for “provid[ing] additional personnel, equipment, supplies, contractual support, training, technical assistance, and information
systems for criminal justice” to support (among other
things) “[l]aw enforcement programs.” 34 U.S.C.
10152(a)(1)(A). Congress specified a formula for allocating the total sum appropriated for Byrne JAG
awards among eligible grantees. 34 U.S.C. 10156. And
it charged the Attorney General with administering the
program, including by specifying the form of applications, 34 U.S.C. 10153(a), and by reviewing and adjudicating applications, 34 U.S.C. 10154.
Congress prescribed several requirements that successful grant applicants must satisfy, which are implemented via various “certification[s]” and “assurance[s]”
that each grant application must contain. 34 U.S.C.
10153(a)(1)-(5); see 34 U.S.C. 10153(a)(6). Among other
requirements, an applicant must certify that it will
“maintain and report such data, records, and information
(programmatic and financial) as the Attorney General
may reasonably require,” 34 U.S.C. 10153(a)(4); that
“there has been appropriate coordination with affected
agencies,” 34 U.S.C. 10153(a)(5)(C); and that the applicant “will comply with all provisions of ” the Byrne JAG
statute “and all other applicable Federal laws,” 34 U.S.C.
10153(a)(5)(D); see, e.g., 34 U.S.C. 10153(a)(1).

20
Cognizant that it could not foresee every contingency, Congress authorized the Assistant Attorney
General for OJP to specify additional conditions for
Byrne JAG and other grants. In the same enactment
that established the Byrne JAG program, Congress
amended an existing statutory provision that empowered the Assistant Attorney General to “exercise such
other powers and functions as may be vested in [him]
pursuant to [Chapter 101 of Title 34] or by delegation
of the Attorney General.” 42 U.S.C. 3712(a)(6) (2000),
recodified as amended, 34 U.S.C. 10102(a)(6). Congress
amended the provision to make clear that such powers
and functions “includ[e] placing special conditions on all
grants, and determining priority purposes for formula
grants.” 34 U.S.C. 10102(a)(6); see DOJ Reauthorization Act, §§ 1111, 1152(b), 119 Stat. 3094, 3113.
Exercising that authority, OJP has previously imposed special conditions on Byrne JAG grants relating
to information-technology requirements, protections
for human research subjects, requirements for and restrictions on the purchase of certain equipment, and
training. See, e.g., C.A. E.R. 404-415 (¶¶ 1-51) (San
Francisco’s FY 2016 award). Until the litigation over
the FY 2017 conditions at issue here, to the government’s knowledge none of those special conditions has
ever been questioned by Congress or challenged by a
grantee, including respondents. Indeed, in its FY 2016
award, California accepted without objection a special
condition requiring it to confirm its compliance with
Section 1373, and if not in compliance to take steps to
comply. Id. at 350 (¶ 55).
2. The notice and access conditions fall squarely
within the text authorizing OJP to “place special condi-

21
tions on all grants,” 34 U.S.C. 10102(a)(6). Those conditions, which apply to all grants, require grantees to commit to basic information sharing and law-enforcement coordination with the federal government to enhance public safety and to avoid frustrating federal enforcement
of federal immigration laws. And they were adopted to
address a special need OJP identified: the unforeseen
and unfortunate efforts by some grantees to refuse such
basic cooperation with the government.
a. In accepting the “notice” condition, an applicant
for a Byrne JAG award agrees that, for any “program
or activity” funded by the award, it will have a policy of
informing DHS of the scheduled release date of an alien
in criminal custody after receiving a formal written request from DHS. C.A. E.R. 436 (¶ 55.1.B). In accepting
the “access” condition, an applicant agrees that, with respect to any “program or activity” funded by the grant,
it will have a policy providing that federal agents will be
“given * * * access” to correctional or detention facilities for the purpose of meeting with aliens and “inquir[ing] as to such individuals’ right to be or remain in
the United States.” Ibid. (¶ 55.1.A); see App., infra,
5a-6a. In accepting those conditions, applicants simply
agree that their program or activity receiving federal
financial assistance will not impair the federal government’s efforts to enforce federal immigration laws with
respect to aliens in state or local criminal custody.
Those modest commitments fall comfortably within the
broad authority conferred by Section 10102(a)(6)’s text.
That should end the analysis.
The statutory context confirms that the notice and
access conditions are proper exercises of OJP’s authority. The Byrne JAG program provides federal financial
assistance to state and local governments to support

22
their law-enforcement efforts. In that context, OJP’s
statutory authority to impose “special conditions” naturally encompasses modest requirements that state
and local governments that request and receive assistance for their law-enforcement programs do not, in
those very programs, simultaneously frustrate the federal government’s law-enforcement efforts.
In the INA, Congress determined which aliens may
be admitted and which aliens are subject to removal.
See Arizona v. United States, 567 U.S. 387, 394-396
(2012). And Congress authorized and directed DHS to
implement those determinations by prosecuting removal proceedings against and removing aliens not entitled to remain. That responsibility often includes arresting and detaining such aliens pending removal proceedings or prior to removal. See 8 U.S.C. 1226, 1231.
But recognizing States’ and local governments’ own interests in enforcing their criminal laws, Congress
struck a balance, directing DHS generally not to take
aliens serving state sentences into custody until their
release. See 8 U.S.C. 1226(c), 1231(a)(1)(A), (B)(iii), (2),
and (4)(A).
The notice and access conditions dovetail with that
statutory framework. Actions by States or local governments to withhold requested notice of a detained alien’s
impending release, or to refuse access to federal authorities to conduct a voluntary interview with an alien,
thwart DHS’s efforts to fulfill its obligation to enforce
federal immigration laws. The notice and access conditions curtail such frustration by requiring that state and
local governments that willingly seek and accept federal
financial assistance for their law-enforcement programs
do not undermine the federal government’s own lawenforcement responsibilities.

23
b. The court of appeals concluded that the notice
and access conditions exceeded OJP’s authority by
reading in a limitation not found in the statutory text.
The court correctly acknowledged that Section 10102(a)(6)
confers “independent authority” on OJP. App., infra,
11a (citing Los Angeles, 941 F.3d at 939-944); see
American Sur. Co. v. Marotta, 287 U.S. 513, 517 (1933)
(“ ‘[I]nclude’ is frequently, if not generally, used as a
word of extension or enlargement.”). As the court had
previously recognized, a contrary reading would “deprive[ ] the 2006 amendment to § 10102(a)(6)” that
added that language “of any meaning.” Los Angeles,
941 F.3d at 941. But the court adopted in Los Angeles,
and applied here, an atextual restriction confining
OJP’s authority to adopting only “individualized requirements” “tailored” to particular grantees. Id. at
939-941; see App., infra, 11a. That reading is incorrect.
Nothing in the plain language of Section 10102(a)(6)
confines the special conditions OJP may impose to sui
generis, one-of-a-kind limitations. “Special” does not
necessarily signify “unique.” And it cannot plausibly
carry that meaning in the context of Section 10102(a)(6),
which authorizes OJP to impose such conditions on “all
grants.” 34 U.S.C. 10102(a)(6) (emphasis added).
Settled practice confirms what the text makes clear.
For years, OJP has applied special conditions to all participants in a specific grant program—including the
previously imposed special conditions on Byrne JAG
awards noted above. See p. 20, supra. OJP has separately crafted conditions applicable only to a particular
grantee, but those are known instead as “additional requirements,” C.A. E.R. 407, ¶ 14, or “specific award conditions,” 2 C.F.R. 200.207(a); see 2 C.F.R. 200.300(a).

24
c. The court of appeals in Los Angeles gave three
reasons for limiting Section 10102(a)(6) to individualized requirements. None has merit.
First, the court reasoned that the phrase “special
conditions” connotes a requirement “applied ‘to meet a
particular need’ for carrying out a program that is not
covered by established requirements.” Los Angeles,
941 F.3d at 940. But conditions that apply to more than
one grantee may still “meet a particular need.” Ibid.
The notice and access conditions, for example, meet the
need for basic cooperation between state and local law
enforcement and federal law enforcement—a need that
became manifest as some jurisdictions increasingly
failed to provide such cooperation. The court of appeals’
contrary view would implausibly mean that OJP may react only to grantee-specific issues but not to widely proliferating problems.
Second, the court of appeals suggested that a Department of Justice regulation no longer in force—in effect between 1988 and 2014—supported reading “special conditions” narrowly. Los Angeles, 941 F.3d at 941
(citing 28 C.F.R. 66.12 (2006)). That regulation provides
no basis for narrowing the statutory text. The regulation addressed “special grant or subgrant conditions for
‘high-risk’ grantees,” 28 C.F.R. 66.12 (2006) (emphasis
omitted), such as grantees with a history of financial
mismanagement. But as the qualifier “for high-risk
grantees” illustrates, that regulation did not purport to
define the term “special conditions” for all purposes or
to address every situation in which special conditions
might be appropriate. It merely described one type of
special condition applicable to one type of grantee.
Third, the court of appeals noted that the term “special conditions” also appears in 34 U.S.C. 10109(a)(2),

25
which the court viewed as supporting a narrow interpretation of the phrase. Los Angeles, 941 F.3d at 941.
That is incorrect. Section 10109(a)(2) provides that an
OJP component tasked with auditing grants must “take
special conditions of the grant into account and consult
with the office that issued those conditions to ensure appropriate compliance.” 34 U.S.C. 10109(a)(2). The
court erroneously concluded that Congress must have
intended such an audit to focus on “individualized requirements included in a specific grant.” Los Angeles,
941 F.3d at 941. But an audit can just as easily address
compliance with generally applicable conditions. And
contrary to the court’s assumption, the fact that Congress directed the auditor to identify and “consult with
the office that issued the condition” does not signify that
“special conditions” in Section 10109(a)(2) must be
grantee-specific. Ibid. (citation omitted). An auditor
assessing compliance with a generally applicable condition imposed by another agency component might well
consult that component for guidance as to its intended
meaning and application.
3. Independent of OJP’s general statutory authority to establish special conditions under Section
10102(a)(6), the conditions at issue here are also authorized as measures to implement ground rules set
forth in the Byrne JAG statute itself, 34 U.S.C.
10153(a)(4) and (5)(C). See New York v. United States
Dep’t of Justice, 951 F.3d 84, 116-122 (2d Cir.), reh’g
denied, 964 F.3d 150 (2020).
a. The Byrne JAG statute requires an applicant to
provide an “assurance” that it will “maintain and report
such data, records, and information (programmatic and
financial) as the Attorney General may reasonably re-

26
quire.” 34 U.S.C. 10153(a)(4). That requirement authorized OJP to impose the notice condition, which
simply calls on grantees to report certain information
that the Attorney General (through OJP) has deemed
appropriate—namely, to provide advance notice of the
release date of an alien to DHS after receiving a request for such notice from DHS.
The court of appeals in Los Angeles erred in concluding that Section 10153(a)(4) does not authorize the notice condition on the ground that information about an
alien’s release date is not “programmatic.” 941 F.3d at
944. The court reasoned that “DHS requests for notice
of the release of a detained alien do not relate to a program funded by Byrne JAG.” Id. at 945. As the Second
Circuit explained in New York, however, that is incorrect. 951 F.3d at 117. The statute enumerates the “programs” eligible for Byrne JAG assistance in very general terms, such as “[l]aw enforcement programs,”
“[p]rosecution and court programs,” and “[c]orrections
and community corrections programs,” among others.
34 U.S.C. 10152(a)(1)(A), (B), and (D). “[T]he release
information required by the Notice Condition is ‘programmatic,’ at least for Byrne-funded programs that
relate in any way to the criminal prosecution, incarceration, or release of persons, some of whom will inevitably be aliens subject to removal.” New York, 951 F.3d
at 117. Those categories “include[d] most, if not all, of
the programs” for which the grantees in that case had
“s[ought] Byrne funding.” Ibid. Similarly, although California’s application did not specify particular programs
for which it sought funding, it indicated that funds would
be directed to local projects within broad “priority program purpose areas of Prevention and Education, Law
Enforcement, and Prosecution, Courts, and Defense.”

27
California Bd. of State and Cmty. Corr., Edward Byrne
Memorial Justice Assistance Grant Program: Federal
Fiscal Year 2017 California State Application 5 (Aug.
25, 2017), https://go.usa.gov/xGFHz.
b. The Byrne JAG statute also requires an applicant
to certify that “there has been appropriate coordination
with affected agencies.” 34 U.S.C. 10153(a)(5)(C). The
text of that requirement authorized OJP to impose both
the notice and access conditions. When, as here, “a
State seeks Byrne funding for programs that relate to
the prosecution, incarceration, or release of persons,
some of whom will be removable aliens, there must be
coordination with the affected federal agency, [DHS],
before a formal application is filed.” New York,
951 F.3d at 119. And “what makes that coordination
‘appropriate’ is that it will establish the parties’ relationship and the sequence of their conduct throughout
the grant period.” Ibid. In the context of immigration
enforcement, such coordination is essential because, for
example, States and localities may first prosecute state
and local crimes, and only when those sentences are
served does DHS enforce the immigration laws. “[A]
removable alien’s State incarceration and release from
incarceration will affect DHS’s performance of its own
statutory duties throughout the grant period.” Id. at
120. Notice of an alien’s impending release from state
or local criminal custody, and access to the alien before
his release, are critical for DHS to carry out its responsibilities and central to its relationships with state and
local authorities. See pp. 21-22, supra.
“The Notice Condition serves to ensure such appropriate coordination” by advising grantees “that, at the
time they file a Byrne grant application, they must
agree to respond as soon as practicable to a written

28
DHS request for the release date of an identified Stateincarcerated alien and to have a statute, rule, or policy
in force throughout the grant period.” New York,
951 F.3d at 120. Compliance with the access condition
similarly “constitutes ‘appropriate coordination’ ” within
the meaning of Section 10153(a)(5)(C) “in that it allows
both the [applicant] seeking a Byrne grant * * * and an
affected agency, DHS, to carry out their respective duties with respect to incarcerated aliens in an orderly sequence.” Id. at 121.
The court of appeals in Los Angeles rejected that
straightforward interpretation of the text, 941 F.3d at
945, concluding that Section 10153(a)(5)(C)’s “appropriate coordination” provision requires only that the applicant has coordinated with other agencies affected by the
particular program at the time the certification was
made and does not require any “ongoing cooperation.”
Ibid. That restricted reading of the text is implausible.
On that view, OJP would have no ability to enforce a
grant condition even if the recipient made clear that it
intended to end any coordination immediately after the
grant was awarded. Instead, as the Second Circuit correctly determined, in this statutory context, “appropriate coordination frequently, perhaps invariably, must
determine future conduct.” New York, 951 F.3d at 118.
B. OJP May Withhold Byrne JAG Funds From Respondents
For Noncompliance With Section 1373

OJP also acted within its authority in imposing the
certification condition, which requires Byrne JAG applicants to comply with 8 U.S.C. 1373 and to certify such
compliance. E.g., C.A. E.R. 433-435. The court of appeals’ decision threatens to eviscerate OJP’s ability to
enforce that condition.

29
1. As with the notice and access conditions, OJP had
general authority to impose the certification condition
as a “special condition” under 34 U.S.C. 10102(a)(6).
See pp. 19-25, supra. And like those conditions, the certification condition is also independently authorized by
the Byrne JAG statute itself. The statute requires a
Byrne JAG applicant to certify that “the applicant will
comply with [the Byrne JAG statute] and all other applicable Federal laws.” 34 U.S.C. 10153(a)(5)(D) (emphasis
added). Section 1373 is one such “applicable Federal
law[ ].” Ibid. That provision is a federal statute that
applies by its terms to any “State” or “local government
entity or official.” 8 U.S.C. 1373(a). Section 1373 bars
those entities and officials from prohibiting or restricting the sharing with federal authorities of “information
regarding the citizenship or immigration status, lawful
or unlawful, of any individual.” Ibid.; see 8 U.S.C.
1373(b). Under the terms of Section 10153(a)(5)(D),
Byrne JAG applicants thus must certify that they will
comply with Section 1373.
2. The district court in this case erroneously determined that Section 1373 is not an “applicable Federal
law[ ]” with which Byrne JAG applicants must certify
that they will comply in connection with their grant
award. App., infra, 70a (citation omitted). The court
construed “ ‘all other applicable Federal laws’ ” in Section 10153(a)(5)(D) to refer only to “laws related to
grant applications.” Ibid. (citation omitted). But that
narrow reading has no basis in the statutory text. “By
itself, the phrase ‘all other law’ indicates no limitation.”
Norfolk & W. Ry. Co. v. American Train Dispatchers’
Ass’n, 499 U.S. 117, 129 (1991). And as the Second Circuit correctly recognized, “Congress’s use of the adjective ‘all’ to introduce the phrase ‘all other applicable

30
Federal laws’ signals an intent to give the word ‘applicable’ its full effect, not to narrow it.” New York,
951 F.3d at 106. If Congress had intended to limit the
certification required by Section 10153(5)(D) to laws applicable to applications for grants, it could have done so
expressly, as it has done elsewhere. See, e.g., 42 U.S.C.
16154(g)(1) (“consistent with the generally applicable
Federal laws and regulations governing awards of financial assistance, contracts, or other agreements”);
Water Resources Reform and Development Act of 2014,
Pub. L. No. 113-121, § 1043(a)(3)(C)(ii)(II), 128 Stat.
1246 (recipient “will comply with all applicable Federal
laws (including regulations) relating to the use of those
funds”).
As the Second Circuit has explained, the net result
of the district court’s narrow interpretation of Section
10153(a)(5)(D) would be that States and localities could
demand “federal funds to enforce their own laws while
themselves hampering the enforcement of federal laws,
or worse, violating those laws.” New York, 951 F.3d 107.
Nothing “dictate[s] that such an applicant must be
given federal money even as it continues to flout federal
law.” Ibid.
3. The court of appeals reached a similar ultimate
result to the district court—i.e., holding that OJP “cannot withhold Byrne funds pursuant to the Certification
Condition by asserting that [respondents’] laws prevent
their compliance with § 1373”—but by a different analytical path. App., infra, 12a. The court concluded that
respondents do not violate Section 1373 (and that they
thus comply with the certification condition) even
though they have laws or policies expressly barring
their employees from providing information essential to

31
federal enforcement of the immigration laws against individuals in state or local criminal custody. Id. at
12a-18a; see id. at 94a-102a (district court granting declaratory relief on that alternative basis). In the court
of appeals’ view, Section 1373’s reference to “information regarding” an individual’s “citizenship or immigration status,” 8 U.S.C. 1373(a), narrowly refers only
to “a person’s legal classification under federal law,”
App., infra, 16a (quoting United States v. California,
921 F.3d 865, 891 (9th Cir. 2019), cert. denied,
No. 19-532 (June 15, 2020)). That reading is inconsistent with the text, context, and purpose of Section
1373.
Section 1373(a) broadly prohibits restrictions on
sharing “information regarding [an individual’s] citizenship or immigration status.”
Ibid. (emphasis
added). Statutory terms like “ ‘regarding’ ” or “ ‘related
to’ ” have “a broadening effect, ensuring that the scope
of a provision covers not only its subject but also matters relating to that subject.” Lamar, Archer & Cofrin,
LLP v. Appling, 138 S. Ct. 1752, 1759-1760 (2018) (citations omitted).
According the term “ ‘regard[ing]’ ” such a “broadening effect,” Appling, 138 S. Ct. at 1760 (citation omitted), is especially appropriate in this context, where another nearby subsection omits that term. Section
1373(c) refers simply to “the citizenship or immigration
status of any individual.” 8 U.S.C. 1373(c). Congress’s
inclusion of “regarding” in Section 1373(a), juxtaposed
with its omission in an otherwise-parallel provision, indicates that “Congress intended a difference in meaning.” Loughrin v. United States, 573 U.S. 351, 358
(2014). This reading also accords with Section 1373(a)’s
purpose of ensuring that state and local officials can

32
“communicate with [federal immigration authorities]
regarding the presence, whereabouts, or activities of illegal aliens.” New York, 951 F.3d at 97 (quoting Conference Report 383) (brackets in original).
Section 1373(a) thus bars restrictions like those
respondents have imposed on sharing an individual’s
release date or home address. Cal. Gov’t Code
§ 7284.6(a)(1)(C) and (D) (West 2019); S.F. Mun. Admin. Code 12H.2, 12I.2, 12I.3 (Supp. Apr.- June 2020).
An individual’s release date is closely related to immigration status. See New York, 951 F.3d at 119-120. For
example, the INA provides that a convicted alien in
state criminal custody who is subject to a final removal
order may not be removed until he “is released from imprisonment,” 8 U.S.C. 1231(a)(4)(A), and then must be
removed “within a period of 90 days,” 8 U.S.C.
1231(a)(1)(A) and (B)(iii). The release date thus bears
directly on DHS’s ability and obligation to remove the
alien, a matter directly related to immigration status.
And an alien’s home address may bear, for example, on
whether he has failed to notify the government of a
change in his address, which can subject him to removal
proceedings. See 8 U.S.C. 1305(a), 1306(b). The court
of appeals’ interpretation confining Section 1373 to only
an alien’s immigration status simpliciter improperly
narrows that provision and, with it, OJP’s authority.
II. THE DECISION BELOW WARRANTS REVIEW

The decision below deepens a circuit conflict concerning the three conditions at issue and others like
them. That division reflects a fundamental disagreement over the scope of OJP’s statutory authority and
the obligations of state and local governments that seek
and accept federal law-enforcement assistance.

33
A. The circuits are divided over whether the notice
and access conditions are authorized by statute. The
Second Circuit correctly upheld those conditions as a
permissible exercise of authority derived from the
Byrne JAG statute. New York, 951 F.3d at 116-122. By
contrast, in addition to the court of appeals here, the
First, Third, and Seventh Circuits have held that those
conditions are not authorized. City of Providence v.
Barr, 954 F.3d 23, 32-36, 39-45 (1st Cir. 2020); City of
Philadelphia v. Attorney Gen., 916 F.3d 276, 285-288
(3d Cir. 2019); City of Chicago v. Barr, 961 F.3d 882,
892-894 (7th Cir. 2020).
Moreover, even the circuits that have held the notice and access conditions to be unauthorized disagree
on the scope of OJP’s statutory authority. The court
of appeals here recognized that Section 10102(a)(6)
does confer “independent authority” on OJP. App., infra, 11a; see Los Angeles, 941 F.3d at 939-944. In contrast, other circuits have held that OJP has no authority to impose special conditions, despite the plain language of 34 U.S.C. 10102(a)(6). See Chicago, 961 F.3d
at 894; Providence, 954 F.3d at 39-45; Philadelphia,
916 F.3d at 287-288. That reading nullifies the “special
conditions” language that Congress specifically added
to the statute, and thus threatens to imperil all special
conditions—including conditions that the Department
has long imposed, without objection, on Byrne JAG (and
other) awards. See pp. 19-20, supra.
B. The courts of appeals have likewise reached conflicting conclusions about the certification condition.
Three circuits have held that grantees can certify their
compliance with “applicable Federal laws,” and thus receive federal funds, while refusing categorically to comply with 8 U.S.C. 1373. Chicago, 961 F.3d at 898-909;

34
Providence, 954 F.3d at 36-39; Philadelphia, 916 F.3d
at 288-291. The court of appeals here reached a similar
result by giving an unduly restrictive reading to Section
1373 that leaves jurisdictions free to adopt policies prohibiting information sharing in ways that undermine
basic law-enforcement cooperation, contrary to the
statute’s text and purpose. App., infra, 13a-18a. In contrast, the Second Circuit has properly recognized both
the centrality of information such as an alien’s release
date from local custody to the enforcement of federal
immigration law, and the implausibility of concluding
that Congress believed grantees could refuse to comply
with Section 1373 even as they seek and accept Byrne
JAG grant funds. See New York, 951 F.3d at 96-97, 107,
119-120.
C. These divisions are very unlikely to be resolved
without this Court’s intervention. The Second Circuit
recently denied rehearing en banc in New York, with
multiple judges emphasizing that the issues are of “exceptional importance” and that there is an “important
circuit split that needs to be repaired definitively and
now.” 964 F.3d at 155 & n.5 (Lohier, J., concurring in
the denial of rehearing en banc); see id. at 150, 153
(Cabranes, J., concurring in the denial of rehearing en
banc); id. at 169-170 (Katzmann, C.J., dissenting from
the denial of rehearing en banc). In light of that denial
of rehearing, even if other circuits reconsider their conclusions, the conflict is unlikely to disappear.
This Court’s review is warranted now. Five courts
of appeals have weighed in on the conditions at issue
here. Only one case is currently pending in a court of
appeals that has not already addressed the conditions.
State of Colorado v. United States Dep’t of Justice,
No. 20-1256 (10th Cir. docketed July 13, 2020). With

35
new grants under the Byrne JAG program being
awarded each year, this Court’s review is warranted.
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
EDWIN S. KNEEDLER
Deputy Solicitor General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney
General
JONATHAN C. BOND
Assistant to the Solicitor
General
MARK B. STERN
DANIEL TENNY
LAURA MYRON
BRAD HINSHELWOOD
Attorneys

NOVEMBER 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 18-17308
D.C. No. 3:17-cv-04642-WHO
CITY AND COUNTY OF SAN FRANCISCO,
PLAINTIFF-APPELLEE
v.
WILLIAM P. BARR, ATTORNEY GENERAL; ALAN R.
HANSON; UNITED STATES DEPARTMENT OF JUSTICE;
MATT M. DUMMERMUTH, DEFENDANTS-APPELLANTS
No. 18-17311
D.C. No. 3:17-cv-04701-WHO
STATE OF CALIFORNIA, EX REL. XAVIER BECERRA,
IN HIS OFFICIAL CAPACITY AS ATTORNEY GENERAL OF
THE STATE OF CALIFORNIA, PLAINTIFF-APPELLEE
v.
WILLIAM P. BARR, ATTORNEY GENERAL; ALAN R.
HANSON; UNITED STATES DEPARTMENT OF JUSTICE;
MATT M. DUMMERMUTH; PHIL E. KEITH,
DEFENDANTS-APPELLANTS
Argued and Submitted: Dec. 2, 2019
San Francisco, California
Filed: July 13, 2020

(1a)

2a
Appeal from the United States District Court
for the Northern District of California
William Horsley Orrick, District Judge, Presiding
OPINION

Before: WILLIAM A. FLETCHER, RICHARD R. CLIFTON, and ERIC D. MILLER, Circuit Judges.
CLIFTON, Circuit Judge:
The federal government has provided funding for
state and local criminal justice programs through Edward Byrne Memorial Justice Assistance Grants since
2006. In Fiscal Year (“FY”) 2017, the Attorney General and the Department of Justice (“DOJ”) announced
three new conditions that state and local governments
must satisfy to receive Byrne grants. Two conditions
require recipient jurisdictions to provide the Department of Homeland Security (“DHS”) with (1) access to
the jurisdiction’s detention or correctional facilities to
interview people in custody about their right to be in the
United States (the “Access Condition”), and (2) advance
notice of the scheduled release of aliens in the jurisdiction’s custody (the “Notice Condition”). The third condition requires jurisdictions to certify that their laws
and policies comply with 8 U.S.C. § 1373, a federal statute prohibiting states and localities from restricting the
flow of “information regarding [an individual’s] citizenship or immigration status” between state and local officials and DHS (the “Certification Condition”).
Plaintiffs—the City and County of San Francisco and
the State of California—are so-called “sanctuary” juris-

3a
dictions, which have enacted laws that limit their employees’ authority to assist in the enforcement of federal
immigration laws. Plaintiffs sued DOJ, the Attorney
General, and other DOJ officials (collectively, “DOJ”) to
prevent DOJ from denying funding of Byrne grants for
failure to comply with the Access, Notice, and Certification Conditions (collectively, the “Challenged Conditions”). Plaintiffs also sought a declaratory judgment
that their respective “sanctuary” laws do not violate
8 U.S.C. § 1373, or alternatively, that 8 U.S.C. § 1373 is
unconstitutional. On summary judgment, the district
court entered declaratory relief in favor of Plaintiffs on
all of their legal claims. It also permanently enjoined
DOJ, among other things, from “[u]sing the Section
1373 certification condition, and the access and notice
conditions
. . .
as requirements for Byrne JAG
grant funding.” It extended relief to the entire country
by providing that the permanent injunction applied to
“any California state entity, any California political subdivision, or any jurisdiction in the United States.”
Recent precedential decisions by this court have done
the heavy lifting with regard to the merits of the relief
granted by the district court. We held that DOJ lacked
statutory authority to impose the Access and Notice
Conditions on Byrne funds in reviewing a preliminary
injunction obtained by the City of Los Angeles. See
City of Los Angeles v. Barr, 941 F.3d 931 (9th Cir. 2019).
Consistent with our discussion in City of Los Angeles,
we affirm the injunction barring DOJ from using the Access and Notice Conditions as Byrne funding requirements for any California state entity or political subdivision.

4a
We also uphold the injunction barring DOJ from
denying or withholding Byrne funds on account of the
Certification Condition based on Plaintiffs’ alleged noncompliance with 8 U.S.C. § 1373. We narrowly construed the statutory language of 8 U.S.C. § 1373 in an
action filed by DOJ to enjoin California’s enforcement of
its newly-enacted Values Act, Cal. Gov’t Code § 7284
et seq., to conclude that the Values Act did not conflict
with § 1373. See United States v. California, 921 F.3d
865 (9th Cir. 2019), cert. denied, 590 U.S. — (U.S. Jun.
15, 2020) (No. 19-532). Consistent with our analysis in
that case, we hold that the remaining California and San
Francisco laws at issue here also comply with 8 U.S.C.
§ 1373 and cannot be cited in relation to the Certification
Condition as a basis to deny Byrne funding.
With regard to the geographical reach of the relief
granted by the district court, however, we conclude that
the district court abused its discretion in issuing an injunction that extended nationwide. Although San Francisco offered evidence that some jurisdictions across the
country might welcome an injunction against the Challenged Conditions, nothing in the record or in the nature
of the claims suggests that the relief granted by the district court needs to be extended to state and local governments outside of California, not parties to this litigation, in order to fully shield Plaintiffs. Therefore, we
vacate the nationwide reach of the permanent injunction
and limit its reach to California’s geographical boundaries.
I.

Background

The Byrne program is the “primary provider” of
federal grant dollars to support state and local criminal
justice programs. DOJ’s Office of Justice Programs,

5a
which administers the grant, disburses over $80 million
in awards each year. California has used prior Byrne
awards to support programs focused on criminal drug
enforcement, violent crime, and anti-gang activities.
San Francisco has used them to support programs focused on reducing the drug trade and providing services
to individuals with substance and mental health issues.
Each year, DOJ distributes Byrne funds pursuant to
a statutory formula based on population and violent
crime rate. See 34 U.S.C. § 10156(d)(2)(A). In FY
2017, California, through its Board of State and Community Corrections, expected to receive $28.3 million and
allocate $10.6 million in sub-grants to its localities. San
Francisco expected to receive a sub-grant of $923,401,
plus a direct award of $524,845 pursuant to its own FY
2017 application.
To receive and draw upon a Byrne award, a state or
local government must submit an application that complies with the statutory requirements outlined in 34
U.S.C. § 10153, in a form set forth in annual solicitation
documents that DOJ provides and in accordance with all
lawful conditions stated therein. See 34 U.S.C. § 10153.
DOJ’s FY 2017 solicitation documents included the
Challenged Conditions at issue in this appeal.
A.

The Challenged Conditions

The FY 2017 Byrne solicitations included the Access
and Notice Conditions, “two new express conditions” related to “the ‘program or activity’ that would be funded
by the FY 2017 award.” Respectively, the Access and
Notice Conditions require recipient jurisdictions to:

6a
(1) permit personnel of the U.S. Department of
Homeland Security (“DHS”) to access any correctional or detention facility in order to meet with an
alien (or an individual believed to be an alien) and inquire as to his or her right to be or remain in the
United States; and
(2) provide at least 48 hours’ advance notice to DHS
regarding the scheduled release date and time of an
alien in the jurisdiction’s custody when DHS requests such notice in order to take custody of the alien pursuant to the Immigration and Nationality Act.
The Byrne statute requires applicants to certify that
“the applicant will comply with all provisions of this
part and all other applicable Federal laws.” 34 U.S.C.
§ 10153(a)(5)(D). In FY 2016, DOJ announced that
8 U.S.C. § 1373 is an “applicable Federal law” under the
Byrne statute. In relevant part, 8 U.S.C. § 1373 prohibits states and localities from restricting their officials
from sharing “information regarding the citizenship or
immigration status, lawful or unlawful, of any individual” with DHS. 1

Congress enacted 8 U.S.C. § 1373 as part of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996. See Pub.
L. No. 104-208, div. C, tit. VI, § 642, 110 Stat. 3009, 3009-707. It
provides in full:
1

(a) In general
Notwithstanding any other provision of Federal, State,
or local law, a Federal, State, or local government entity
or official may not prohibit, or in any way restrict, any
government entity or official from sending to, or receiving

7a
In FY 2017, DOJ attached the Certification Condition to all Byrne awards. In the FY 2017 Byrne solicitations, DOJ announced that a jurisdiction cannot validly accept an award until its Chief Legal Officer executes and submits a form certifying that the jurisdiction
complies with 8 U.S.C. § 1373. This form and the statutory text of 8 U.S.C. § 1373 were attached as appendices to the solicitations.

from, the Immigration and Naturalization Service information regarding the citizenship or immigration status,
lawful or unlawful, of any individual.
(b) Additional authority of government entities
Notwithstanding any other provision of Federal, State,
or local law, no person or agency may prohibit, or in any
way restrict, a Federal, State, or local government entity from doing any of the following with respect to information regarding the immigration status, lawful or
unlawful, of any individual:
(1) Sending such information to, or requesting or
receiving such information from, the Immigration
and Naturalization Service.
(2)

Maintaining such information.

(3) Exchanging such information with any other
Federal, State, or local government entity.
(c) Obligation to respond to inquiries
The Immigration and Naturalization Service shall respond to an inquiry by a Federal, State, or local government agency, seeking to verify or ascertain the citizenship or immigration status of any individual within the
jurisdiction of the agency for any purpose authorized by
law, by providing the requested verification or status information.

8a
B.

Factual and Procedural History

The City and County of San Francisco and the State
of California filed lawsuits in the Northern District of
California in August 2017, seeking to enjoin DOJ from
implementing the Challenged Conditions. Plaintiffs
asserted that the Challenged Conditions are not authorized by the Byrne statute and violate constitutional separation of powers, the Spending Clause, and the Administrative Procedure Act (“APA”). Plaintiffs also argued that 8 U.S.C. § 1373 cannot be enforced against
them because it violates the Tenth Amendment.
Plaintiffs understood the Access and Notice Conditions to be inconsistent with the sanctuary laws and policies they have enacted. Plaintiffs claimed, however,
that they could comply with the Certification Condition
if the statute on which it is based, 8 U.S.C. § 1373, were
appropriately construed. Because DOJ threatened to
withhold FY 2017 funds based on the assertion that
Plaintiffs’ sanctuary laws violate 8 U.S.C. § 1373, Plaintiffs sought declaratory relief narrowly construing
§ 1373 and holding that the statute as so construed does
not conflict with Plaintiffs’ sanctuary laws. 2

The State of California sought similar relief related to a condition that DOJ placed on FY 2017 awards under the Community
Oriented Policing Services (“COPS”) grant program and the COPS
Anti-Methamphetamine Program (“CAMP”). See generally 34
U.S.C. § 10381 et seq. Like the Certification Condition attached
to Byrne awards, the challenged condition attached to the COPS/
CAMP awards requires applicants to certify their compliance with
8 U.S.C. § 1373. California’s Department of Justice submitted this
certification when it applied for a FY 2017 CAMP award, and although it received $1 million in CAMP funding that year, it was told
2

9a
In October 2018, the district court decided the case
in Plaintiffs’ favor on cross-motions for summary judgment. See City & Cty. of San Francisco v. Sessions,
349 F. Supp. 3d 924, 934 (N.D. Cal. 2018), judgment entered sub nom. California ex rel. Becerra v. Sessions,
No. 3:17-CV-04701-WHO, 2018 WL 6069940 (N.D. Cal.
Nov. 20, 2018). It issued declaratory and injunctive relief on all of Plaintiffs’ legal claims, holding the Challenged Conditions and 8 U.S.C. § 1373 unconstitutional
and unenforceable against Plaintiffs and any other jurisdiction in the United States. The district court stayed
the effect of the injunction’s nationwide scope pending
appellate review. See id. at 973-74.
On appeal, DOJ argues that the Challenged Conditions were imposed pursuant to lawful authority and did
not violate the Spending Clause or the APA, and that the
district court erroneously construed 8 U.S.C. § 1373 and
erred in holding that Plaintiffs’ respective laws did not
conflict with § 1373. DOJ also argues that the district
court abused its discretion by extending the scope of injunctive relief to non-parties nationwide.

it could not “draw down” the funds pending an inquiry into its compliance with § 1373.
The dispositive issue on appeal related to COPS/CAMP is whether
California’s state laws render California ineligible for COPS/
CAMP funding based on asserted non-compliance with 8 U.S.C.
§ 1373. This issue is identical to the issue regarding the Certification Condition attached to the Byrne program. See infra Part
IV. For the sake of simplicity, the issue is discussed in the text of
this opinion in terms of the Byrne program’s Certification Condition, but that discussion and our resolution of that challenge applies
similarly to the § 1373 certification condition under COPS/CAMP.

10a
II.

Standard of Review

Decisions regarding matters of law, including issues
of statutory interpretation, are reviewed de novo. Ileto
v. Glock, Inc., 565 F.3d 1126, 1131 (9th Cir. 2009) (citations omitted). We review a decision to enter a nationwide injunction for abuse of discretion. Los Angeles
Haven Hospice, Inc. v. Sebelius, 638 F.3d 644, 654 (9th
Cir. 2011). “District courts abuse their discretion when
they rely on an erroneous legal standard or clearly erroneous finding of fact.” E. Bay Sanctuary Covenant
v. Trump, 950 F.3d 1242, 1271 (9th Cir. 2020) (citation
omitted). “[A]n overbroad injunction is an abuse of
discretion.” California v. Azar, 911 F.3d 558, 582 (9th
Cir. 2018) (quoting Stormans, Inc. v. Selecky, 586 F.3d
1109, 1140 (9th Cir. 2009)).
III. The Access and Notice Conditions

The district court invalidated the Access and Notice
Conditions on multiple grounds, holding that they exceed DOJ’s statutory authority, violate constitutional
separation of powers, violate the Spending Clause, and
are arbitrary and capricious under the APA. See City
& Cty. of San Francisco, 349 F. Supp. 3d at 944-48, 95566. While this appeal was pending, we upheld a preliminary injunction obtained by the City of Los Angeles
against DOJ’s enforcement of the Access and Notice
Conditions, holding that DOJ lacked statutory authority
to implement them. See City of Los Angeles v. Barr,
941 F.3d 931, 945 (9th Cir. 2019).
DOJ contends that Congress granted it independent
authority to establish the Access and Notice Conditions
under 34 U.S.C. § 10102(a)(6). This statute provides:
“The Assistant Attorney General shall . . . exercise

11a
such other powers and functions as may be vested in the
Assistant Attorney General pursuant to this chapter or
by delegation of the Attorney General, including placing
special conditions on all grants, and determining priority purposes for formula grants.” In City of Los Angeles, we held that when § 10102 was amended in 2006,
“Congress affirmatively indicated its understanding
that the Assistant AG’s powers and functions could include ‘placing special conditions on all grants, and determining priority purposes for formula grants.’ ” 941
F.3d at 939 (quoting 34 U.S.C. § 10102(a)(6)). We held,
however, that the Access and Notice Conditions did not
constitute “special conditions” or “priority purposes.”
See id. at 939-44. Therefore, although we agreed with
DOJ that it was given independent authority in
§ 10102(a)(6), we held that the Access and Notice Conditions were not imposed pursuant to this authority.
Id. at 944.
DOJ alternatively argues that the Access and Notice
Conditions are authorized by provisions in the Byrne
statute requiring applicants to certify that “there has
been appropriate coordination” between the applicant
and “affected agencies,” 34 U.S.C. § 10153(a)(5)(C), and
to assure that it will maintain “programmatic” information “as the Attorney General may reasonably require,” id. § 10153(a)(4). We rejected these arguments
in City of Los Angeles, holding that the requirements
under the Access and Notice Conditions far exceed what
the statutory language of these provisions require. See
941 F.3d at 944-45.
Other circuits have reached differing conclusions regarding DOJ’s authority under § 10102(a)(6) and the

12a
Byrne statute to impose the Access and Notice Conditions, which has resulted in a circuit split. 3 Consistent
with our analysis in City of Los Angeles, we affirm the
district court’s order declaring the Access and Notice
Conditions unlawful and enjoining DOJ from enforcing
them against Plaintiffs.
IV. The Certification Condition and 8 U.S.C. § 1373

The district court enjoined DOJ from enforcing the
Certification Condition on multiple alternative grounds.
See City & Cty. of San Francisco, 349 F. Supp. 3d at 94855, 957-61. Among other things, the district court declared that Plaintiffs’ sanctuary laws do not violate
8 U.S.C. § 1373, which it narrowly construed, and that
DOJ cannot withhold Byrne funds pursuant to the Certification Condition by asserting that Plaintiffs’ laws
prevent their compliance with § 1373. See id. at 96870. Because we affirm on this basis, it is unnecessary
for us to consider the district court’s alternative grounds
for enjoining the Certification Condition, including constitutional grounds, and we do not address them.
As described above, at page 11, applicants for Byrne
grants are required to certify that they “will comply
To date, only the Second Circuit has held that the Access and
Notice Conditions were imposed pursuant to appropriate authority.
New York v. Dep’t of Justice, 951 F.3d 84, 101-04, 116-22 (2d Cir.
2020). The First, Third, and Seventh Circuits have held to the contrary. City of Chicago v. Barr, 957 F.3d 772 (7th Cir. 2020); City of
Chicago v. Sessions, 888 F.3d 272, 283-87 (7th Cir. 2018), reh’g en
banc granted in part, opinion vacated in part, No. 17-2991, 2018 WL
4268817 (7th Cir. June 4, 2018), vacated, No. 17-2991, 2018 WL
4268814 (7th Cir. Aug. 10, 2018); City of Philadelphia v. Att’y Gen.,
916 F.3d 276, 284-88 (3d Cir. 2019); City of Providence v. Barr, 954
F.3d 23, 45 (1st Cir. 2020).
3

13a
with all provisions of this part and all other applicable
Federal laws.” 34 U.S.C. § 10153(a)(5)(D). DOJ has
identified 8 U.S.C. § 1373 as an “applicable Federal law”
referenced in the statute. In relevant part, § 1373 prohibits states and local governments from restricting
their officials from sharing “information regarding the
citizenship or immigration status, lawful or unlawful, of
any individual” with DHS.
This court recently interpreted § 1373 in United
States v. California, 921 F.3d 865 (9th Cir. 2019), cert.
denied, 590 U.S. — (U.S. Jun. 15, 2020) (No. 19-532), a
decision that was rendered while this appeal was pending. In California, we reviewed the denial of DOJ’s
motion for a preliminary injunction against California’s
implementation of several recent enactments, including
the Values Act, which DOJ brought affirmative litigation
to invalidate. Among other things, DOJ argued that provisions in the Values Act governing the exchange of information with federal immigration authorities, see Cal.
Gov’t Code § 7284.6(a)(1)(C)-(D), 4 are prohibited by the
information-sharing requirements of 8 U.S.C. § 1373.
See California, 921 F.3d at 886, 891-93. We disagreed.
See id. at 893.

Cal. Gov’t Code § 7284.6(a)(1)(C) prohibits California law enforcement agencies from “[p]roviding information regarding a person’s release date or responding to requests for notification by providing release dates or other information unless that information is
available to the public, or is in response to a notification request from
immigration authorities” under certain circumstances.
Cal. Gov’t Code § 7284.6(a)(1)(D) prohibits the agencies from
“[p]roviding personal information . . . about an individual, including, but not limited to, the individual’s home address or work
address unless that information is available to the public.”
4

14a
DOJ argued that § 1373’s language referring to “information regarding . . . citizenship or immigration
status” should be construed to include information that
helps federal immigration authorities determine “whether
a given alien may actually be removed or detained,” such
as information about when a person will be released
from state or local custody. Id. at 891. We rejected
DOJ’s broad construction of § 1373, holding that § 1373,
by its terms, only concerned “ ‘information strictly pertaining to immigration status (i.e. what one’s immigration status is).’ ” Id. (quoting United States v. California, 314 F. Supp. 3d 1077, 1102 (E.D. Cal. 2018)).
In November 2017, using the same broad construction of § 1373 we later rejected in California, DOJ informed Plaintiffs that it had identified specific laws that
appeared to violate § 1373, thereby rendering Plaintiffs
ineligible for FY 2017 Byrne awards. In a letter to the
State, DOJ specifically identified provisions of the Values Act and suggested that additional offending laws
may be identified in the future. California accordingly
sought a declaratory judgment that the Values Act and
other state laws related to immigration enforcement and
information-sharing—the TRUST Act, the TRUTH
Act, and six confidentiality statutes 5 —did not violate

The TRUST Act limits the ability of state and local law enforcement officers to provide federal immigration authorities information regarding a person’s release date from custody. Cal. Gov’t
Code §§ 7282.5(a), 7284.6(a)(1)(C). The TRUTH Act requires local
officials to provide inmates in their custody a notification of rights
before any interview by immigration authorities takes place regarding civil immigration violations. Id. § 7283.1(a). The six confidentiality laws at issue include three statutes concerning the protection of minors’ personal information, see Cal. Welf. & Inst. Code
5

15a
8 U.S.C. § 1373 or render California ineligible for Byrne
funds under the Certification Condition. San Francisco requested similar relief regarding chapters 12H
and 12I of the San Francisco Administrative Code,
which DOJ identified as likely violative of § 1373 in a letter to San Francisco. 6
The district court entered declaratory judgment in
Plaintiffs’ favor. See City & Cty. of San Francisco, 349
F. Supp. 3d at 966-70. It held that 8 U.S.C. § 1373 only
narrowly “extends to ‘information strictly pertaining to
immigration status (i.e. what one’s immigration status
is),’ ” id. at 968 (quoting California, 314 F. Supp. 3d at

§§ 827, 831; Cal. Code of Civ. Proc. § 155, and three statutes concerning California’s policy of protecting the personal information
of victims and witnesses of crime, see Cal. Penal Code §§ 422.93,
679.10, 679.11.
6
DOJ’s letter cited specific concerns with sections 12H.2 and 12I.3
of the San Francisco Administrative Code. Section 12H.2 prohibits
the “use [of ] any City funds or resources to assist in the enforcement
of Federal immigration law or to gather or disseminate information
regarding release status of individuals or any such personal information as defined in Chapter 12I,” except as “required by Federal
or State statute, regulation, or court decision.” S.F., Cal., Admin.
Code ch. 12H, § 12H.2; see id. ch. 12I, § 12I.2 (“ ‘Personal information’ means any confidential, identifying information about an individual, including, but not limited to, home or work contact information, and family or emergency contact information.”). Section 12I.3
provides that City law enforcement officials “shall not . . . provide any individual’s personal information to a federal immigration
officer, on the basis of an administrative warrant, prior deportation
order, or other civil immigration document based solely on alleged
violations of the civil provisions of immigration laws.” Id. ch. 12I,
§ 12I.3(e).

16a
1102), and concluded that Plaintiffs’ respective sanctuary laws did not violate § 1373 so construed, see id. at
968-70. We affirm.
As noted above, while this appeal was pending, we
adopted the same narrow construction of § 1373 in California, holding that § 1373’s information-sharing requirements applied to “just immigration status” or “a
person’s legal classification under federal law.” 921
F.3d at 891. We also held that the challenged provisions of the Values Act did not conflict with § 1373 because they restricted the sharing of release status and
contact information but did not prohibit the sharing of
information regarding “immigration status.” 7 See id.
at 891-93. Consistent with these holdings in California, we affirm the district court’s decision below, applying the same narrow construction of § 1373 to the state
and local laws at issue in this case.
DOJ “effectively conceded” that the TRUST Act,
TRUTH Act, and confidentiality statutes do not conflict
with § 1373 by not arguing otherwise on summary judgment. City & Cty. of San Francisco, 349 F. Supp. 3d at
968; see Kingdomware Tech., Inc. v. United States, 136
S. Ct. 1969, 1978 (2016). DOJ now argues for the first
time on appeal that these laws offend § 1373 because,
“[a]s relevant here,” they constrain law enforcement
from sharing the release dates of people in custody.
Indeed, we noted that one provision of the Values Act expressly
permits the sharing of information pursuant to § 1373. California,
921 F.3d at 891 (quoting Cal. Gov’t Code § 7284.6(e) (“This section
does not prohibit or restrict any government entity or official from
sending to, or receiving from, federal immigration authorities, information regarding the citizenship or immigration status, lawful or unlawful, of an individual . . . pursuant to Section[ ] 1373.”)).
7

17a
Section 1373 does not cover release dates, however.
California, 921 F.3d at 891-92. We therefore affirm
that these California laws do not conflict with § 1373.
DOJ similarly argues that San Francisco’s laws conflict with § 1373 because they prohibit local officials from
giving federal immigration authorities the contact information and release status of aliens and from “us[ing]
any City funds or resources to assist in the enforcement
of Federal immigration law.” S.F., Cal., Admin. Code
ch. 12H, § 12H.2; see also id. ch. 12I, §§ 12I.2, 12I.3.
However, these prohibitions are subject to a savings
clause, which requires compliance with federal law. See
id. ch. 12H, § 12H.2. Because § 1373 does not extend
to contact and release status information, see California, 921 F.3d at 891-92, federal law does not preclude
San Francisco from prohibiting the release of such information.
DOJ claims that San Francisco, in accordance with
these provisions, “provides no information in response
to ICE requests regarding individuals in local custody.”
The declaration cited in the record, however, only states
that “[l]ocal law enforcement officials in San Francisco,
California, do not respond to any non-criminal requests
from ICE, including requests for notification regarding
the release of detainees. . . . ” Again, such information is not within the scope of 8 U.S.C. § 1373. See
California, 921 F.3d at 891-92. And while San Francisco prohibits the “use [of] any City funds or resources
to assist in the enforcement of federal immigration law,”
see S.F. Admin. Code ch. § 12H.2, no evidence has been
cited to suggest that local officials have ignored ICE requests for “immigration status” information based on
this provision or on any other basis.

18a
In sum, we affirm the ruling below holding that Plaintiffs’ respective sanctuary laws comply with 8 U.S.C.
§ 1373. Although the laws restrict some information
that state and local officials may share with federal authorities, they do not apply to information regarding a
person’s citizenship or immigration status, which is the
only information to which § 1373 extends. We uphold
the injunction barring DOJ from withholding or denying
Byrne funds to Plaintiffs based on the assertion that
these laws violate 8 U.S.C. § 1373 and/or the Certification Condition.
V.

The Nationwide Injunction

We uphold the district court’s entry of permanent injunctive relief barring DOJ from withholding or denying
Plaintiffs’ Byrne awards based on the Challenged Conditions. However, we vacate the district court’s imposition of a nationwide injunction. The district court
abused its discretion by issuing a nationwide injunction
without determining whether Plaintiffs needed relief of
this scope to fully recover. We do not remand to the
district court for further consideration because Plaintiffs have established no nexus between their claimed injuries and the nationwide operation of the Challenged
Conditions, and they advance no reason why limiting the
injunction along state boundaries would not grant them
full relief. Therefore, the geographical reach of the relief should be limited to California.
“Although ‘there is no bar against . . . nationwide relief in federal district court or circuit court,’ such
broad relief must be ‘necessary to give prevailing parties the relief to which they are entitled.’ ” California
v. Azar, 911 F.3d 558, 582 (9th Cir. 2018) (quoting Bresgal
v. Brock, 843 F.2d 1163, 1170-71 (9th Cir. 1987)). On

19a
appeal, Plaintiffs argue that they are entitled to nationwide relief by emphasizing evidence in the record, including declarations from “all types [of ] grant recipients
across the geographical spectrum” about how they are
affected by the Challenged Conditions. Plaintiffs argue that the “far-reaching impact” of the Challenged
Conditions makes this “one of the ‘exceptional cases’ in
which program-wide relief is necessary.”
The district court agreed, basing its analysis on “recent guidance” from the Ninth Circuit “on the breadth
of evidence and inquiry needed to justify nationwide injunctive relief in the context of [Executive action] attempting to place similar conditions on grant funding.”
See City & Cty. of San Francisco, 349 F. Supp. 3d at 971
(citing City & Cty. of San Francisco v. Trump, 897 F.3d
1225, 1245 (9th Cir. 2018)). In those cases, we held that
nationwide injunctions against unlawful Executive action, obtained by state and municipal plaintiffs, were
overbroad where, among other things, the record contained no evidence showing impact to other jurisdictions. See Trump, 897 F.3d at 1244 (noting that the
proffered evidence was “limited to the effect of the [Executive] Order on their governments and to the State of
California”); Azar, 911 F.3d at 584 (holding that there
was no “showing of nationwide impact or [harm to other
jurisdictions of ] sufficient similarity to the plaintiff
states”). Citing these cases, the district court reasoned
that, before issuing a nationwide injunction, it must “undertake ‘careful consideration’ of a factual record evidencing ‘nationwide impact,’ or in other words, ‘specific
findings underlying the nationwide application of the injunction.’ ” City & Cty. of San Francisco, 349 F. Supp.
3d at 971 (quoting Trump, 897 F.3d at 1231, 1244).

20a
While it was correct to state this rule, the district
court erred by considering only this rule. This rule addresses one form of tailoring: “Once a constitutional
violation is found, a federal court is required to tailor the
scope of the remedy to fit the nature and extent of the
constitutional violation.” Trump, 897 F.3d at 1244 (quoting Hills v. Gautreaux, 425 U.S. 284, 293-94 (1976)).
However, this is not the only form of tailoring a court
must do when issuing a remedy. See, e.g., Azar, 911
F.3d at 584.
We have long held that an injunction “should be no
more burdensome to the defendant than necessary to
provide complete relief to the plaintiffs before the court.”
Los Angeles Haven Hospice, Inc. v. Sebelius, 638 F.3d
644, 664 (9th Cir. 2011) (quoting Califano v. Yamasaki,
442 U.S. 682, 702 (1979)) (internal quotation marks omitted). Under this rule, the appropriate inquiry would be
whether Plaintiffs themselves will continue to suffer
their alleged injuries if DOJ were enjoined from enforcing the Challenged Conditions only in California. The
district court did not make such a finding, and it is not
apparent how the record would support one.
We look first to the injuries Plaintiffs claimed. By
imposing the Challenged Conditions, San Francisco argued, DOJ offered “an unacceptable choice: either comply with [the Challenged Conditions] and abandon local
policies that San Francisco has found to promote public
safety and foster trust and cooperation between law enforcement and the public, or maintain these policies but
forfeit critical funds that it relies on to provide essential
services to San Francisco residents.” San Francisco
claimed that it faced “the immediate prospect of losing
over $1.4 million” in program funds. California claimed

21a
it was at risk of “losing $31.1 million,” which would have
devastating impacts on state and local law enforcement
agencies, requiring many of their programs to be cut.
An injunction barring DOJ from enforcing the Challenged Conditions within California’s geographical limits would resolve Plaintiffs’ injuries by returning Plaintiffs to the status quo. While extending this same relief
to non-party jurisdictions beyond California’s geographical bounds would likely be of consequence to those
other jurisdictions, it does nothing to remedy the specific harms alleged by the Plaintiffs in this case. A nationwide injunction was therefore unnecessary to provide complete relief. It was overbroad and an abuse of
discretion.
We acknowledge the “increasingly controversial” nature of nationwide injunctions, Innovation Law Lab v.
Wolf, 951 F.3d 1073, 1094 (9th Cir. 2020), and distinguish
this case from recent decisions in which we upheld this
form of relief. See id. (affirming an injunction operating in four states within three circuits); E. Bay Sanctuary Covenant v. Barr (E. Bay Transit), Nos. 19-16487,
19-16773, slip. op. (9th Cir. Jul. 6, 2020) (same); E. Bay
Sanctuary Covenant v. Trump (E. Bay Port-of-Entry),
950 F.3d 1242 (9th Cir. 2020).
Plaintiffs here, a state and a municipality, “ ‘operate
in a fashion that permits neat geographic boundaries.’ ”
E. Bay Port-of-Entry, 950 F.3d at 1282-83 (quoting
E. Bay Sanctuary Covenant v. Trump (E. Bay III), 354
F. Supp. 3d 1094, 1120-21 (N.D. Cal. 2018)). Because
Plaintiffs do not operate or suffer harm outside of their
own borders, the geographical scope of an injunction can
be neatly drawn to provide no more or less relief than
what is necessary to redress Plaintiffs’ injuries. This

22a
is distinguishable from a case involving plaintiffs that
operate and suffer harm in a number of jurisdictions,
where the process of tailoring an injunction may be more
complex.
We recognized this distinction when we affirmed the
nationwide injunction entered in East Bay Port-of-Entry:
The Organizations . . . represent “asylum seekers” broadly. Unlike the plaintiffs in California v.
Azar—individual states seeking affirmance of an injunction that applied past their borders—the Organizations here “do not operate in a fashion that permits
neat geographic boundaries.” [E. Bay] III, 354
F. Supp. 3d at 1120-21 . . . An injunction that, for
example, limits the application of the Rule to California, would not address the harm that one of the Organizations suffers from losing clients entering
through the Texas-Mexico border. One fewer asylum client, regardless of where the client entered the
United States, results in a frustration of purpose (by
preventing the organization from continuing to aid
asylum applicants who seek relief ), and a loss of funding (by decreasing the money it receives for completed cases).
950 F.3d at 1282-83 (citation omitted).
Accordingly, we vacate the nationwide reach of the
permanent injunction and limit its reach to California’s
geographical boundaries.

23a
VI. Conclusion

We affirm the district court’s order to the extent it
held that DOJ did not have statutory authority to impose the Access and Notice Conditions and declared
that Plaintiffs’ respective sanctuary laws comply with
8 U.S.C. § 1373, the law on which the Certification Condition is based. We uphold the permanent injunction
barring DOJ from withholding, terminating, or clawing
back Byrne funding based on the Challenged Conditions
and statutes at issue. We also determine that the district court abused its discretion in granting nationwide
injunctive relief, which was broader than warranted,
and vacate that portion of the district court’s order.
Each party to bear its own costs.
AFFIRMED in part; VACATED in part.

24a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 17-cv-04642-WHO
Re: Dkt. Nos. 99, 109, 111, 113, 128, 133, 135,
136, 137, 138
CITY AND COUNTY OF SAN FRANCISCO, PLAINTIFF
v.
JEFFERSON BEAUREGARD SESSIONS, ET AL.,
DEFENDANTS

Filed:

Oct. 5, 2018

ORDER REGARDING MOTIONS
FOR SUMMARY JUDGMENT

Case No. 17-cv-04701-WHO
Re: Dkt. Nos. 116, 118, 123, 124, 129, 130, 132
STATE OF CALIFORNIA, EX REL. XAVIER BECERRA, IN
HIS OFFICIAL CAPACITY AS ATTORNEY GENERAL OF
THE STATE OF CALIFORNIA, PLAINTIFF
v.
JEFFERSON BEAUREGARD SESSIONS, ET AL.,
DEFENDANTS

Filed:

Oct. 5, 2018

25a
ORDER REGARDING MOTIONS
FOR SUMMARY JUDGMENT
INTRODUCTION

In fiscal year 2017, defendants Attorney General Jefferson Beauregard Sessions III and the Department of
Justice (collectively, the “DOJ”) announced that applicants for federal grants under the Edward Byrne Memorial Justice Assistance Grant (“Byrne JAG”) program would need to satisfy three new conditions for
funding directed at state and local governments that
have adopted so-called “sanctuary city” statues and ordinances. The conditions require that grant recipients
(i) provide the Department of Homeland Security’s Immigration and Customs Enforcement agency (“ICE”)
access to their correctional facilities for immigration enforcement purposes, (ii) provide notice to ICE of the release date for detainees, and (iii) certify their compliance with 8 U.S.C. § 1373, a statute which prohibits state
and local governments from restricting informationsharing with the Department of Homeland Security.
These new conditions have sparked litigation around
the country. See, e.g., City of Philadelphia v. Sessions,
Case No. 17-cv-03894; City of Chicago v. Sessions, Case
No. 17-cv-05720; United States v. California, Case No.
18-cv-490-JAM; City of Los Angeles v. Sessions, Case
No. 17-cv-07215-R. In the two separate, related actions captioned above, the State of California and the
City and County of San Francisco challenge the conditions requiring access, notice and compliance with Section 1373, as well as the constitutionality of Section 1373.

26a
DOJ has lost each time these issues have been raised
thus far. It continues to withhold grant funding to six
states and several local jurisdictions, including California and San Francisco, which it believes do not comply
with the Byrne JAG program conditions for fiscal year
2017. California requests that I enjoin DOJ from imposing the conditions, award the State the grants for
which it is eligible, and declare that certain California
laws identified by the State comply with the Section
1373. Alternatively, it seeks declaratory judgment finding Section 1373 unconstitutional on its face. Similarly,
San Francisco requests that I enjoin enforcement of the
conditions, issue declaratory judgment that San Francisco’s sanctuary city laws comply with Section 1373,
and issue an injunction restraining the DOJ from withholding Byrne JAG funding to San Francisco because of
Section 1373. Both ask that the scope of the injunction
be nationwide. DOJ responds with its own motions for
summary judgment, essentially urging that I reject the
requests of California and San Francisco.
In agreement with every court that has looked at
these issues, I find that: the challenged conditions violate the separation of powers; Section 1373 is unconstitutional; the Attorney General exceeds the Spending
Power in violation of the United States Constitution by
imposing the challenged conditions; the challenged conditions are arbitrary and capricious; California’s and
San Francisco’s laws comply with Section 1373 as construed in this Order; California is deserving of the mandamus relief it seeks; and both parties are entitled to a
permanent injunction. Because the requisites for a nationwide injunction are met as a result of the unconstitutionality of Section 1373 and the uniform effect of

27a
DOJ’s conditions on Byrne JAG grantees around the
country, I will follow the lead of the district court in City
of Chicago and issue a nationwide injunction but stay its
nationwide effect until the Ninth Circuit is able to address it in the normal course on appeal.
BACKGROUND
I.

FACTUAL BACKGROUND
A.

Section 1373 of the Immigration and Nationality
Act

The Immigration and Nationality Act (“INA”) granted
the Executive Branch, through its Department of
Homeland Security (“DHS”), DOJ, and other agencies,
“broad, undoubted power over the subject of immigration and the status of aliens.” Arizona v. United
States, 567 U.S. 387, 394 (2012). The INA allows the
Attorney General or Secretary of Homeland Security to
order the removal of certain classes of immigrants from
the United States. See 8 U.S.C. §§ 1227(a), 1228. The
Attorney General is directed to take certain detainees
into custody pending removal proceedings once they
are released from state or local custody. See 8 U.S.C.
§ 1226(c)(1). To enforce the immigration laws, Executive Branch agencies exercise independent discretion;
the INA also gives agencies tools to encourage cooperation with state and local offices to support federal policy
objectives. See, e.g., 8 U.S.C. § 1357(g) (authorizing
state and local officers to perform functions of a federal
immigration officer); 8 U.S.C. § 1324(c) (authorizing
state and local officers to make arrests for INA violations); 8 U.S.C. § 1252c (authorizing state and local officers to make arrests for unlawful reentry); Homan
Decl. ¶ 36 (SF Dkt. No. 113-2) (discussing Immigration

28a
and Customs Enforcement’s cooperation with state and
local officers to provide uniformed presence in support
of enforcement efforts).
Relevant to the present motions for summary judgment, 8 U.S.C. § 1373 prohibits restricting the communication of certain information between federal, state,
and local governments. It states:
(a) In General. Notwithstanding any other provision of Federal, State, or local law, a Federal, State,
or local government entity or official may not prohibit, or in any way restrict, any government entity
or official from sending to, or receiving from, the Immigration and Naturalization Service information regarding the citizenship or immigration status, lawful
or unlawful, of any individual.
(b) Additional Authority of Government Entities.
Notwithstanding any other provision of Federal,
State, or local law, no person or agency may prohibit,
or in any way restrict, a Federal, State, or local government entity from doing any of the following with
respect to information regarding the immigration
status, lawful or unlawful, of any individual:
(1) Sending such information to, or requesting or
receiving such information from, the Immigration
and Naturalization Service.
(2) Maintaining such information.
(3) Exchanging such information with any other
Federal, State, or local government entity.
(c) Obligation to respond to inquiries. The Immigration and Naturalization Service shall respond to
an inquiry by a Federal, State, or local government

29a
agency, seeking to verify or ascertain the citizenship
or immigration status of any individual within the jurisdiction of the agency for any purpose authorized
by law, by providing the requested verification or status information.
8 U.S.C. § 1373.
B.

The Office of Justice Programs and the Byrne
JAG Program

The Office of Justice Programs (“OJP”) was established with the passage of Title I of the Omnibus Crime
Control and Safe Streets Act of 1968 and is managed
by an Assistant Attorney General. See Pub. L. No.
90-351, 82 Stat. 197 (1968), codified as amended at 34
U.S.C. § 10101, et seq. The same statute created the
precursor to the Byrne JAG program; the program’s
current iteration was established through the Violence
Against Women and Department of Justice Reauthorization Act of 2005. See Pub L. No. 109-162, 119 Stat.
2960 (2006); see also 34 U.S.C. § 10151 (formerly 42
U.S.C. § 3750).
Under the Byrne JAG program, the Attorney General makes grants to state and local governments through
the Bureau of Justice Assistance Grant Programs, a
component of the OJP. See 34 U.S.C. § 10152. The
grants support law enforcement efforts by providing additional personnel, equipment, supplies, training, and
other assistance to applicants. Id. The Byrne JAG
program is a formula grant program, meaning that it
awards funding to all grantees by a statutorily prescribed formula. See 34 U.S.C. § 10156(d)(2)(A) (stating that “the Attorney General shall allocate to each unit

30a
of local government” funds determined by the established formula). Grant funding derives from a state’s
population and violent crime rate, to be used in one of
eight program areas. See 34 U.S.C. § 10156(a). Immigration enforcement is not listed as one of the eight
program areas for use of Byrne JAG funding. See 34
U.S.C. § 10152(a)(1). The formula also allocates a portion of remaining amounts of state funding to units of
local governments through sub-grants. See 34 U.S.C.
§ 10156(c)(2).
California uses its JAG funds to support education
and crime prevention, court programs, and law enforcement programs like task forces focused on criminal drug
enforcement, violent crime, and gang activities. See
Jolls Decl. ¶ 10 (CA Dkt. No. 29-1); Caligiuri Decl. ¶ 27
(CA Dkt. No. 118-4). Under the formula, it expected to
receive (through the Board of State and Community
Corrections) $28.3 million in JAG funding for fiscal year
2017, including $17.7 million to the State and the remainder to local jurisdictions. See Jolls Decl. ¶ 5.
San Francisco has received Byrne JAG funding for
over a decade; it applied again for funding in the 2017
fiscal year. See Chyi Decl. ¶ 4 (SF Dkt. No. 105). It
was entitled to receive Byrne JAG program funds of
$524,845 and Byrne JAG sub-grants equal to $923,401
under the formula. Id. ¶¶ 7, 16. San Francisco uses
the funding across six departments and for ten full-time
positions to support law enforcement programs focused
on reducing drug trade and servicing individuals with
substance and mental health problems. Id. ¶¶ 10, 17,
18. Without the Byrne JAG funds, San Francisco lacks
the additional funding to support its Department of
Children, Youth and their Families, including programs

31a
like the Young Adult Court, which provides case management and support to adults fighting recidivism. Id.
¶¶ 11, 19.
C.

New Byrne JAG Program Grant Conditions

In fiscal year 2016, the DOJ announced that Section
1373 was an “applicable law” for Byrne JAG funding,
and the DOJ required grantees like California to submit
a legal opinion on its compliance with Section 1373. See
Jolls Decl. ¶ 55, Ex. B; see also DOJ Request for Judicial
Notice (“RJN”) Ex. A ¶ 55 (CA Dkt. No. 125). For the
following fiscal year, in July and August 2017, the OJP
posted state and local solicitations for Byrne JAG grants
that formalized other conditions. See Lee Decl. ¶¶ 3-4,
Exs. A-B (SF Dkt. No. 106-1). The solicitations included
three new conditions required for funding, each relating
to federal immigration enforcement.
Byrne JAG grant applicants must now provide a certificate of compliance with Section 1373, signed by the
jurisdiction’s chief legal officer under penalty of perjury, attesting that the applicant does not have prohibitions on information-sharing with the INS about the citizenship or immigration status of any individuals. See
Lee Decl. ¶ 4, Ex. B at 38; CA RJN Ex. 21. California
certified that it complies with Section 1373, but the DOJ
has not made a final determination on California’s compliance. See Sherman Decl. Ex. B (CA Dkt. No. 116-5).
San Francisco also believes it complies with Section
1373, but the DOJ has denied this. Lee Decl. ¶ 6 Ex.
D, Req. for Admission No. 1.
Grant applicants must also have policies that satisfy
“access” and “notice” conditions for Byrne JAG funding.
The access and notice conditions require: (i) “that

32a
agents of the United States . . . are given . . .
access” to any State or local government correctional facility “for the purpose of permitting such agents to meet
with individuals who are (or are believed by such agents
to be) aliens and to inquire as to such individuals’ right
to be or remain in the United States;” and (ii) that when
a State or local correctional facility “receives from DHS
a formal written request . . . that seeks advance notice of the scheduled release date and time for a particular alien in such facility, then such facility will honor
such request and-as early as practicable . . . provide the requested notice to DHS.” Lee Decl. Ex. E;
Hanson Decl. ¶¶ 55-56, Ex. B (CA Dkt. No. 42-1); DOJ
RJN Exs. B and C (CA Dkt. No. 125). The “Rules of
Construction” applicable to these new grant conditions
clarify that the requirements do not extend to detaining
“any individual in custody beyond the date and time the
individual would have been released in the absence of this
condition” and do not mandate detaining non-citizens at
the request of federal immigration officials. See DOJ
RJN, Exs. B and C ¶ 55.
D.

The Office of Community Oriented Policing Services

In addition to new Byrne JAG program conditions,
the DOJ announced that grants issued by the Office of
Community Oriented Policing Services (“COPS”) would
require Section 1373 compliance as well. See DOJ
RJN, Ex. F at 1. In fiscal year 2017, access to COPS
funding included the Section 1373 certification requirement. One of the programs administered by COPS is
the COPS Anti-Methamphetamine Program (“CAMP”),
a competitive grant. In the past, California, through
its Bureau of Investigations, received CAMP funding to

33a
support law enforcement investigations of the unlawful
manufacture and distribution of methamphetamine—
their work on the task force has led to seizing more than
$30 million in illegal drugs since 2015. See Caligiuri
Decl. ¶¶ 13-19. California received $1 million in CAMP
funding in November 2017 but was informed it could not
“draw down” the funds until an inquiry was resolved into
its compliance with Section 1373. Id. ¶ 23.
E.

California’s Sanctuary State Laws and Policies

California has enacted the following statutes that are
pertinent to its compliance with the access and notice
conditions, the certification condition, and Section 1373:
the TRUST Act, Cal. Gov. Code § 7282 et seq., the
TRUTH Act, Cal. Gov. Code § 7283 et seq., the Values
Act, Cal. Gov. Code § 7284 et seq., and six confidentiality
statutes. It enacted the TRUST Act in 2013, defining
when local law enforcement agencies can detain individuals for up to 48 hours after an ordinary release because
of a civil detainer request by DHS. See CA RJN Ex. 6.
The TRUST Act states that local law enforcement may
only comply with a DHS civil detainer if the detainer
does not “violate any federal, state, or local law, or any
local policy,” and (1) the detainee’s criminal background
includes one of a delineated list of crimes, (2) the detainee was on the California Sex and Arson Registry, or
(3) the detainee was held after a magistrate’s finding of
probable cause for a serious or violent felony. See Gov.
Code § 7282.5(a). The purpose behind the TRUST Act,
according to comments by the author, was to “establish
a statewide standard for responding to ICE holds and
. . . prevent the prolonged detention of people who
would otherwise be released from custody if it were not
for ICE’s request.” CA RJN Ex. 6. at 4.

34a
in 2016, the TRUTH Act was enacted. It requires
that local law enforcement agencies give notice to inmates before an interview with any immigration officials. See CA RJN Ex. 5. Notification includes informing the detainee that the interview is voluntary and
that he has a right to seek counsel. See Cal. Gov. Code
§ 7283.1(a). The local law enforcement agency must
provide the detainee with a copy of the federal immigration request to interview and inform the detainee whether
it intends to comply with the request. Id. § 7283.1(b).
In October 2017, the Values Act expanded on the
TRUST and TRUTH Acts to address the California
Legislature’s concern with preserving community trust
between the state and local governments and California’s immigrant communities.
See Cal. Gov. Code
§ 7284.2. It amended the TRUST Act by imposing additional constraints on law enforcement’s ability to
share the release dates of individuals, but it allows law
enforcement to notify federal immigration officials about
an individual’s release date if the individual was convicted of a wide range of specified crimes or if the information is already publicly available. See Cal. Gov.
Code §§ 7282.5(a), 7284.6(a)(1)(C). The Values Act also
prohibits law enforcement agencies from using money
or personnel to provide the personal information of victims and witnesses of crime for immigration enforcement purposes unless the information was already publicly available. See Cal. Gov. Code § 7284.6(a)(1)(D).
That said, the Values Act does not prohibit other
forms of cooperation with federal immigration authorities. It does not apply to the California Department of
Corrections and Rehabilitation, which responds to notification requests by ICE and transfers individuals from

35a
state to federal immigration custody. See CA RJN
Exs. 12-16.
It does not restrict sharing criminalhistory via three state-run databases, participation in
task forces with immigration officials, or federal access
to jails. See Cal. Gov. Code § 7284.6(b); Reich Decl.
¶ 12 (CA Dkt. No. 116-3). Through a savings clause,
the Values Act expressly authorizes compliance with
Section 1373. See Cal. Gov. Code § 7284.6(e).
California’s confidentiality statutes protect sensitive
information of victims, witnesses, and juveniles. California Penal Code section 422.93 prohibits law enforcement from detaining hate-crime victims and witnesses
who are not charged with or convicted of any state law
crimes if they would be detained solely for immigration
violations for transfer to federal immigration officials.
See Cal. Penal Code § 422.93(b). California Penal Code
sections 679.10 and 679.11 prohibit any state entity that
certifies information for U-visa and T-visa applications
from disclosing immigration status of individuals making the request “except to comply with federal law or legal process, or if authorized by the victim or person
requesting [the certification form].” Cal. Penal Code
§§ 679.10(k), 679.11(k); see also RJN Ex. 18. The California Welfare and Institutions Code also contains two
confidentiality statutes, sections 827 and 831, that provides privacy for juveniles, including their immigration
status, in court records. See California Welf. & Inst.
Code §§ 831(a) and 831(e). California Code of Civil
Procedure section 155 also requires “information regarding the child’s immigration status . . . remain
confidential” in the federal Special Immigrant Juvenile
process. Cal. Civ. Proc. Code § 155(c).

36a
The State’s policies seek to use limited resources for
public safety rather than immigration enforcement—
the State Legislature concluded that limits on local law
enforcement’s involvement with immigration enforcement results in safer communities. See Cal. Gov. Code
§ 7284.2(f ); CA RJN Exs. 4-6. The California Assembly Committee on Public Safety, in a hearing held on
June 13, 2017, summarized a study by the University of
Illinois—Chicago that found: (i) 44 percent of surveyed Latinos were less likely to contact police officers
if they had been victims of a crime for fear of police inquiring into their immigration status; (ii) 45 percent
were less likely to volunteer information about a crime
and were less likely to report a crime for fear of police
inquiring into their immigration status; (iii) 70 percent
of undocumented immigrants reported they were less
likely to contact law enforcement if they were victims of
a crime; (iv) 28 percent of U.S.-born Latinos were less
likely to contact police if they were victims of a crime for
fear of police inquiring into their immigration status;
and (v) 38 percent of Latinos feel like they are under
more suspicion now that local law enforcement have become involved in immigration enforcement, with the figure rising to 58 percent among undocumented immigrant respondents. CA RJN Ex. 4.
California’s policies are based on local law enforcement’s belief that it is vital to maintain trust with immigrant communities; otherwise, immigrants will “fail to
disclose crimes that they witness and/or are victims to
out of fear of deportation.” Hart Decl. ¶¶ 7, 9, 11-18,
21, Ex. 3 (CA Dkt. No. 116-3); Rosen Decl. ¶¶ 6-9, Ex. 5
(CA Dkt. No. 116-3); Wong Decl. ¶¶ 4, 34-38, 44, 48, 53,
Ex. 10 (CA Dkt. No. 116-4). For example, in a study of

37a
594 undocumented Mexican nationals in San Diego
County, 60.8 percent of respondents were less likely to
report crimes they witnessed to police, and 42.9 percent
were less likely to report being a victim of a crime to
police, if the police were working together with ICE.
See Wong Decl. ¶ 35. When local law enforcement officials communicated that they were not working with
ICE, 71.8 percent of respondents were more likely to report crimes they witnessed, and 70.8 percent were more
likely to report being a victim of a crime to the police.
See Wong Decl. ¶ 36. California finds that these results accord with other research on undocumented
women who are victims of violent crime, sexual assault,
or domestic violence, and who are less likely to report
these crimes if law enforcement officers are working
with federal immigration officials. See Wong Decl.
¶ 38.
F.

San Francisco’s Sanctuary City Laws and Policies

San Francisco declared itself a City and County of
Refuge in 1989 and codified its Sanctuary City Laws in
Chapters 12H and 12I of the San Francisco Administrative Code. See SF RJN Ex. A (SF Dkt. No. 107-1).
Chapter 12H expressly prohibits any City or County
funds or resources from being used to assist federal immigration officers to gather or share information on the
release status of individuals unless required by federal
or state law. See S.F. Admin. Code § 12H.2. Chapter
12I prohibits law enforcement in San Francisco from responding to federal immigration enforcement requests
for notice of release dates for individuals in custody unless the individual meets certain criteria, such as having
a recent conviction for a serious or violent felony or

38a
three separate felonies other than domestic violence.
See S.F. Admin. Code § 12I.3(c), (d), (e).
San Francisco’s law enforcement departments have
policies consistent with the Sanctuary City Laws, which
it also believes are not violative of Section 1373. See
Sainez Decl. ¶¶ 9-11 (Police Department) (SF Dkt. No.
100); Fletcher Decl. ¶¶ 6-7 (Adult Probation Department) (SF Dkt. No. 101); Hennessy Decl. ¶¶ 11, 17-18
(Sheriff ’s Department) (SF Dkt. No. 102). Additionally, the San Francisco Sheriff ’s Department has policies prohibiting employees from providing ICE or other
federal immigration enforcement officials any access to
San Francisco jails, computers, databases, release
dates, or contact information for inmates in its custody.
See Hennessy Decl. ¶¶ 17-18, Ex. D. San Francisco
shares the views of California that its sanctuary city policies encourage individuals to be candid with law enforcement and facilitate trust between law enforcement
and the community. San Francisco believes that these
policies lead to greater reporting of crimes, more cooperative witnesses, and more assistance with law enforcement investigations. See Hennessy Decl. ¶ 8; Sainez
Decl. ¶ 6.
II.

PROCEDURAL BACKGROUND AND RELATED
LITIGATION

California and San Francisco filed their respective
lawsuits in August 2017, seeking to enjoin DOJ from requiring the three conditions on Byrne JAG program
funding and to receive their grant funds. The DOJ unsuccessfully moved to dismiss both suits, arguing that
the plaintiffs lacked Article III standing and that their
complaints failed to state a claim. See Order Denying
Mot. to Dismiss (SF Dkt. No. 78); Order Denying Mot.

39a
to Dismiss (CA Dkt. No. 88). California separately
moved for a preliminary injunction, which I denied because at the time there was not enough evidence to determine a likelihood of success on the merits and there
was uncertainty whether California’s injury was irreparable. See Order Denying Amended Mot. for Preliminary Injunction (CA Dkt. No. 89).
Other highly relevant lawsuits are being litigated
that challenge the federal government’s new conditions
for Byrne JAG program funding, and the federal government initiated its own challenge to California sanctuary state laws like the Values Act. In City of Chicago
v. Sessions, 264 F. Supp. 3d 933 (N.D. Ill. 2017), the district court initially granted Chicago’s motion for a nationwide preliminary injunction of the access and notice
conditions but denied Chicago’s motion to enjoin the
Section 1373 certification requirement. Id. at 951.
On appeal, the Seventh Circuit unanimously affirmed
the lower court ruling that the new Byrne JAG program
access and notice conditions could not be imposed, and a
divided panel affirmed the nationwide injunction. See
City of Chicago v. Sessions, 888 F.3d 272, 293 (7th Cir.
2018). Attorney General Sessions petitioned for a rehearing en banc on the scope of the injunction and the
Seventh Circuit stayed the nationwide scope of the injunction while a rehearing was pending. See Order,
City of Chicago v. Sessions, Case No. 17-2991 (7th Cir.
June 26, 2018), Dkt. No. 134. The district court then
granted in part and denied in part Chicago’s motion for
summary judgment, this time finding that Section 1373
was unconstitutional under the Tenth Amendment.
See City of Chicago v. Sessions, --- F. Supp. 3d. ---, Case
No. 17-5720, 2018 WL 3608564, at *5 (N.D. Ill. July 27,

40a
2018). The court also issued a permanent nationwide
injunction but stayed the nationwide scope of the injunction because the en banc rehearing was still pending.
Id. at *17. The Seventh Circuit vacated its en banc
hearing after the second district court order, allowing
the stay to remain in effect until the lower court issued
a proper injunction under Federal Rule of Civil Procedure 65. See City of Chicago v. Sessions, Case No.
17-2991, 2018 WL 4268814, at *2 (7th Cir. Aug. 10, 2018).
The district court entered an order setting forth the
terms of the permanent injunction under Rule 65, and
the case is pending in the Seventh Circuit. See id., Dkt.
No. 159.
In City of Philadelphia v. Sessions, 280 F. Supp. 3d
579, 588 (E.D. Pa. 2017), appeal dismissed sub nom.
City of Philadelphia v. Attorney Gen. United States,
Case No. 18-1103, 2018 WL 3475491 (3d Cir. July 6,
2018), the court found that the access and notice conditions lacked statutory authority under the Administrative Procedure Act and granted Philadelphia’s motion
for preliminary injunction. It enjoined the federal government from denying funds to Philadelphia for fiscal
year 2017. Id. On summary judgment, the court
found that the new conditions were arbitrary and capricious, and that Section 1373 violated the Tenth Amendment’s anti-commandeering principle. City of Philadelphia v. Sessions, 309 F. Supp. 3d 289 (E.D. Pa. 2018).
The court also issued a declaratory judgment that Philadelphia complied with Section 1373, and it issued a permanent injunction. Id. at 340-342. The Attorney
General filed an appeal that is now pending in the Third
Circuit. See City of Philadelphia v. Attorney Gen.
United States, Case No. 18-2648 (3rd Cir. July 26, 2018).

41a
In United States v. California, 314 F. Supp. 3d 1077
(E.D. Cal. 2018), the federal government sued to enjoin
California’s enforcement of three state laws it believed
violated the Supremacy Clause of Article VI, cl. 2. The
Hon. John A. Mendez of the Eastern District of California granted in part and denied in part the federal government’s motion for preliminary injunction. Relevant
to this lawsuit, Judge Mendez held that the United
States was not likely to succeed on the merits of its conflict preemption claim against California’s Values Act
because it found “no direct conflict between SB 54
and Section 1373.” United States v. California, 314
F. Supp. 3d 1077, 2018 WL 3301414, at *15 (E.D. Cal.
2018). Judge Mendez dismissed the federal government’s Supremacy Clause claim concerning the Values
Act without leave to amend in a separate order. See
United States v. California, Case No. 18-CV-490-JAMKJN, 2018 WL 3361055, at *3 (E.D. Cal. July 9, 2018).
The Attorney General appealed. See United States v.
State of California, Case No. 18-16496 (9th Cir. Aug. 9,
2018).
LEGAL STANDARD

A party is entitled to summary judgment where it
“shows that there is no genuine dispute as to any material fact and [it] is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). To prevail, a party moving for summary judgment must show the lack of a genuine issue of material fact with respect to an essential
element of the non-moving party’s claim, or to a defense
on which the non-moving party will bear the burden of
persuasion at trial. See Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986). Once the movant has made this
showing, the burden then shifts to the party opposing

42a
summary judgment to identify “specific facts showing
there is a genuine issue for trial.” Id. The party opposing summary judgment must then present affirmative evidence from which a jury could return a verdict in
that party’s favor. Anderson v. Liberty Lobby, 477
U.S. 242, 257 (1986).
On summary judgment, the Court draws all reasonable factual inferences in favor of the non-movant. Id.
at 255. In deciding a motion for summary judgment,
“[c]redibility determinations, the weighing of the evidence, and the drawing of legitimate inferences from the
facts are jury functions, not those of a judge.” Id.
However, conclusory and speculative testimony does not
raise genuine issues of fact and is insufficient to defeat
summary judgment. See Thornhill Publ’g Co., Inc. v.
GTE Corp., 594 F.2d 730, 738 (9th Cir. 1979).
DISCUSSION

Before addressing the arguments on the merits, I resolve the evidentiary disputes and administrative motions surrounding the motions for summary judgment.
I.

EVIDENTIARY DISPUTES AND ADMINISTRATIVE MOTIONS
A.

DOJ’s Motions to Strike Exhibits

DOJ moves to strike Exhibit 42 of California’s Request for Judicial Notice and Exhibits I and J of the Lee
Declaration in support of San Francisco’s motion for
summary judgment, asserting that these exhibits are
privileged. See Admin. Mot. to Strike (CA Dkt. No.
123); Admin. Mot. to Strike (SF Dkt. No. 109). It argues that they were inadvertently produced and notes
that other copies of the same documents were properly

43a
logged as privileged and withheld during discovery. In
July 2018, it sent a clawback letter for the inadvertently
released privileged documents. Id., Simpson Decl. at
Ex. A. California consents to striking Exhibit 42, while
San Francisco has not confirmed or denied its consent
to strike Exhibits I and J of the Lee Declaration. Id.
at 2.
The deliberative process privilege applies to documents if they are predecisional (drafted before an agency
adopted a given policy) and deliberative (containing opinions, recommendations, or advice while determining the
agency policy). See FTC v. Warner Commc’ns Inc.,
742 F.2d 1156, 1161 (9th Cir. 1984). Exemplary predecisional documents covered by the deliberative process
privilege are drafts of documents and documents fashioned as recommendations or suggestions “which reflect
the personal opinions of the writer rather than the policy of the agency.” Assembly of State of Cal. v. U.S.
Dep’t of Commerce, 968 F.2d 916, 920 (9th Cir. 1992).
Predecisional documents are part of the deliberative
process if disclosing the document would discourage
candid discussions that undermine the agency’s ability
to function. Id.
Both documents are pre-decisional and reflect personal opinions of the personnel who drafted them as opposed to policy determinations. One is an internal memorandum between the Acting Assistant Attorney General and the Associate Attorney General, showing predecisional analysis of compliance with California laws
and Section 1373. The other is a redlined draft document about the DOJ’s decision and talking points. I
GRANT the motion to strike Exhibit 42 of California

44a
Request for Judicial Notice and Exhibits I and J of the
Lee Declaration.
B.

San Francisco’s Motion to Exclude Declarations

San Francisco seeks to exclude the Madrigal and
Atsatt declarations, which DOJ filed in support of its opposition and cross-motion for summary judgment. See
Mot. to Exclude (SF Dkt. No. 128). San Francisco argues that DOJ did not comply with Federal Rules of
Civil Procedure 26(a) or 26(e), and that DOJ cannot
show that its failure to disclose the declarations was
harmless or justifiable. Id. at 1. DOJ contends San
Francisco cannot complain of any harm from the undisclosed declarations because it committed the same
harmful conduct. See Opp. to Mot. to Exclude (SF Dkt.
No. 131).
Federal Rule of Civil Procedure 37(c)(1) states that
if a party fails to “identify a witness as required by Rule
26(a) or (e),” the party may not use the witness for “evidence on a motion, at a hearing, or at a trial, unless the
failure was substantially justified or is harmless.”
Fed. R. Civ. P. 37(c)(1). Evidence that applies to Rule
37 must be excluded, as this is a “self-executing, automatic sanction to provide a strong inducement for disclosure of material.” Hoffman v. Constr. Protective
Servs., Inc., 541 F.3d 1175, 1180 (9th Cir. 2008), as
amended (Sept. 16, 2008) (citing Yeti by Molly, Ltd. v.
Deckers Outdoor Corp., 259 F.3d 1101, 1106 (9th Cir.
2001)). Rule 37 also imposes the burden of proof on the
party whose evidence may be excluded. R & R Sails,
Inc. v. Ins. Co. of Pa., 673 F.3d 1240, 1246 (9th Cir. 2012).
San Francisco claims that after initial disclosures and
throughout discovery, DOJ never mentioned Madrigal

45a
or Atsatt at any time and there were no references
to any documents authored by them. See Meré Decl.
¶¶ 6, 8 (SF Dkt. No. 129). When the parties discussed
limiting discovery, they agreed to declarations by a
limited number of fifteen custodians of records. Id.
¶¶ 9-10. Madrigal and Atsatt were not on the finalized
list of custodians, nor did DOJ amend or supplement its
disclosures. Id. ¶ 13. The first time that San Francisco apparently learned of the declarants was in August
2018, when DOJ filed its opposition and cross-motion for
summary judgment. Id. ¶ 16.
As DOJ argues, San Francisco served supplemental
initial disclosures for seven new declarations the day before its opposition to the DOJ’s motion for summary
judgment. See Opp. to Mot. to Exclude at ¶ 2. However, San Francisco contends that two of those declarations were provided only to rebut arguments made by
DOJ in its motion for summary judgment, and that the
remaining five declarations are substantially justified
because they respond to issues raised by the Ninth Circuit in City & County of San Francisco v. Trump, Case
No. 17-17478, 2018 WL 3637911 (9th Cir. Aug. 1, 2018).
See Reply in Supp. of Mot. to Exclude (SF Dkt. No. 132).
In contrast, DOJ has not argued or alleged that its
failure to disclose the Madrigal and Atsatt declarations
was substantially justified.
Rule 37(c)(1) is “selfexecuting” and DOJ has not met its burden of proof.
Hoffman, 541 F.3d at 1180. On this basis, I GRANT
the motion to exclude the Madrigal and Atsatt declarations. 1

1

They are not dispositive in any event.

46a
C.

Administrative Motions to File Under Seal

California and DOJ submitted administrative motions to file materials under seal. In July 2018, California filed its administrative motion to seal portions of the
Caligiuri Declaration. See Admin. Mot. (CA Dkt. No.
118). That same month, DOJ filed its administrative
motion to seal a document designated as “Confidential”
under a Protective Order in this case and produced by
San Francisco. See Admin. Mot. (SF Dkt. No. 111).
Given the historically recognized public right of access to judicial records, there is a “strong presumption
in favor of access.” Foltz v. State Farm Mutual Auto. Insurance Company, 331 F.3d 1122, 1135 (9th Cir. 2003).
With dispositive motions, such as the present motions
for summary judgment, the presumption of access can
be overcome only by demonstrating a compelling reason
to do so, such as an articulated interest favoring secrecy
that outweighs the public interest in understanding the
judicial process. Kamakana v. City & Cty. of Honolulu, 447 F.3d 1172, 1179, 1181 (9th Cir. 2006) (stating
that the movant must “present articulable facts identifying the interests favoring continued secrecy.”). If
the court decides to seal certain documents, it must
“base its decision on a compelling reason and articulate
the factual basis for its ruling, without relying on hypothesis or conjecture.” Hagestad v. Tragesser, 49
F.3d 1430, 1434 (9th Cir. 1995).
Here, there are compelling reasons to seal portions
of California’s Caligiuri Declaration and the document
attached to the DOJ’s Mauler Declaration. The subject portions of the Caligiuri Declaration contain details
about ongoing and active criminal investigations. See

47a
Ehrlich Decl. ¶ 4 (CA Dkt. No. 118-1). The spreadsheet attached to the Mauler Declaration also contains
partially redacted confidential criminal offender record
information that could be reverse engineered with extraneous data if unsealed. See McGrath Decl. ¶ 7 (SF
Dkt. No. 112). I GRANT the administrative motions to
file these materials under seal.
D.

Motions for Leave to File Amicus Briefs

There are also eight motions for leave to file amicus
briefs with the court. See Admin. Mots. for Leave (CA
Dkt. Nos. 129, 130, 132; SF Dkt. Nos. 133, 135, 136, 137,
138). Because each motion complies with my prior Order Regarding Amicus Briefing, I GRANT the motions.
See Order (CA Dkt. No. 41; SF Dkt. No. 55).
II.

SEPARATION OF POWERS AND THE SPENDING
CLAUSE

California and San Francisco argue that the new conditions are unconstitutional because they seek to exercise Congress’s exclusive Spending Power in violation of
the constitutional separation of powers and the Spending Clause. Article I of the United States Constitution
specifically grants the Spending Powers to Congress.
“The Congress shall have Power To lay and collect
Taxes, Duties, Imposts and Excises, to pay the Debts
and provide for the common Defence and general Welfare of the United States.” Art. I, § 8, cl. 1. Congress’s Spending Power includes “condition[ing] the receipt of funds, by states and others, on compliance with
federal directives.” State of Nev. v. Skinner, 884 F.2d
445, 447 (9th Cir. 1989); see also Fullilove v. Klutznick,

48a
448 U.S. 448, 474 (1980) (“Incident to this power, Congress may attach conditions on the receipt of federal
funds.”).
Congress is in control of the Spending Power to “set
the terms on which it disburses federal money to the
State,” Arlington Cent. Sch. Dist. Bd. of Educ. v. Murphy, 548 U.S. 291, 296 (2006), but if it intends to impose
conditions on federal grants, “it must do so unambiguously.” Pennhurst State Sch. & Hosp. v. Halderman,
451 U.S. 1, 17 (1981). By extension, the Executive
Branch “does not have unilateral authority to refuse to
spend . . . funds” already appropriated by Congress “for a particular project or program.” In re Aiken Cty., 725 F.3d 255, 261 n.1 (D.C. Cir. 2013). Congress still may, consistent with the separation of powers,
delegate certain authority to spend money to the Executive Branch. See Clinton v. City of New York, 524
U.S. 417, 488 (1998) (“Congress has frequently delegated the President the authority to spend, or not to
spend, particular sums of money.”). However, the
Constitution evidences the “unmistakable expression of
a determination that legislation by the national Congress be a step-by-step, deliberate and deliberative process.” I.N.S. v. Chadha, 462 U.S. 919, 959 (1983).
DOJ’s conditions on Byrne JAG grant funding violate
these constitutional principles.
A.

Separation of Powers

DOJ argues that the context of the Byrne JAG program statute shows that Congress intended to delegate
discretionary authority to the Attorney General. Congress expressly amended the statute to include the Assistant Attorney General’s power of “placing special

49a
conditions on all grants, and determining priority purposes for formula grants.” USDOJ Reauthorization
Act, § 1152(b), 119 Stat. at 3113, codified at 34 U.S.C.
§ 10102(a)(6).
San Francisco and California offer three generally
overlapping arguments to contend that DOJ’s conditions on Byrne JAG program funds violate the separation of powers. First, they contend that Congress,
through the Byrne JAG program, only authorizes the
Attorney General to exercise ministerial powers and not
the limitless discretionary authority to impose new conditions. Second, they challenge the notion that 34 U.S.C.
§ 10102(a) justifies the Attorney General’s authority to
impose the access and notice conditions. Finally, they
argue that the Byrne JAG statute does not permit the
certification condition because Section 1373 is unconstitutional considering the anti-commandeering principle
and the Supreme Court’s recent decision in Murphy v.
NCAA, 138 S. Ct. 1461 (2018). Each of these points is
discussed in turn.
1. The Byrne JAG Program Does Not Grant the
Attorney General Authority to Impose the
Challenged Conditions

The Byrne JAG Program is a formula grant program,
not a discretionary program, meaning that Congress
has already determined who the recipients are and how
much money they receive. See City of Los Angeles v.
McLaughlin, 865 F.2d 1084, 1088 (9th Cir. 1989) (“In the
formula grant program the authorizing Act of Congress
determines who the recipients are and how much money
each shall receive.”). The operative statute leaves it to
the Attorney General to determine and make the formula grants “in accordance with the formula established

50a
under section 10156 of this title . . . ” for specified
purposes such as law enforcement programs, court programs, and drug or preventative education programs.
34 U.S.C. § 10152(a)(1)(A)-(H). The question becomes
to what extent Congress granted DOJ, and the Assistant
Attorney General heading OJP, the power to impose its
own conditions on Byrne JAG grants.
Starting with the text itself, the Byrne JAG statute
contains limited discretionary authority for the Attorney General to carry out specific parts of the grant program. Chevron, U.S.A., Inc. v. Nat. Res. Def. Council,
Inc., 467 U.S. 837, 842 (1984) (“First, always, is the question whether Congress has directly spoken to the precise question at issue.”). The statute provides discretionary authority over waiving the “program assessment component” requirement, id. at § 10152(c)(1)-(2),
allowing prohibited uses of the funds in “extraordinary
and exigent circumstances,” id. at § 10152(d)(2), and renewing funds for four-year periods. Id. § 10152(f ).
Applicants must submit their applications to the Attorney General in a certain format, and the Attorney General has discretion related to that ministerial process.
For instance, the statute requires assurances that the
applicant maintains certain programmatic and financial
records “as the Attorney General may reasonably require.” Id. at § 10153(a)(4). Completed applications
require a certification, “made in a form acceptable to the
Attorney General,” that the application contains correct
information and that the funds will generally be used for
the program the applicant seeks funding for. Id. at
§ 10153(a)(5). Congress provided discretion for DOJ to
reserve up to five percent of funds to award to one or
more states or local governments under § 10152 where

51a
there is a special need like “extraordinary increases in
crime.” Id. at § 10157(b). Some authority to reduce
the amount paid is explicit in § 10158(b)(3), stating that
“the Attorney General shall reduce amounts to be provided . . . ” if the recipient fails to spend the money
as planned and does not repay it. Id. at § 10158(b)(3).
None of these provisions grant the Attorney General authority to impose the challenged conditions.
Other actions or inactions of Congress do not support
DOJ’s position. Congress has exercised its power to
impose conditions on Byrne JAG funding in the past,
legislating a ten percent withholding of Byrne JAG
funds for failing to implement federal Sex Offender Registration and Notification Act, 34 U.S.C. § 20927(a), a
penalty for failing to implement the Death in Custody
Act, id. § 60105(e)(2), and a penalty for failing to certify
compliance with Prison Rape Elimination Standards.
See id. § 30307(e)(2). In 2005, Congress repealed the
only directly immigration-related requirement for Byrne
JAG program funding. See Violence Against Women
and Department of Justice Reauthorization Act, H.R.
Rep. 109-233, 109th Cong. at 8 (2005). Several amici
insist that Congress intentionally entrusted state and local jurisdictions with the discretion to tailor funds to
their needs, recognizing the need for “flexibility to spend
[federal] money for programs that work for them rather
than to impose a ‘one size fits all’ solution.” See, e.g.,
Amicus Brief (CA Dkt No. 129; SF Dkt. No. 133) (quoting H.R. Rep. 109-233, at 89 (2005)).
San Francisco points out that Congress has chosen
not to exercise its power to impose immigration conditions on Byrne JAG grants in the past, rejecting such

52a
legislation several times. See, e.g., Stop Sanctuary Cities Act, S. 1814, 114 Cong. § 2(b)(2) (2015); Enforce the
Law for Sanctuary Cities Act, H.R. 3009, 114th Cong.
§ 3(b) (2015). DOJ believes this is unpersuasive. See
FTC v. AT&T Mobility LLC, 883 F.3d 848, 857-58 (9th
Cir. 2018) (“Such proposals lack ‘persuasive significance’ because ‘several equally tenable inferences may
be drawn from [congressional] inaction, including the inference that the existing legislation already incorporated the offered change.’ ”) (internal quotations and citations omitted). But the Ninth Circuit has found congressional inaction, or unsuccessful actions, are relevant
to show Congress’s lack of authorization of the Executive Branch’s purported authority “to withdraw federal
grant moneys from jurisdictions that do not agree with
the current Administration’s immigration strategies.”
City & Cty. of San Francisco v. Trump, 897 F.3d 1225,
1234 (9th Cir. 2018) (finding that given the “divisiveness
of the policies in play,” Congress did not approve of an
Executive Order withholding grant funding to cities that
failed to certify compliance with Section 1373.).
DOJ disagrees that a formula grant program like the
Byrne JAG program is “irreconcilable” with the access
and notice conditions. It relies on the single sentence,
“the Attorney General may, in accordance with the formula . . . , make grants . . . ,” to contend that
there is a difference between grant eligibility discretion
and fund allocation discretion. 34 U.S.C. § 10152 (emphasis added). No party disputes that the Attorney
General has some discretion to make grants in the statute. The dispute is whether the text supports discretion to the degree that DOJ assumed when it created the

53a
conditions. The text itself does not support such an exercise of power. Yet DOJ simply writes-off the lack of
express authorization and instances when Congress imposed its own conditions on Byrne JAG funding as being
coextensive with its own discretionary authority to determine conditions for grant eligibility.
DOJ does not offer any argument not already considered on this exact issue in the parallel cases. See, e.g.,
City of Chicago, 2018 WL 3608564, at *12 (holding that
the Byrne JAG statute did not grant authority to impose
notice and access conditions); City of Philadelphia v.
Sessions, 309 F. Supp. 3d at 321 (finding that all three
conditions violated the separation of powers principle);
see also City of Los Angeles v. Sessions, 293 F. Supp. 3d
1087, 1098 (C.D. Cal. 2018) (striking down similar conditions on COPS grants). It made no attempt to address
those unfavorable cases or explain why I should depart
from that authority, and I will not. It is evident from
the text of the statute that the federal funds designated
by Congress for the Byrne JAG program do not impose
their own immigration enforcement conditions on recipients. To the contrary, “nothing in the Byrne JAG
statute grant[s] express authority to the Attorney General to impose the notice and access conditions.” City
of Chicago, 888 F.3d at 280.
2. Section 10102 Does Not Grant the Attorney
General Authority to Impose the Challenged
Conditions

As an independent basis for imposing the conditions,
DOJ relies on the authority granted in 34 U.S.C.
§ 10102, a statute in the subchapter creating the OJP
titled “Duties and Functions of Assistant Attorney General.” The statute states, “The Assistant Attorney

54a
General shall . . . (6) exercise such other powers
and functions as may be vested in the Assistant Attorney General pursuant to this chapter or by delegation of
the Attorney General, including placing special conditions on all grants, and determining priority purposes
for formula grants.” 34 U.S.C. § 10102 (emphasis
added).
The parties once again offer opposing statutory interpretations.
San Francisco argues that Section
10102(a) did not give DOJ authority to impose conditions because the power of “placing special conditions”
on and “determining priority purposes” of grants refers
to powers that have to be vested by some other statutory
authority and are not enumerated in Section 10102.
California contends that the access and notice conditions
are not justified by Section 10102(a)(6) because it only
permits the OJP to place special conditions on all grants
to “high-risk” grantees. California also asserts that Section 1373 identifies a “special award condition” to COPS
grants as a “high-risk condition” but refers to other conditions as “award terms and conditions” only. CA RJN
Ex. 31 at 5, 20.
DOJ counters that Section 10102(a)(6) must be interpreted to grant the Assistant Attorney General discretion to impose the conditions given that the statute was
amended to add the “special conditions” and “priority
purposes” language. To give the amended language no
power would therefore contravene the canon of statutory construction against surplusage. See, e.g., Johnson v. Consumerinfo.com, Inc., 745 F.3d 1019, 1022 (9th
Cir. 2014) (“ ‘When Congress acts to amend a statute, we
presume it intends its amendment to have real and substantial effect.’ ”) (quoting Stone v. INS, 514 U.S. 386,

55a
397 (1995)). DOJ emphasizes the absence of any language limiting “special conditions” on only “high-risk”
grantees when the text grants authority to place conditions on “all grants.” 34 U.S.C. § 10102(a)(6). It interprets “determine priority purposes” broadly as including the authority to prioritize federal grant funds to
further federal policies.
DOJ’s interpretation that Section 10102 establishes
an independent grant of authority to impose the challenged conditions contradicts the plain meaning of the
statute. The Seventh Circuit’s decision in City of Chicago, 888 F.3d at 284-85, and the district court’s order in
City of Philadelphia, 280 F. Supp. 3d at 616-17, are particularly instructive. They found, and I agree, that
DOJ asserts its independent authority to place “special
conditions” on grants to determine “priority purposes”
based on the subordinate clause in the last sentence of
Section 10102. The clause begins with the word “including,” conveying a reference to part of a whole. In
this statute, “placing special conditions” and “determining priority purposes” refers to part of the powers that
the Assistant Attorney General could have that were described earlier in the sentence. Those powers depend
on the authority “vested in the Assistant Attorney General pursuant to this chapter or by delegation of the Attorney General.” 34 U.S.C. § 10102. No portion of
the same chapter authorizes the conditions explicitly.
The Attorney General lacks the power to impose additional conditions on Congress’s exercise of the Spending
Power independent of Congress. 2 Moreover, the Byrne
Even if there were independent authority granted by Section
10102(a)(6), courts hearing the parallel cases found that the language “placing special conditions on all grants” is most likely a term
2

56a
JAG program statute does not reference Section 10102
and does not provide the authority to impose the notice
and access conditions as discussed above. See Sec.
II.A.1.
In addition, the statutory structure of Section
10102(a)(6) does not support DOJ’s broad interpretation
of its power to impose the challenged conditions. Section 10102(a)(6) is in a different subchapter than the
Byrne JAG statute and there is no text expressly applying it to the Byrne JAG program. See City of Chicago,
888 F.3d at 285 (“A clause in a catch-all provision at the
end of a list of explicit powers would be an odd place indeed to put a sweeping power to impose any conditions
on any grants—a power much more significant than all
of the duties and powers that precede it in the listing,
and a power granted to the Assistant Attorney General
that was not granted to the Attorney General.”). Ultimately, if such a broad power was not granted to the Attorney General under Section 10102(a)(6) or elsewhere,
by the statute’s plain meaning the Assistant Attorney
General does not hold such power either. See also City
of Philadelphia, 280 F. Supp. 3d at 617 (“Congress is
unlikely to ground the Attorney General’s authority to
impose substantive conditions in a subsection dedicated
to conferring power on the AAG.”). Section 10102(a)(6)
does not provide DOJ authority to impose the challenged
conditions on Byrne JAG program funding.

of art for the additional conditions placed on “high-risk grantees”
only. See City of Philadelphia, 280 F. Supp. 3d at 617; see also City
of Chicago, 888 F.3d at 285 n.2 (noting a possible term of art but not
analyzing further).

57a
3. Section 1373 is Not an Applicable Federal Law
for Compliance with the Byrne JAG Statute

In addition to the lack of authority for the notice and
access conditions, San Francisco and California assert
that DOJ lacks authority to impose the Section 1373 certification condition from the text of the Byrne JAG statute. DOJ insists that language in the Byrne JAG statute supports its authority to impose the certification
condition.
Specifically, 34 U.S.C. § 10153(a)(5)(D)
states:
(a) In general. To request a grant under this part,
the chief executive officer of a State or unit of local
government shall submit an application to the Attorney General . . . Such application shall include
the following:
. . .
(5) A certification,

. . .

that—

. . .
(D) the applicant will comply with all provisions
of this part and all other applicable Federal
laws.
34 U.S.C. § 10153(a)(5)(D). Although Section 1373 is a
federal law, San Francisco and California argue that it
cannot be broadly read as an “applicable Federal law”
as stated in the Byrne JAG statute because it is unconstitutional on its face. This raises two questions: (i)
whether Section 1373 is unconstitutional; and (ii) whether
it applies to the Byrne JAG program statute.

58a
a.

The Tenth Amendment
Commandeering Principle

and

Anti-

The Tenth Amendment states, “The powers not delegated to the United States by the Constitution, nor prohibited by it to the States, are reserved to the States respectively, or to the people.” U.S. Const. Amend. X.
This amendment confirms that “the power of the Federal Government is subject to limits that may, in a given
instance, reserve power to the States.” New York v.
United States, 505 U.S. 144, 157 (1992).
The Supreme Court has applied the anticommandeering principle to various claims that the federal government overstepped its bounds. See id. at 188
(“The Federal government may not compel the States to
enact or administer a federal regulatory program.”);
Printz v. United States, 521 U.S. 898, 935 (1997) (“The
Federal government may neither issue directives requiring the States to address particular problems, nor
command the States’ officers, or those of their political
subdivisions, to administer or enforce a federal regulatory program.”); Nat’l Fed’n of Indep. Bus. v. Sebelius,
567 U.S. 519, 578 (2012) (applying anti-commandeering
principle to “whether Congress directly commands a
State to regulate or indirectly coerces a State to adopt a
federal regulatory system as its own.”). Most recently,
in Murphy v. NCAA, 138 S. Ct. 1461 (2018), the Court
applied it to the Professional and Amateur Sports Protection Act (“PASPA”), which prevented states from legalizing sports betting and from repealing existing laws
that prohibited it. PASPA’s provision prohibiting state
authorization of sports gambling “unequivocally dictate[d] what a state legislature may and may not do.”
Murphy, 138 S. Ct. at 1478. Plaintiffs unsuccessfully

59a
argued that PASPA differed from anti-commandeering
case law since “it does not command the States to take
any affirmative act.” Id. at 1471. The Court rejected
that distinction as “empty” because “the basic principle—
that Congress cannot issue direct orders to state
legislatures—applies in either event.” Id. at 1478.
DOJ offers three threshold challenges to applying
the anti-commandeering principle to this case. First,
it asserts that the Tenth Amendment and the Murphy
opinion are inapposite because the certification condition is for a voluntary federal grant program. It argues that applicants can simply decline to participate in
the Byrne JAG program, making the Spending Clause
the appropriate legal battleground as opposed to the
Tenth Amendment’s anti-commandeering principle. But
this argument “ignores that Section 1373 is an extant
federal law with which [California or San Francisco] must
comply, completely irrespective of whether or not [it] accepts Byrne JAG funding.” City of Chicago, 2018 WL
3608564, at *6. San Francisco and California challenge
the certification condition because Section 1373 is unconstitutional; they do not necessarily challenge the Attorney General’s power to impose other grant conditions
requiring compliance with “all other applicable Federal
laws” that are consistent with the Byrne JAG program
statute language. For these reasons, the voluntariness
of the grant program does not remove a challenge to a
potentially applicable federal law, here Section 1373,
from the scope of the Tenth Amendment.
Second, DOJ contends that, regardless of Murphy,
the federal government has “broad, undoubted power”
over immigration, Arizona, 567 U.S. at 394, and that

60a
statutes like Section 1373 are presumed to be a constitutional exercise of that power. Reno v. Condon, 528
U.S. 141, 148 (2000). But Reno was distinguished from
other commandeering cases by the Court in Murphy because the statute involved “did not regulate the States’
sovereign authority to ‘regulate their own citizens.’ ”
Murphy, 138 S. Ct. at 1479 (quoting Reno, 528 U.S. at
151). On that basis, the Court gathered that “[t]he anticommandeering doctrine does not apply when Congress evenhandedly regulates an activity in which both
States and private actors engage.” Murphy, 138 S. Ct.
at 1478. The court in City of Chicago directly addressed the contention that Section 1373 ought to be
presumed constitutional under Reno as well, and I find
its analysis persuasive. City of Chicago, 2018 WL
3608564, at *7. Section 1373 does not regulate private
actor activities, nor does it regulate with equal force an
activity in which state and private actors engage. This
argument raised by DOJ against applying the anticommandeering principle fails.
Third, at the hearing DOJ offered a subtler distinction, that Section 1373 is a preemption provision rather
than an attempt at commandeering. It insisted that
the INA is a broad regulatory scheme over individuals,
unlike PASPA in Murphy which involved direct regulation of the states to enforce a specific sports betting policy. See Transcript of Proceeding at 8-9 (CA Dkt. No.
136; SF Dkt. No. 144); see also Murphy, 138 S. Ct. at
1481 (“every form of preemption is based on a federal
law that regulates the conduct of private actors, not the
States.”). Murphy explained how the Airline Deregulation Act of 1978 had a preemption provision (rather
than a commandeering provision) since it “confer[red]

61a
on private entities . . . a federal right to engage in
certain conduct subject only to certain (federal constraints).” Murphy, 138 S. Ct. at 1480. The Court
also explained how Arizona involved “standards governing alien registration,” and in turn conferred “a federal
right to be free from any other registration requirements.” Id. at 1481.
Here, Section 1373 applies regardless of any State’s
attempt to regulate immigration, and in fact restricts
States in unrelated criminal justice contexts completely
outside the scope of the INA. Section 1373, as already
discussed, does not regulate private actors or provide
private actors with any additional rights in the INA’s
statutory scheme. DOJ’s preemption argument fails
on this distinction.
I turn now to analyzing Section 1373 and the anticommandeering case law. Murphy provided a nonexhaustive set of three policy reasons that make adhering to the anti-commandeering principle important.
First, the principle is “one of the Constitution’s structural protections of liberty,” dividing federal and state
authority “for the protection of individuals.” Id. at
1477 (internal quotation and citation omitted). Second,
it “promotes political accountability” against the backdrop that voters are unable to place credit or blame
when the roles of the State and Congress are blurred.
Id. Finally, it prevents the federal government from
“shifting the costs of regulation to the States.” Id.
These three concerns are relevant.
Section 1373 contravenes the idea that liberty is best
served by the Constitution’s intended division of “authority between federal and state governments for the
protection of individuals.” Murphy, 138 S. Ct. at 1477

62a
(quoting New York, 505 U.S. at 181). DOJ argues that
Section 1373 requires states and local governments to
allow the disclosure of an immigrant’s address, location
information, release date, date of birth, familial status,
contact information, and any other information that
would help federal immigration officials perform their
duties. See Sherman Decl. Ex. B (Defs. Interrog.
Resp. 17); Ex. E (Defs. RFA Resps. 9-16). To comply
with that interpretation, California and San Francisco
would need to submit control of their own officials’ communications to the federal government and forego passing laws contrary to Section 1373. They would also
need to allocate their limited law enforcement resources
to exchange information with the federal government
whenever requested instead of to the essential services
(like enforcing generally applicable criminal laws) they
believe would most benefit their respective communities.
As DOJ interprets Section 1373 today, the statute requires communications by state and local governments
in ways that create an appearance of a uniform federal/state/local immigration enforcement policy indiscernible to San Francisco or California residents.
Murphy, 138 S. Ct. at 1477 (“When Congress itself regulates, the responsibility for the benefits and burdens of
the regulation is apparent.”). Section 1373 effectively
“supplants local control of local officers” by prohibiting
those jurisdictions from preventing employees from
communicating with the INS. City of Chicago, 2018
WL 3608564, at *8; see also United States v. California,
314 F. Supp. 3d at 1099 (“Section 1373 does just what
Murphy proscribes: it tells States they may not prohibit (i.e., through legislation) the sharing of information

63a
regarding immigration status with the INS or other
government entities.”). The statute undermines existing state and local policies and strips local policy makers
of the power to decide for themselves whether to communicate with INS. See Printz, 521 U.S. at 931 (“To
say that the Federal Government cannot control the
State, but can control all of its officers . . . merits
the description ‘empty formalistic reasoning of the highest order.”) (internal quotations and citation omitted).
California expresses the legitimate concern that entanglement with federal immigration enforcement erodes
the trust that Latino and undocumented immigrant communities have in local law enforcement, which is essential for victims and witnesses to feel they can safely report crimes. See Wong Decl. ¶¶ 4, 41-44, 52-53 (discussing how entanglement affects undocumented immigrants’ trust in law enforcement); Hart Decl. ¶¶ 9, 11
(reiterating the Santa Cruz Sheriff’s Office view that
trust is essential to community-oriented policing); Goldstein Decl. ¶ 5 (summarizing California’s belief, embodied in the Values Act, that trust between law enforcement and the immigrant community is central to public
safety); Rosen Decl. ¶ 8 (expressing firsthand experience of immigration enforcement actions chilling voluntary reporting in domestic violence cases); see also Chicago, 888 F.3d at 280 (“State and local law enforcement
authorities are thus placed in the unwinnable position of
either losing needed funding for law enforcement, or
forgoing the relationships with the immigrant communities that they deem necessary for efficient law enforcement”).

64a
The harm that entanglement with immigration enforcement does to community trust is more than theoretical, as plaintiffs and amici have shown. To summarize just one study, the fear of police inquiring into immigration status results in a lower likelihood that Latinos will report being a victim or witnessing crimes by 44
percent, undocumented immigrants by 70 percent, and
even U.S.-born Latinos by 28 percent. See CA RJN
Ex. 4; see also Wong Decl. ¶¶ 35-38 (sharing similar results in a separate study); Amicus Brief (CA Dkt. No.
130; SF Dkt. No. 136-1) (providing many other studies
documenting the erosion of trust in local law enforcement who implicate themselves in immigration enforcement).
Finally, Section 1373 shifts a portion of immigration
enforcement costs onto the States. Murphy, 138 S. Ct.
at 1477 (finding that Congress “is pressured to weigh
the expected benefits of the program against its costs”
but fails to do so if it can “compel the States to enact and
enforce its program.”). It compels state and local governments not to prohibit their employees from communicating with federal immigration officials. California’s law enforcement agencies experienced double the
detainer requests from ICE in one year—from 15,000 in
fiscal year 2016 to 30,000 in fiscal year 2017. See TRAC
Reports, Inc., Latest Data: Immigration and Customs
Enforcement Detainers, California (2018). According
to DOJ’s broad interpretation of Section 1373, San
Francisco and California must respond to each request,
including release dates, no matter the burden on the law
enforcement agencies or the length of the person’s detainment term. See Hart Decl. ¶¶ 19-20 (reporting that
Santa Cruz County jails are run over capacity, with staff

65a
shortages making compliance impossible, and that 60
percent of all arrests are misdemeanors where individuals are booked and released within hours).
DOJ does not directly respond to the arguments made
by San Francisco and California that track the three policy
considerations supporting the anti-commandeering principle, and instead portrays Section 1373 merely as protecting the transfer of information to federal officials.
It distinguishes a prohibition on states from regulating
their own state citizens and a law that regulates states
as “the owners of data bases.” Reno, 528 U.S. at 151.
It contends that Murphy supports the defense because
PASPA was an effort to “regulate the States’ sovereign
authority to regulate their own citizens,” while in contrast Section 1373 is just an information-sharing component of a larger statutory scheme to enforce immigration.
In Printz, the Supreme Court found that a federal
statute requiring state and local law enforcement to conduct background checks on handgun license applications
was unconstitutional. 521 U.S. at 935 (holding that the
federal government cannot “command the States’ officers, or those of their political subdivisions, to administer
or enforce a federal regulatory program.”). DOJ relies
on dicta, remarking that statutes “which require only
the provision of information to the Federal Government,
do not involve the precise issue [of ] . . . forced participation of the States’ executive in the actual administration of a federal program.” Printz, 521 U.S. at
918; see also id. at 936 (“the Court appropriately refrains from deciding whether other purely ministerial
reporting requirements imposed by Congress on state
and local authorities pursuant to its Commerce Clause

66a
powers are similarly invalid.”) (O’Connor, J., concurring). The Court has yet to decide the merits of that
distinct issue. Id. (finding that those statutes requiring only information-sharing “do not involve the precise
issue before us here.”); see also United States v. California, 314 F. Supp. 3d at 1101 (finding “[t]he more critical question, however, is whether required information
sharing constitutes commandeering at all. Printz left
this question open.”). Printz’s holding, as the Court
later explained in Murphy, applied “not only to state officers with policymaking responsibility but also to those
assigned more mundane tasks.” 138 S. Ct. at 1477.
Printz does not support carving out statutes that focus
on information-sharing from the anti-commandeering
principle if the statutes are still characteristic of commands to States, their officers, or their political subdivisions.
There is no distinction for anti-commandeering purposes, post-Murphy, between a federal law that affirmatively commands States to enact new laws and one that
prohibits States from doing the same. Even if the
Court would recognize an exception for statutes requiring “purely ministerial reporting,” Printz, 521 U.S. at
936, Section 1373’s impact is not merely as a ministerial
information-sharing statute. It prohibits state and local jurisdictions, their agencies, and officials, from preventing information-sharing with the federal government whether through ministerial reporting, local agency
policymaking, or legislative rulemaking. See 8 U.S.C.
§ 1373 (“a Federal, State, or local government entity or
official may not prohibit, or in any way restrict, any government entity or official from sending to, or receiving
from, the [INS] information regarding the citizenship or

67a
immigration status, lawful or unlawful, of any individual.”). The statute takes control over the State’s ability to command its own law enforcement. This is particularly concerning given the State’s and San Francisco’s view of the decidedly negative impact that entanglement with federal immigration enforcement has on
community trust and reducing crime. Section 1373
lacks the “critical alternative” discussed in New York,
505 U.S. at 176, allowing a state to decline to administer
a federal program. Id. at 176-177.
As the court wrote in City of Chicago, Section 1373
“effectively thwart[s] policymakers’ ability to extricate
their state or municipality from involvement in a federal
program.” 264 F. Supp. 3d at 949. It goes beyond
information-sharing to “require[] local policymakers to
stand aside and allow the federal government to conscript the time and cooperation of local employees.”
City of Chicago, 2018 WL 3608564, at *11. Further,
with Section 1373 imposed on states and local governments, “federal priorities dictate state action” and this
inevitably reaches the state’s relationship with its own
citizens and undocumented immigrant communities in
ways that no doubt will affect their perceptions of the
state and trust in its law enforcement agencies. United
States v. California, 314 F. Supp. 3d at 1109, Dkt. No.
193 at 50. For the reasons discussed above, I find that
Section 1373 is unconstitutional. 3

DOJ also asks the court to consider whether Section 1373’s language can operate as an independent grant condition regardless of
the validity of Section 1373. Because I do not find that the Byrne
JAG statute or Section 10102(a)(6) provided independent authority
for the Attorney General to impose the conditions, it follows that
3

68a
b.

Applicable Federal Laws in the Byrne JAG
Statute

DOJ asserts that it has the power to condition Byrne
JAG grants on any federal law as long as it gives notice
that it applies, as it did for Section 1373. Given that Section 1373 is unconstitutional, “[a]s an unconstitutional
law, Section 1373 automatically drops out of the possible
pool of ‘applicable Federal laws’ described in the Byrne
JAG statute” whether I interpret the statute as DOJ requests or not. City of Chicago, 2018 WL 3608564, at
*13 (citing Branch v. Smith, 538 U.S. 254, 281-82 (2003)
(finding that the phrase “as state law requires” does not
include unconstitutional state laws)); see also City of
Philadelphia, 2018 WL 2725503, at *32-33 (“Because the
JAG Byrne Program requires compliance with an unconstitutional statute (in this case, Section 1373) in order to receive grant funds, the Certification Condition is
itself unconstitutional.”). DOJ has no authority to demand state and local governments certify compliance
with an unconstitutional law. 4

there would not be authority to impose a separate grant condition
identical to Section 1373’s terms, without an act of Congress.
4
In City of Chicago, the court also emphasized the constitutional
distinction between Section 1373 and the condition that recipients
must certify compliance with Section 1373. The anti-commandeering
principle may invalidate an unconstitutional law, but it would not
invalidate agency authority to impose federal grant conditions if it
is appropriately permitted by Congress. See S. Dakota v. Dole,
483 U.S. 203, 210 (1987) (finding that the Tenth Amendment limits
congressional regulation of state affairs, not the conditions attachable to federal grants). I agree with this distinction in reaching
the conclusion here.

69a
For completeness, though, I will address DOJ’s argument on whether Section 1373 is an applicable law if
it is constitutional. San Francisco makes three persuasive counterarguments based in the text, context, and
legislative history of the Byrne JAG statute to interpret
the “applicable Federal laws” provision as limited to federal laws about the grant-making process. See SF
Mot. for Summ. J. at 14-15; see also Amicus Brief (SF
Dkt. No. 135-1) (advancing similar arguments).
First, it is superfluous to interpret “all other applicable Federal laws” as “all Federal laws,” especially considering that Congress explicitly imposed compliance
with other conditions by implementing the Sex Offender
Registration and Notification Act and the Prison Rape
Elimination Act. Second, because all the other conditions in Section 10153(a) apply to the grant itself, the
statutory context does not support imposing a condition
beyond the grant administration process.
Finally,
DOJ’s own practice narrowly interprets “applicable laws”
to the grant process, and the certification form only asks
grant applicants to certify compliance with federal laws
“applicable to the award.” SF RJN Ex. C § 3(a).
Starting with the text, the Ninth Circuit has found
that, in isolation, “the term ‘applicable’ has a spectrum
of meanings.” Ileto v. Glock, Inc., 565 F.3d 1126, 1134
(9th Cir. 2009). Here, the words “all other” that precede the “applicable” term do not give me much of any
guidance on the scope of the provision’s application.
DOJ’s cases are also not determinative of the plain
meaning of the text in this statute. I agree with the
courts in City of Philadelphia, 280 F. Supp. 3d at 619,
and City of Chicago, 264 F. Supp. 3d at 944, that “[b]oth
positions are plausible” and this question is a “close

70a
call.” Because “applicable” could hold either meaning
proposed by the parties based on the text alone, to determine the congressional intent of this language I turn
to “the specific context in which [the term ‘applicable’]
is used[] and the broader context of the statute as a
whole.” Ileto, 565 F.3d at 1134 (quoting Robinson v.
Shell Oil Co., 519 U.S. 337, 341 (1997)).
The statutory structure suggests “applicable” was intended to refer to laws related to grant applications.
The entire sentence appears in the last of four “residual
clauses” within a proviso, all of which concern the grant
application. In Republic of Iraq v. Beaty, 556 U.S. 848,
857-58 (2009), the Court recognized that “presumptively, the ‘grammatical and logical scope [of a proviso]
is confined to the subject-matter of the principal
clause.’ ” Id. (quoting United States v. Morrow, 266
U.S. 531, 534-535 (1925)); see also Alabama Dep’t of
Revenue v. CSX Transp., Inc., 135 S. Ct. 1136, 1144-45,
(2015) (finding that “the meaning of [a residual clause]
is best understood by reference to the provisions that
precede it.”). In some instances, a proviso can state an
independent rule—it “may be lazy drafting, but is
hardly a novelty.” Id. at 859. Here, the phrase “all
other applicable Federal laws” refers to the preceding
clause requiring grant applications to include a certification “in a form acceptable to the Attorney General.”
34 U.S.C. § 10153(a)(5) (emphasis added). There is no
indication that an acceptable form of the certification
would encompass additional substantive compliance
with laws not directly required by Congress. Accordingly, I would find that Section 1373 is not an applicable
law regardless of its constitutionality.

71a
B.

The Spending Clause

California and San Francisco also argue that even if
the Attorney General had the power to impose the conditions on grant funding delegated to him by Congress,
it exceeds the constitutional limits of the Spending Power
to require the new conditions. As discussed above, the
Spending Power includes “condition[ing] the receipt of
funds, by states and others, on compliance with federal
directives.” Skinner, 884 F.2d at 447. But this power
is not absolute. Exercising the Spending Power to impose grant conditions must: (i) be in pursuit of the general welfare; (ii) be unambiguous; (iii) be reasonably related to Congress’s articulated goal; and (iv) not induce
the State to commit an unconstitutional action. Id.
San Francisco and California challenge the ambiguity
and relatedness of the three conditions.
1. Unambiguous Requirement

When Congress requires conditions on federal funds,
“it must do so unambiguously” so that state and local
governments can decide whether to accept the funds and
“exercise their choice knowingly, cognizant of the consequences of their participation.” S. Dakota v. Dole,
483 U.S. 203, 207 (1987) (quoting Pennhurst State Sch.
& Hosp., 451 U.S. at 17). Congress cannot implement
new conditions after-the-fact because states must decide to opt-in to a federal program willingly and aware
of the conditions. See Nat’l Fed. of Indep. Bus. v. Sebelius, 132 S. Ct. 2566, 2602-04 (2012). Courts tasked
with determining if an exercise of the Spending Power
is unambiguous must find that the underlying statute
provides “clear notice” of its application. Arlington
Cent. Sch. Dist. Bd. of Educ., 548 U.S. at 296. San
Francisco challenges all three conditions as ambiguous,

72a
while California focuses its briefing on the access and
notice conditions.
a. Access and Notice Conditions

California asserts that the access and notice conditions do not provide clear notice of what is required to
comply. There is no statute providing guidance about
the condition requirements, and the award letters presumably outlining the terms of compliance do not explain the requirement that a state or local statute, rule,
regulation, policy, or practice, must be in place and “designed to ensure” federal agents have access to and get
notice concerning individuals in correctional facilities
and their release date information. See DOJ RJN, Ex.
B ¶¶ 55, 56. California also takes issue with DOJ’s lack
of explanation about whether the TRUTH Act disqualifies it from satisfying the access condition, and what
state entities in the California Board of State and Community Corrections, which receives the Byrne JAG
funds, are included in the award letter language “program and activity.” See Sherman Decl. Ex. E at RFA
Resp. 21 & 39.
San Francisco’s contentions focus on the inconsistency of the DOJ’s statements and positions explaining
the access and notice conditions. San Francisco asserts
that the notice condition, requiring notice “as early as
practicable,” is unclear and that the award letter language does not acknowledge times when notice is impossible because inmates are released with little or no notice. See Lee Decl. ¶ 7, Ex. E at ¶¶ 55, 56; DOJ RJN,
Ex. B ¶¶ 55, 56. Further, San Francisco believes it is
unclear from the DOJ’s briefing in City of Philadelphia
v. Sessions and California v. Sessions if San Francisco
must provide access to inmates who consent or if it can

73a
decline access if the inmate is unwilling to meet with
ICE. Compare City of Philadelphia v. Sessions, No.
2:17-cv-03894-MMB, Dkt. No. 28, at 32 (E.D. Pa. Oct. 12,
2017) (citing DOJ’s argument that access conditions require access “even if the inmate refuses to answer questions”), with California v. Sessions, Dkt. No. 83, at 6
(N.D. Cal. Nov. 22, 2017) (arguing that the access condition does not “forbid a jurisdiction from informing detainees . . . that they may choose not to meet with
immigration authorities.”).
DOJ’s response to San Francisco and California is
nearly the same; it quotes the language of its award letters and contends that the notice and access conditions
are unambiguous in their text. It also notes that to the
extent grant applicants had questions, they should have
contacted their respective “Grant Manager” as encouraged in the 2017 Byrne JAG solicitation. See Lee Decl.
Ex. A & B. It pushes back against the need to specify
the outer limits of its conditions, arguing that the conditions are not ambiguous even if they are indeterminate
“provided that the existence of the conditions is clear,
such that States have notice that compliance with the
conditions is required.” Charles v. Verhagen, 348 F.3d
601, 607 (7th Cir. 2003) (citation omitted); see, e.g., Benning v. Georgia, 391 F.3d 1299, 1306 (11th Cir. 2004)
(“Once Congress clearly signals its intent to attach federal conditions to Spending Clause legislation, it need
not specifically identify and proscribe in advance every
conceivable state action that would be improper.”) (citation omitted). It also responds to San Francisco’s focus on inconsistent statements concerning the access
condition merely as “different sides of the same coin”

74a
requiring San Francisco not to insert itself between federal immigration officials and detainees. DOJ Mot.
Summ. J & Opp. at 21 n.13 (SF Dkt. No. 113).
In the case of a condition on federal funding, courts
“must view the [governing statute] from the perspective
of a state official who is engaged in the process of deciding whether the State should accept [the] funds and the
obligations that go with those funds.” Arlington Cent.
Sch. Dist. Bd. of Educ., 548 U.S. at 296. Beginning
with the text of the statute, if the “language is plain, the
sole function of the courts—at least where the disposition required by the text is not absurd—is to enforce it
according to its terms.” Hartford Underwriters Ins.
Co. v. Union Planters Bank, N. A., 530 U.S. 1, 6 (2000)
(internal quotations omitted).
Here, as in City of Philadelphia, “[w]hether Congress unambiguously imposed the Challenged Conditions (or unambiguously authorized the Attorney General so to do) entails largely the same inquiry as whether
it conferred authority upon the Attorney General to impose them.” 280 F. Supp. 3d at 646. I found no authority within the Byrne JAG statute to support the Attorney General’s purported power to impose the new
conditions, and I found no independent authority to impose the conditions based on the Assistant Attorney
General’s powers delineated in Section 10102. See supra
Sec. II.A.1-2. On that basis, the notice and access conditions “cannot have been unambiguously authorized by
Congress if they were never statutorily authorized.”
Id.

75a
b. Certification Condition

The certification condition is unclear from San Francisco’s perspective because DOJ has maintained different and increasingly broad interpretations of how state
and local governments must comply with Section 1373.
In 2007, DOJ’s Office of Inspector General (“OIG”) evaluated San Francisco’s compliance with Section 1373 and
concluded that even though ICE officials objected to its
policies, there was no concern about the flow of information between the two agencies. See Lee Decl. ¶ 9,
Ex. G at AR00010-12. However, in 2016, DOJ’s OIG
noted the opposite conclusion based on its interpretation
of San Francisco’s Sanctuary City laws’ internal savings
clause. See Lee Decl. ¶ 10, Ex. H at 5-6 n.7. San
Francisco also alludes to various representations that
DOJ has made throughout this litigation and in parallel
cases, which offer inconsistent guidance on the scope of
the certification condition. See SF Mot. Summ. J. at
19-20.
DOJ considers the certification condition unambiguous from the text of the award documents. The award
documents in defendants’ exhibits show that complying
with Section 1373 entails not restricting information on
citizenship or immigration status. See DOJ RJN, Ex.
B ¶¶ 53-55. In October 2016, DOJ contends that OJP
also issued “guidance” on compliance with the Section
1373 certification condition. But at no point in this guidance does the OJP clearly answer the questions raised
by San Francisco about what its interpretation of compliance really means. See DOJ RJN, Ex. F (repeating
generally that its “goal is to ensure that our JAG and
SCAAP recipients are in compliance . . . ”).

76a
In City of Philadelphia, the court found that whether
the certification condition was unambiguous was a “close
call,” just as it found it was a close call whether Section
1373 was authorized by the “all other applicable Federal
laws” language in Section 10153(a)(5)(D) of the Byrne
JAG statute. 280 F. Supp. 3d at 619, 646. It concluded that Philadelphia was likely to succeed on the
merits of its ambiguity argument given that there were
several interpretations of the “applicable Federal laws”
text that did not provide clear notice of the Section 1373
certification condition. Id. at 646-647 (“on one hand it
could signify all federal laws related to grantmaking (as
the City would have it), or on the other, all federal laws
related to law enforcement, or even the entire corpus of
federal law codified in the United States Code.”).
As discussed above, I find that the plain text was not
definitive in interpreting the meaning of “all other applicable Federal laws,” and the structure of the statute
supported a limited interpretation encompassing federal laws related to the grant. See supra Sec. II.A.3.b.
Congress required applications for Byrne JAG program
grants to be certified in compliance with “all other applicable Federal laws.” 34 U.S.C. § 10153(a)(5)(D).
However, the certification of “applicable” laws is understood in relation to the preceding language “in such form
as the Attorney General may require,” which I do not
interpret as conferring more than ministerial powers to
the Attorney General. Id.
DOJ’s evolving interpretations of the certification
condition further demonstrate ambiguities that prevent
applicants from deciding whether to accept the funds
“cognizant of the consequences of their participation.”
Dole, 483 U.S. at 207 (quoting Pennhurst State Sch. &

77a
Hosp., 451 U.S. at 17). In September 2017, in its opposition to San Francisco’s motion for summary judgment
in City and Cty. of San Francisco v. Trump, DOJ argued that San Francisco’s sanctuary city ordinances violated Section 1373 because they discouraged or restricted
employees from sharing information regarding immigration status. See Oppo. at 14-15, Case No. 3:17-485WHO (N.D. Cal. Sept. 27, 2017) (Dkt. No. 172). Then
at the October 23, 2017 hearing, DOJ suggested that
Section 1373 applies to a person’s release status, identity or age, date of birth, residence, and address. Lee
Decl. ¶ 13, Ex. K at 17:2-22:23. In a November 15, 2017
letter to San Francisco, DOJ expressed that it was concerned that San Francisco’s sanctuary city policies violate Section 1373 since they prohibit notifying ICE of
release state or personal information. See Lee Decl.
¶ 14, Ex. L. Now in this case, DOJ takes the expansive
position that Section 1373 encompasses a detainee’s release date, residential address, location information, date
of birth, familial status, and contact information. See
Lee Decl. ¶ 6, Ex. D (RFA Nos. 9-14).
2.

Relatedness Requirement

In addition to being unambiguous, conditions on congressional spending must share some nexus such that
they are “reasonably related to the purpose of the federal program.” See Dole, 483 U.S. at 213 (O’Connor, J.,
dissenting). This means that Byrne JAG program funds
conditioned on certified compliance with Section 1373
and the notice and access conditions “must have some
nexus to immigration enforcement.” Cty. of Santa Clara
v. Trump, 250 F. Supp. 3d 497, 532 (N.D. Cal.), reconsideration denied, 267 F. Supp. 3d 1201 (N.D. Cal. 2017),
appeal dismissed as moot sub nom. City & Cty. of San

78a
Francisco v. Trump, Case No. 17-16886, 2018 WL
1401847 (9th Cir. Jan. 4, 2018).
California contends that the challenged conditions,
which pertain to federal immigration enforcement, lack
any reasonable relationship to the criminal justice purpose of Byrne JAG program and in fact undermine its
purpose of recognizing local control over local public
safety. See AR-992 (announcing the DOJ’s new conditions so that “federal immigration authorities have the
information they need to enforce immigration laws.”).
It also emphasizes DOJ’s increasing focus on removing
classes of immigrants who have incurred civil penalties
but have not been convicted of any crime, which is beyond the criminal justice goals of the Byrne JAG program. Similarly, San Francisco asserts that Congress’s
purpose for the Byrne JAG program was to give state
and local governments support for their own initiatives
related to one of eight criminal justice purposes—none
of which is immigration enforcement.
34 U.S.C.
§ 10152(a)(1)(A)-(H).
DOJ argues that the grant conditions satisfy the relatedness inquiry because the term “criminal justice” is
broadly defined in the same chapter of the Byrne JAG
statute as “activities pertaining to crime prevention,
control, or reduction, or the enforcement of the criminal
law, including, but not limited to, police efforts to prevent, control, or reduce crime or to apprehend criminals,
. . . activities of courts having criminal jurisdiction,
and related agencies.” 34 U.S.C. § 10251(a)(1). Drawing
from Section 10102(a), DOJ also contends that the
conditions relate to the Assistant Attorney General’s responsibility to “maintain liaison with” state governments
in criminal justice matters. 34 U.S.C. § 10102(a)(1), (2).

79a
It contends that its efforts to remove immigrants convicted of serious crimes are sufficiently related to apprehending criminals and reducing crime because once removed, a criminal is no longer present to re-offend.
As I have already discussed at length, on its face the
Byrne JAG program is a formula grant program for
specified funds to be used by states and local law enforcement in programs related to one of eight broad program areas related to criminal justice.
34 U.S.C.
§ 10152(a)(1)(A)-(H); see also City of Philadelphia, 280
F. Supp. 3d at 643 (“the best reading of the Byrne statute is that Congress intended to create a formula grant
program that simply provided fiscal assistance to states
and localities for any of a wide variety of permissible
purposes that the applicant jurisdictions, having heard
from various stakeholders, were entitled to select.”).
The legislative history bolsters this interpretation of its
purpose. See, e.g., H.R. Rep. 109-233, at 89, reprinted
in 2005 U.S.C.C.A.N. 1636, 1640 (“The Committee believes that these reforms will work to give State and local governments more flexibility to spend money for
programs that work for them rather than to impose a
‘one size fits all’ solution.”); 151 Cong. Rec. 25,919 (2005)
(“Byrne grants fund local law enforcement to combat
the most urgent public safety problems in their own
communities.”).
Congress repealed the only requirement related to
immigration that existed before, and it has failed to
amend the Byrne JAG statute to add similar conditions
since. See Immigration Act of 1990, Pub. L. 101-649,
§ 507(a); Misc. and Tech. Immigration and Naturalization Amend. of 1991, Pub. L. 102-232, § 306(a)(6) (repealed 2006) (requiring states to provide records of the

80a
“criminal convictions of aliens”); CA RJN Exs. 32-36
(various House and Senate bills that failed to amend the
Byrne JAG statute with an immigration enforcement
component); see also Amicus Brief at 4 n.6 (CA Dkt. No.
132; SF Dkt. No. 138-1) (summarizing failed efforts
since the 1990s to impose immigration conditions on
Byrne JAG grant funding). In fact, “Congress has repeatedly, and frequently, declined to broadly condition
federal funds or grants on compliance with Section 1373
or other federal immigration laws,” as DOJ is now attempting to do with the challenged conditions. Cty. of
Santa Clara, 250 F. Supp. 3d at 531 (citing Ending Sanctuary Cities Act of 2016, H.R. 6252, 114th Cong. (2016);
Stop Dangerous Sanctuary Cities Act, S. 3100, 114th
Cong. (2016); Stop Dangerous Sanctuary Cities Act,
H.R. 5654, 114th Cong. (2016); Stop Sanctuary Policies
and Protect Americans Act, S. 2146, 114th Cong. (2016)).
The Byrne JAG programs that are at risk of losing
funding because of the access and notice conditions do
not relate to immigration enforcement. The conditions
address interviewing and accessing detained individuals
for removal purposes, and as applied they “target[] for
defunding grants with no nexus to immigration enforcement at all.” Cty. of Santa Clara, 250 F. Supp. 3d at
533. As recognized in City of Philadelphia, criminal
law is integral to federal immigration law, but it is not a
two-way street; immigration law does not impact local
law enforcement’s administration and enforcement efforts in the criminal justice system. 280 F. Supp. 3d at
642, 642 (“Immigration law has nothing to do with the
enforcement of local criminal laws.”). The INA authorizes local law enforcement to cooperate with the federal
government to enforce immigration laws, but it does not

81a
require it. See, e.g., 8 U.S.C. §§ 1252c, 1324(c), 1357(g)
(authorizing state and local officers to arrest for INA violations, and to enter formal cooperative agreements to
perform other specific functions of federal immigration
officers). Relatedly, both California and San Francisco
have shown that their own policies and laws respect the
separation between immigration enforcement and the
essential duties local law enforcement carry out with
their limited resources.
California’s Byrne JAG program funding is intended
to support law enforcement programs like task forces
focused on criminal drug enforcement, violent crime, and
gang activities; none of these involve immigration enforcement. See Caligiuri Decl. ¶ 29. California’s COPS
grant funding also funds the salaries and costs of four
full-time employees who work on anti-methamphetamine
efforts. Id. ¶ 21. Likewise, San Francisco’s funding
goes towards at-risk youth programs to reduce recidivism, law enforcement programs aiming to reduce drug
trade and servicing people with drug use and mental
health problems. See Chyi Decl. ¶¶ 10, 17, 18. The access and notice conditions, which DOJ admits are intended to promote immigration enforcement, lack any
relationship to (and in fact interfere with) the criminal
justice priorities set by the plaintiffs applying for criminal justice program funding through the Byrne JAG
statute. Contrary to DOJ’s view, maintaining liaison
with state and local governments on criminal justice
matters does not justify requiring access to their detainees and notice of release dates for every individual the
federal government requests.

82a
Even if the Attorney General had the Spending
Power to impose immigration enforcement on traditional criminal justice responsibilities of local law enforcement, the conditions are more substantial than the
relationship between the dual sovereigns can reasonably
bear. The Attorney General has made it clear that
DOJ “no longer will exempt classes or categories of removable aliens from potential enforcement,” yet many
immigration violations do not involve criminal law and
are only violations of civil penalties. Cf. CA RJN Ex.
37 at 2, with 8 U.S.C. §§ 1182(a)(6)(A) & (9)(B), 1202(g),
1227(a)(1)(B). California and San Francisco have shown
that their uses of the Byrne JAG grants are much
broader than preventing reoffenders, such that “adherence to the Department of Justice conditions would conflict with its justifiable policies towards non-criminal aliens.” City of Philadelphia, 280 F. Supp. 3d at 644.
In this respect, “the federal interest in enforcing immigration laws falls outside the scope of the Byrne JAG
program.” Id. at 642.
The certification condition is unrelated as well. In
my prior Order on California’s motion for a preliminary
injunction, I found that the Section 1373 certification
condition may have a sufficient nexus to the purposes of
the Byrne JAG program “depending on the breadth of
the federal government’s interpretation of Section
1373.” Order at 23 (CA Dkt. No. 89). Even though the
federal government’s interest in immigration enforcement extends beyond the Byrne JAG statute’s goal of
supporting criminal justice programming, “the Certification Condition appears to have some relationship with
the JAG Program.” City of Philadelphia, 280 F. Supp.
3d at 642, 644. But as the court in City of Philadelphia

83a
found, Section 1373 by its plain terms was not limited to
“aliens, criminal aliens, or even convicted criminals.”
Id. at 644. Philadelphia established that it uses Byrne
JAG funds for justifiable policies related to non-criminal
aliens outside just prosecuting criminals. Id. Based
on these facts, it noted the certification condition “arguably exceeds the relatedness requirement.” Id. (citing
Dole, 483 U.S. at 215 (O’Connor, J., dissenting). I
agree.
The Supreme Court has required only that grant conditions “bear some relationship to the purpose of the
federal spending.” New York, 505 U.S. at 167. I have
already discussed why I would have found Section 1373
is not an “applicable law” under the Byrne JAG statute
regardless of its constitutionality. Requiring a certification of compliance with an inapplicable law would
seem to exemplify un-relatedness. Assuming that Section 1373 was an “applicable law,” according to its text it
still prevents restricting “information regarding the citizenship or immigration status, lawful or unlawful, of
any individual.” 8 U.S.C. § 1373(a) (emphasis added).
In turn, the Section 1373 certification condition exceeds
the bounds of the Byrne JAG statute and demonstrates
“an attenuated or tangential relationship” that the DOJ
is not entitled to impose. Dole, 483 U.S. 203, 215 (1987).
By its express terms it applies to “any individual,” including non-criminal immigrants and United States citizens alike. See City of Philadelphia, 280 F. Supp. 3d
at 644 (quoting 8 U.S.C. § 1373(a)). This condition, like
the access and notice conditions, does not apply to the
criminal justice purposes of the programs the Byrne
JAG statute supports.

84a
Accordingly, even if Congress delegated the Spending Power to the Attorney General, the challenged conditions are ambiguous and insufficiently related to the
grant or the local criminal justice program purposes of
the federal spending.
III. CALIFORNIA’S ARBITRARY AND CAPRICIOUS
CLAIM

California argues that all three conditions for Byrne
JAG program funding are “arbitrary and capricious” under the Administrative Procedure Act (“APA”). DOJ
counters that there is no final agency action because it
has not yet granted or denied California’s fiscal year
2017 Byrne JAG application or imposed the conditions
on the grant. 5 Assuming for the sake of argument that
there was final agency action, DOJ contends that the
conditions are not arbitrary and capricious. I address
each argument below.
A.

Requiring the Challenged Conditions is a Final
Agency Action

An agency action is final if it “marks the consummation of the agency’s decisionmaking process” and determines “rights or obligations . . . from which legal
consequences flow.” Bennett v. Spear, 520 U.S. 154,
177-178 (1997) (internal quotations omitted). DOJ acknowledges that it has determined certain California
laws violate Section 1373, as evidenced by its affirmative
litigation in United States v. California, Case No.
2:18-cv-490, Dkt. No. 1 (E.D. Cal. Mar. 6, 2018). See
Defendants note that their argument is unchanged from earlier
in the case, when I found California demonstrated that the imposition of the certifying condition is a final agency action. See DOJ
Mot. Summ. J & Opp. at 10 n.4 (CA Dkt. No. 124).
5

85a
DOJ Mot. Summ. J & Opp. at 11 n.5 (CA Dkt. No. 124).
It tries to distinguish this legal conclusion from a final
factual determination on the Byrne JAG program application. But as I found in the prior Order, finding that
the Byrne JAG program and COPS grants require compliance with Section 1373 is a final action, and there are
clear legal consequences for California stemming from
imposing the condition. See Order at 19-20 (CA Dkt.
No. 89) (finding “the federal government has articulated
that certain funds . . . will require adherence to the
certification condition” and “[r]eceipt of the grants is
conditioned on certifying compliance with the federal
government’s interpretation of Section 1373.”). For
the reasons expressed in the prior Order, I find that all
the challenged conditions have been determined by the
Attorney General as requirements for grant funding and
constitute final agency action.
Courts presiding over the parallel cases agree. On
a motion to dismiss in City of Philadelphia, the court
found that the decision to impose the conditions was final since plaintiffs pleaded facts showing the conditions
were required for funding, and that compliance with
them would significantly alter their local policies. 309
F. Supp. 3d at 280. In City of Chicago, the court found
DOJ’s decision to impose the grant funding conditions
was a final agency action, not the factual determination
whether to award the funds (as DOJ argues again here).
2018 WL 3608564, at *4. Compliance with the conditions is required for grant funding based on the Byrne
JAG 2017 Solicitation. Id. The conditions forced Chicago to decide between accepting the award at the loss
of dictating its own local policy preferences or foregoing
the monetary award. Id.

86a
These are the same circumstances here. California
has shown that the decision to impose new conditions on
the Byrne JAG and COPS grants was final and will lead
to significant legal consequences depending on its decision to participate as well as to certify its compliance.
B.

Imposing the Challenged
Arbitrary and Capricious

Conditions

was

The APA requires courts to “hold unlawful and set
aside agency action, findings, and conclusions found to
be arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.” 5 U.S.C. § 706(2)(A).
Actions where there is a “rational connection between
the facts found and the choice made” to achieve these
goals are valid. Motor Vehicle Mfrs Ass’n v. State
Farm Mut. Auto Ins. Co, 463 U.S. 29, 43 (1983). Agency
action should be overturned when, among other things,
the agency: (i) relied on factors Congress did not intend for it to consider; (ii) failed to consider important
aspects of the problem it is addressing; or (iii) explained
its decision counter to the evidence before it. State
Farm, 463 U.S. at 43; see also Pac. Coast Fed’n of Fishermen’s Ass’n v. Nat’l Marine Fisheries Serv., 265 F.3d
1028, 1034 (9th Cir. 2001). California contends that the
administrative record establishes all those problems
and requires overturning the agency action.
Because California challenges grant conditions, the
usual administrative procedures that show an agency’s
justification for its action, such as formal rules, notice
and comment, or hearings, are not present here. See
5 U.S.C. § 553(a)(2). I did not have the complete administrative record at the time of the preliminary injunction, and in the prior Order I was not prepared to

87a
find the certification condition was arbitrary and capricious because “the change in policy might ‘be ascribed
to a difference in view.’ ” Order at 22 (CA Dkt. No. 89).
Now I am presented with the complete administrative record of 48 documents totaling 1037 pages. See
Administrative Record (CA Dkt. No. 96) (SF Dkt. No.
84). DOJ bases its agency action to impose the new
conditions on five documents in the record: (i) a 2007
OIG Audit Report, see id. AR-00001-00109; (ii) a 2016
OIG Memorandum, see id. AR-00366-00381; (iii) a Letter from Assistant Attorney General Kadzik to Rep.
Culberson, see id. AR-00382-00391; (iv) DOJ Press Release No. 17-826, see id. AR-00992; and (v) the Backgrounder on Grant Requirements, see id. AR-00993.
These are nearly the identical records it unsuccessfully
relied on in City of Philadelphia, 280 F. Supp. 3d at 619625, with the addition of the Letter to Rep. Culberson.
The records do not “articulate a satisfactory explanation
for [DOJ’s] action.” State Farm, 463 U.S. at 43.
First, citing the 2007 OIG Audit Report, DOJ claims
that the challenged conditions were arrived at understandably because they promote interests in “maintain[ing] liaison” between tiers of government in criminal justice matters. DOJ Mot. for Summ. J. at 21.
The thorough analysis by the court in City of Philadelphia explains why this argument misses the mark.
The 2007 OIG Audit Report concluded that it could not
“statistically extrapolate the number of offenses committed by undocumented criminal aliens who were released from local custody without a referral to ICE” and
that it “could not determine if ICE was notified before
the criminal aliens in our sample were released from
custody.” AR-00014. As a result, DOJ cannot look to

88a
this record to establish that it properly “examine[d] the
relevant data to reach a relevant basis for its decision
. . . because it failed to use the relevant data to form
an opinion at all.” City of Philadelphia, 309 F. Supp.
3d at 324 (internal quotations omitted) (identifying two
more reasons the 2007 OIG Report provided no support
as to the arbitrary and capriciousness of the challenged
conditions).
Second, a similar issue arises with the 2016 OIG
Memorandum. The Memorandum presents findings
on ten state and local jurisdictions, with the express purpose of updating DOJ on steps taken to address compliance with Section 1373. See AR-00367. From the outset, this record comes after “OJP notified SCAAP and
JAG applicants about the requirement to comply with
Section 1373.” AR-00374. It does not attempt to justify any of the new conditions, and instead it offers the
DOJ steps to consider in light of DOJ’s focus on “ensuring that grant applicants comply with Section 1373.”
Id. DOJ cannot rely on this document to establish a
“rational connection between the facts found and the
choice made” to impose the new conditions because the
choice to impose a certification condition was already
made and this record does not purport to offer any posthoc rationalization. State Farm, 463 U.S. at 43.
Nevertheless, the 2016 OIG Memorandum recommends that DOJ consider providing “clear guidance” on
whether Section 1373 is an applicable federal law, acknowledging that the record does not purport to provide
that guidance and clarifying that DOJ has not yet confirmed Section 1373’s applicability to the Byrne JAG
grant statute. See AR-00374 at n.13. DOJ cannot justify its certification condition on this record, which did

89a
not assess any of the reasons DOJ imposed the certification condition and which offered recommendations to
DOJ specifically in response to DOJ’s decision to notify
applicants of the certification condition. To attempt to
justify the condition on this record is an exercise in circular reasoning. See City of Philadelphia, 280 F. Supp.
3d at 624 (“The Attorney General cannot justify the Certification on a tautology; a report concluding that many
jurisdictions are not complying with Section 1373 does
not justify imposing a condition requiring those jurisdictions to certify compliance.”).
Third, in fiscal year 2016 the prior administration introduced the Section 1373 certification idea and recognized Section 1373 as an applicable federal law for the
Byrne JAG program. See Attachment to Letter from
Assistant Attorney General Kadzik to Rep. Culberson,
AR-00384. The attachment is a Memorandum from the
Assistant Attorney General for OJP to DOJ’s Inspector
General, discussing OJP’s determination that Section
1373 is an applicable federal law for purposes of the
Byrne JAG grant program. See id. This document
does not explain how or why the OJP reached its determination about Section 1373 either. At most it demonstrates another tautology where the DOJ is justifying its
conclusion to impose the conditions in this lawsuit based
on a separate document that also makes an unsupported
conclusion about the Section 1373 compliance condition.
Fourth, relying on the Backgrounder on Grant Requirements, DOJ contends that the challenged conditions had a “goal of increasing information sharing between federal, state, and local law enforcement . . .
to enforce the law and keep our communities safe.” See

90a
Backgrounder, AR-00993.
I addressed the Backgrounder thoroughly in my prior Order. See Order at
21 (finding that it was unclear that the certification condition had the requisite rational connection to the facts
in the Backgrounder). There is not a clear link, or at
least the government has not been able to provide one,
between localities keeping release dates or contact information confidential and more dangerous or less safe
communities.
Finally, DOJ relies on a 2017 press release by the Attorney General proclaiming that sanctuary city policies
“make all of us less safe because they intentionally undermine our laws and protect illegal aliens who have
committed crimes.” DOJ Press Release No. 17-826, AR00992. The Attorney General contends that “[t]hese
[sanctuary city] policies also encourage illegal immigration and even human trafficking by perpetuating the lie
that in certain cities, illegal aliens can live outside the
law.” Id. The press release expressly communicates
the DOJ’s “top priority of reducing violent crime” by encouraging jurisdictions to “change their policies and
partner with federal law enforcement to remove criminals.” Id. Much of the rhetoric discussed in this document tracks with the DOJ’s Backgrounder in the administrative record, such as the contentions that sanctuary city policies make communities less safe, encourage
illegal immigration, and allow crimes to be committed.
However, also like the Backgrounder, this press release
lacks any demonstrable linkage between allowing local
government to maintain immigration confidentiality and
less safe communities. As noted in City of Philadelphia, some claims in the press release are also “factually
untrue” with respect to California’s laws and policies.

91a
280 F. Supp. 3d at 624; see also DOJ Press Release No.
17-826, AR-00992 (claiming that sanctuary policies nationwide “perpetuat[e] the lie that in certain cities, illegal aliens can live outside the law,” and “protect illegal
aliens who have committed crimes.”).
It is worth emphasizing that the evidence before me
indicates the opposite of DOJ’s rhetoric. In contrast to
DOJ’s unsubstantiated view, California shows that imposing the challenged conditions may damage its law enforcement efforts. In support of its sanctuary policies,
the California Assembly Committee on Public Safety relied on a study finding lower likelihoods of contacting
law enforcement by Latinos (44 percent), undocumented
immigrants (70 percent), and U.S.-born Latinos (28 percent) who were victims of a crime, for fear of police inquiring into their immigration status. See CA RJN Ex.
4; see also Wong Decl. ¶¶ 35-38 (sharing similar results
in a separate study of San Diego undocumented Mexican
nationals).
This evidence is not isolated to California. A letter
from the Mayor of New Orleans to the Attorney General
explains the work their law enforcement does in coordination with federal officials and why the conditions and
rhetoric of the Executive Branch are hindering their
work to make communities safer. See AR-00487 (“Fear
within immigrant communities pushes individuals and
families, undocumented or not, into the shadows, and
makes the task of protecting everyone much more difficult for law enforcement.”). A second letter from the
City Solicitor of Philadelphia explains its view that trust
between law enforcement and residents, regardless of
immigration status, leads to safer communities. See
AR-00640 (“gain[ing] the trust and cooperation of . . .

92a
residents, crime victims and witnesses . . . regardless of their immigration status” makes the “community
stronger and . . . streets safer.”). The record also
includes a letter from Milwaukee County’s Corporation
Counsel to the Acting Assistant Attorney General, stating that its local policies make the community safer and
that the conditions will undermine those policies. See
AR-00722 (finding that its resolutions “make the community safer by fostering trust between residents and
local law enforcement.”).
Amici prosecutors and law enforcement leaders provide many other studies showing that interjecting federal immigration enforcement into local law enforcement
weakens trust, which is vitally important to communityoriented policing and reducing crime. See Amicus
Brief (CA Dkt. No. 130; SF Dkt. No. 136-1). Not only
do Latinos and undocumented immigrants become less
likely to contact law enforcement if they are victims or
witnesses of a crime, but 85 percent of immigrant families are mixed-status households, meaning that the fear
or lack of trust extends to United States citizens who
worry about the deportation of their family members or
close relatives. See id. (citing Anita Khashu, The Role
Of Local Police: Striking a Balance Between Immigration Enforcement and Civil Liberties, Police Found.
(Apr. 2009), available at https://www.policefoundation.
org/wp-content/uploads/2015/06/The-Role-of-LocalPoliceNarrative.pdf.).
According to a study of law enforcement officers,
two-thirds expressed views that immigrants were reporting less crimes. See id. (citing Robert C. Davis et
al., Access to Justice for Immigrants Who Are Victimized, 12 Crim. Just. Pol’y Rev. 183, 187 (2001)). These

93a
sentiments are corroborated by a national survey evidencing declines in immigrant communities that are
willing to cooperate with law enforcement. See id. (citing Nat’l Immigrant Women’s Advocacy Project Report,
at 99 (May 3, 2018), available at http://library.niwap.
org/wp-content/uploads/Immigrant-Access-to-JusticeNational-Report.pdf.).
The evident consequence of a widespread fear of deportation within Latino communities is an underreporting of violent crimes such as domestic violence and gangrelated violence. See id. (citing Michael Morris & Lauren Renee Sepulveda, A New ICE Age, Texas Dist. &
Cty. Attorneys Ass’n, The Texas Prosecutor, Vol. 47,
No. 4 (July/Aug. 2017) (finding rape reporting by the
Hispanic community in Houston fell 40 percent from
2016 to 2017 despite overall increase in crime reporting
city wide); James Queally, Fearing Deportation, Many
Domestic Violence Victims Are Steering Clear of Police
and Courts, L.A. Times, Oct. 9, 2017, http://www.latimes.
com/local/lanow/la-me-lnundocumented-crime-reporting20171009-story.html. (finding similar declines in sexual
assault and domestic violence reporting by the Hispanic
community, but not other ethnic groups, in San Diego,
Los Angeles, and San Francisco)). In another study
focused on Latinas, those surveyed were increasingly
unlikely to report violent crimes because of a fear of deportation and a lack of trust in the police. See id. (citing Jill Theresa Messing et al., Latinas’ Perceptions of
Law Enforcement: fear of Deportation, Crime Reporting, and Trust in the System, 30 J. Women & Soc. Work
328, 334 (2015)).
DOJ fails to explain adequately the reasons it imposed the challenged conditions. Its own justifications

94a
cannot “be ascribed to a difference in view or the product of agency expertise;” the record demonstrates the
lack of evidence supporting its position, that it failed to
consider important problems with its conditions and has
repeatedly offered explanations that are counter to the
evidence. State Farm, 463 U.S. at 43. The challenged
conditions are arbitrary and capricious under the APA.
IV. DECLARATORY RELIEF

California and San Francisco seek a declaratory
judgment that their respective laws comply with Section
1373 so that they can complete the certification condition. On its cross motion for summary judgment, DOJ
argues that the requests for declaratory relief are nonjusticiable under principles of standing and ripeness.
Further it asks for judgment denying declaratory relief
for California’s Values Act and San Francisco’s Administrative Code Chapters 12H and 12I.
When a party requests declaratory judgment, “the
question in each case is whether the facts alleged, under
all the circumstances, show that there is a substantial
controversy, between parties having adverse legal interests, of sufficient immediacy and reality to warrant the
issuance of a declaratory judgment.” Maryland Cas.
Co. v. Pac. Coal & Oil Co., 312 U.S. 270, 273 (1941). A
court can issue declaratory judgment “[i]n a case of
actual controversy within its jurisdiction.” 28 U.S.C.
§ 2201(a). I find that the claims are ripe for review and
issue declaratory relief consistent with the forthcoming
discussion.
A.

Justiciability

DOJ argues that San Francisco and California’s claims
are not justiciable. It contends that California does not

95a
have the injury-in-fact needed to establish standing and
its claims are not ripe. This is substantially the same
argument it made against California’s preliminary injunction motion (pertaining to Section 1373), which I rejected in a prior Order. See Order (CA Dkt. No. 89).
It makes a ripeness argument against San Francisco,
though I also found standing and ripeness previously.
See Order Denying Motion to Dismiss at 2 (SF Dkt. No.
78). The analysis in those Orders applies with equal
force today and extends to all the challenged conditions.
California and San Francisco have demonstrated Article III standing to challenge the conditions and their
claims are ripe for review. Rather than restate the
reasoning here, I refer to the discussions of justiciability
in my prior Orders. See Order at 11-19 (CA Dkt. No.
89) (finding “the State has demonstrated Article III
standing” and “its claims are ripe for review.”); Order at
2 (SF Dkt. No. 78) (discussing the same finding for San
Francisco); see also Cnty. of Santa Clara, 275 F. Supp.
3d. at 1207-11 (discussing justiciability in the context of
the previous Executive Order imposing a Section 1373
certification condition).
B.

Interpreting Section 1373

Assuming for the moment that Section 1373 is not unconstitutional on its face, I need to consider what it requires. DOJ asserts that Section 1373, at a minimum, includes contact information and release status information for any detained immigrants. See DOJ Mot. for
Summ. J. at 29; see also Sherman Decl. Ex. B (Defs. Interog. Resps. 6, 17). San Francisco and California contend that Section 1373 only extends to citizenship and
immigration status inquiries. See SF Mot. for Summ.
J. 22-24; CA Mot. for Summ. J. at 25-27. This familiar

96a
disagreement about Section 1373 has already been analyzed and resolved by three district courts.
In Steinle v. City & Cnty. of San Francisco, the Hon.
Joseph C. Spero found that Section 1373 was void of anything addressing inmate release dates because by its
terms it only governed citizenship or immigration status
information. 230 F. Supp. 3d 994, 1015 (N.D. Cal. 2017)
(“no plausible reading of [Section 1373] . . . encompasses the release date of an undocumented inmate.”).
The court found no need to interpret legislative history
because a plain reading of the statute is so clear. Following Steinle, in City of Philadelphia the court concluded that Section 1373 “does not require advance notice of an individual’s release from custody.” City of
Philadelphia, 309 F. Supp. 3d at 332. The court offered two additional interpretations of Section 1373’s
text as well. The language “citizenship or immigration
status” was limited to an individual’s class of presence
in the United States, such as undocumented, refugee, or
United States citizen. Id. at 333. Further, the language
“information regarding” was also limited only to information relevant to the “citizenship or immigration status” inquiry, of which release dates was not a part. Id.
Finally, in United States v. California, DOJ’s affirmative litigation to invalidate California’s sanctuary state
laws like the Values Act, DOJ argued that prohibiting
release dates and addresses for detainees violated Section 1373. United States v. California, 314 F. Supp. 3d
at 1101. But the court found “no direct conflict between SB 54 [the Values Act] and Section 1373.” Id.
Section 1373 was limited to information strictly related
to immigration status and did not include information on
release dates and addresses. Id. at 1102.

97a
I have also discussed Section 1373 in my prior Order
on California’s preliminary injunction motion. See Order (CA Dkt. No. 89). I found that the meaning of the
phrase “regarding immigration status” was ambiguous;
DOJ offered no definition of the phrase. As I wrote
then, “Under the INA, almost every bit of information
about an individual could be relevant to status, particularly with respect to the right to asylum or as a defense
to removal.” Id. I cannot read the phrase “regarding
immigration status” as broadly as the DOJ requests
without inviting the same concern for ambiguity I identified before. “A contrary interpretation would know
no bounds.” United States v. California, 314 F. Supp.
3d at 1102.
San Francisco and California are also correct that if
Congress intended to give Section 1373 broad enforcement application, it could have used broader language.
See Curtis v. United States, 511 U.S. 485, 492 (1994)
(finding Congress “knew how to do so” if it intended to
draft a statute broadly); see also United States v. California, 314 F. Supp. 3d at 1103 (“If Congress intended
the statute to sweep so broadly, it could have used
broader language or included a list to define the statute’s scope.”). For example, 8 U.S.C. § 1367(a)(2) was
enacted within the same bill as Section 1373 and prohibits immigration officials from disclosing “any information which relates to an alien.” In other provisions
of the INA, Congress used language such as “information regarding the name and address of the alien,”
8 U.S.C. § 1360(c)(2), information “about the alien’s nationality, circumstances, habits, associations, and activities,” id. § 1231(a)(3)(C), “any information . . . regarding the purposes and intentions of the applicant,”

98a
id. § 1225(a)(5), and “information concerning the alien’s
whereabouts and activities,” id. § 1184(k)(3)(A).
Accordingly, I agree with the other district courts
that found Section 1373 would support only a narrow interpretation that extends to “information strictly pertaining to immigration status (i.e. what one’s immigration status is).” United States v. California, 314 F. Supp.
3d at 1102.
C.

California’s Sanctuary State Laws Comply with
Section 1373

California asserts that its laws comply with Section
1373 as this court narrowly interprets the statute. It
seeks declaratory judgment with respect to its TRUST
Act, TRUTH Act, Values Act, California Penal Code
Sections 422.93, 679.10, and 679.11, California Code of
Civil Procedure Section 155, and California Welfare and
Institutions Code Sections 827 and 831. The DOJ only
requests judgment for defendants on the Values Act, effectively conceding that the other state laws would comply with Section 1373. 6 Based on the DOJ’s concession,
the only question remaining is whether the Values Act
complies with Section 1373.

The DOJ discusses in a footnote that the other state laws that
California seeks declaratory judgment for may not be implicated by
Section 1373 but may still give rise to different conflicts with analogous provisions elsewhere in the INA. See DOJ Mot. for Summ. J
at 28 n.19 (“The complexity of such an assessment is yet another reason not to evaluate these statutes where OJP has made no inquiry
or allegation that they violate Section 1373.”).
6

99a
California relies on its interpretation that the Values
Act’s savings clause in subsection (e) expressly authorizes compliance with Section 1373. See Cal. Gov. Code
§ 7284.6(e). The savings clause states:
(e) This section does not prohibit or restrict any
government entity or official from sending to, or receiving from, federal immigration authorities, information regarding the citizenship or immigration
status, lawful or unlawful, of an individual, or from
requesting from federal immigration authorities immigration status information, lawful or unlawful, of
any individual, or maintaining or exchanging that information with any other federal, state, or local government entity, pursuant to Sections 1373 and 1644
of Title 8 of the United States Code.
Cal. Gov. Code § 7284.6 (emphasis added).
Given my interpretation of Section 1373, limiting it to
information relevant to citizenship or immigration status not including release date information, it is clear the
Values Act complies with Section 1373. Its savings
clause expressly does not prohibit the state government
from communicating or sharing “information regarding
the citizenship or immigration status, lawful or unlawful,
of an individual,” exactly what Section 1373 requires.
Compare Cal. Gov. Code § 7284.6(e), with 8 U.S.C.
§ 1373 (stating state and local governments “may not
prohibit, or in any way restrict, any government entity
or official from sending to, or receiving from, the [INS]
information regarding the citizenship or immigration
status, lawful or unlawful, of any individual.”).

100a
D.

San Francisco’s Sanctuary City Ordinances
Comply with Section 1373

San Francisco also requests a declaratory judgment
that its sanctuary city laws, Chapters 12H and 12I, comply with Section 1373. DOJ disputes declaratory relief
because it asserts the San Francisco laws prohibit providing contact information and the release status of detainees. Because I do not interpret Section 1373 broadly
to require state and local governments to share contact
information and release status information with federal
immigration officials, I find that San Francisco’s sanctuary city laws comply with the federal statute.
Chapter 12H prohibits San Francisco employees from
“disseminat[ing] information regarding release status of
any individual or any other such personal information”
and allows them to communicate that information if required to by federal law. SF Admin. Code § 12H.2.
The term “personal information” is defined expressly in
Chapter 12I as “any confidential, identifying information
about an individual, including, but not limited to, home
or work contact information, and family or emergency
contact information.” See SF RJN Ex. A. San Francisco’s Board of Supervisors also amended this chapter
in 2016, changing restrictions on communicating “immigration status” to “release status.” See SF RJN Ex. G.
Chapter 12I prohibits responding to detainer requests
from federal immigration officials and allows employees
to notify federal officials of inmate release status in certain limited circumstances. SF Admin. Code § 12I.3.
There is no dispute that Chapters 12H and 12I prohibit sharing contact information and release dates with
ICE, but that is not a requirement of Section 1373.

101a
Still, the DOJ interprets Chapter 12H as violating Section 1373 even under the court’s interpretation, based on
its language prohibiting employees from “assist[ing] in
the enforcement of Federal immigration law.” SF Admin. Code § 12H.2. In reply, San Francisco contends
that this general prohibition should not control where
elsewhere in the chapter there is specific language that
only prohibits employees from sharing release status information and personal information. I agree and do
not read Chapters 12H and 12I so broadly where a narrower reading harmonizes the sanctuary city laws with
Section 1373.
Neither Chapter 12H or 12I concerns communications about information on an individual’s immigration
and citizenship status. San Francisco’s six departments
that received Byrne JAG funds: the Department of Children Youth & Their Families, Adult Probation, Sheriff ’s
Department, Police Department, District Attorney’s Office, and Public Defender’s Office, either administer policies that are consistent with San Francisco’s Sanctuary
City laws or do not have policies that involve Chapters
12H and 12I. Cf. Fletcher Decl. ¶¶ 6-7; Hennessy Decl.
¶¶ 11, 17-18; Sainez Decl. ¶¶ 9-11 (outlining policies consistent with San Francisco’s sanctuary city laws), with
Chyi Decl. ¶ 27; DeBerry Decl. ¶ 5; Adachi Decl. ¶ 5 (describing the lack of policies related to Chapters 12H and
12I). Additionally, these departments have notified
their employees that federal laws requiring informationsharing, such as Section 1373, should be followed. See
SF RJN Ex. D; see also Fletcher Decl. ¶ 8; Hennessy
Decl. ¶ 10; Sainez Decl. ¶ 8; Chyi Decl. ¶ 29; DeBerry
Decl. ¶ 7; Adachi Decl. ¶ 7.

102a
DOJ discusses several San Francisco documents that
it believes communicate policies instructing employees
to prohibit immigration status information-sharing.
See DOJ Mot. for Summ. J. at 33-34. It also believes
the City Attorney’s Office’s written public guidance on
interacting with ICE agents give employees the impression that they should refuse to speak with federal immigration officials because it lists what employees “are not
required” to do for ICE agents and italicizes negatives
like the word “not.” I do not agree that the format of
the documents is significant or dispositive of compliance
with Section 1373. What is required, and what is apparent in the documents, is that they do not prohibit
information-sharing of an individual’s immigration status. San Francisco’s sanctuary city laws, Chapters
12H and 12I, comply with Section 1373.
V.

INJUNCTIVE RELIEF

According to well-established principles of equity, a
permanent injunction is appropriate when: (i) a plaintiff “suffered an irreparable injury;” (ii) available remedies at law are “inadequate;” (iii) the “balance of hardships” between the parties supports an equitable remedy; and (iv) public interest is “not disserved.” eBay
Inc. v. MercExchange, LLC, 547 U.S. 388, 391 (2006).
For all the reasons discussed above, San Francisco and
California are entitled to a permanent injunction.
They have demonstrated that the challenged conditions
caused and will continue to cause them constitutional injury because imposing those conditions violates the separation of powers. As in City & Cty. of San Francisco v.
Trump, DOJ “has not even attempted to argue that the
injunction causes it any burden at all” and in light of the
loss of Byrne JAG funding the balance of hardships tips

103a
in favor of enjoining the enforcement of the challenged
conditions against California and San Francisco. 897
F.3d at 1244. Finally, I renew my earlier observation
that “the public interest would appear to be better
served if the [plaintiffs] did not have to choose between
the Byrne JAG Program grant funds to assist [their]
criminal law enforcement efforts and the health of [their]
relationship with the immigrant community.” See Order at 27. The public interest is not disserved here because an injunction “brings clarity to all parties and to
citizens dependent on public services.” City & Cty. of
San Francisco, 897 F.3d at 1244.
The remaining question is one of scope. See Hills v.
Gautreaux, 425 U.S. 284, 293-94 (1976) (“Once a constitutional violation is found, a federal court is required to
tailor the scope of the remedy to fit the nature and extent of the constitutional violation.”). After a careful
review of the record, I conclude that a nationwide injunction is the appropriate remedy in this case. That
said, I will stay the effect of the nationwide scope of the
injunction until the Ninth Circuit has the opportunity to
review it on appeal.
A district court, pursuant to its powers in equity,
“may command persons properly before it to cease or
perform acts outside its territorial jurisdiction.” Steele
v. Bulova Watch Co., 344 U.S. 280, 289 (1952); see also
United States v. Oregon, 657 F.2d 1009, 1016 n.17 (9th
Cir. 1981) (“When a district court has jurisdiction over
all parties involved, it may enjoin commission of acts
outside of its district.”). Yet “injunctive relief should
be no more burdensome to the defendant than necessary
to provide complete relief to the plaintiffs.” Califano

104a
v. Yamasaki, 442 U.S. 682, 702 (1979). When considering the scope of injunctive relief, the court “must be
mindful of any effect its decision might have outside its
jurisdiction,” and “should not award injunctive relief
that would cause substantial interference with another
court’s sovereignty.” United States v. AMC Entm’t,
Inc., 549 F.3d 760, 770 (9th Cir. 2008) (citing Steele, 344
U.S. at 289).
In City & Cty. of San Francisco, the Ninth Circuit
discussed recent cases upholding nationwide injunctions
when “necessary to give Plaintiffs a full expression of
their rights.” 897 F.3d at 1244 (collecting cases). Nationwide injunctions are exceptional but are “not necessarily made over-broad by extending benefit or protection to persons other than prevailing parties in the
lawsuit—even if it is not a class action—if such breadth
is necessary to give prevailing parties the relief to which
they are entitled.” Bresgal v. Brock, 843 F.2d 1163,
1170-71 (9th Cir. 1987).
The Ninth Circuit has offered recent guidance on the
breadth of evidence and inquiry needed to justify nationwide injunctive relief in the context of the Trump
Administration’s Executive Order attempting to place
similar conditions on grant funding. See City & Cty. of
San Francisco, 897 F.3d at 1245 (vacating nationwide
injunctive relief when “the record is insufficiently developed as to the question of the national scope of the
injunction” and lacks “a more searching inquiry into
whether this case justifies the breadth of the injunction
imposed.”). Granting a nationwide injunction requires
me to undertake “careful consideration” of a factual record evidencing “nationwide impact,” or in other words,
“specific findings underlying the nationwide application

105a
of the injunction.” Id. at 1231, 1244. 7 The Ninth Circuit cited City of Chicago, 888 F.3d at 292-93, for a point
of comparison where the Seventh Circuit affirmed a nationwide injunction in part because the statute “interconnects” all recipients of Byrne JAG grants. Id. at
1244. The Seventh Circuit’s decision has now been vacated, but the district court’s ruling remains.
California offers three reasons why a nationwide injunction is needed here: (i) it protects California’s interest in its Byrne JAG funding because there is a limited annual fund; (ii) it is the most equitable response to
Section 1373’s unconstitutionality; and (iii) it addresses
constitutional deficiencies not geographically limited to
California. San Francisco reiterates that nationwide
injunctive relief is appropriate when a federal law is invalid, adding that the new conditions for Byrne JAG

At the hearing, California also argued that Ninth Circuit precedent compels a nationwide injunction when there is a violation of
the APA, as here, because the agency action is necessarily set
aside. See Transcript at 27 (citing Earth Island Inst. v. Ruthenbeck, 490 F.3d 687, 699 (9th Cir. 2007), (rev’d in part on other
grounds), (“The nationwide injunction . . . is compelled by the
text of the Administrative Procedure Act . . . ”). This line
of reasoning was followed in City of Los Angeles v. Sessions, 293
F. Supp. 3d 1087, 1101 (C.D. Cal. 2018), and the permanent injunction is currently on appeal in the Ninth Circuit. Yet even Earth
Island Inst. recognized that a nationwide injunction is discretionary relief that the Ninth Circuit reviews under an abuse of discretion. See 490 F.3d at 699. Here, I follow the Ninth Circuit’s guidance in City & Cty. of San Francisco, 897 F.3d at 1245, which more
thoroughly addressed how district court’s exercise discretion and
dealt specifically with conditions placed on the Byrne JAG grant
program.
7

106a
funding do not vary in their application or the legal issues presented for the hundreds of jurisdictions that
also apply for the grants.
As in City of Chicago, I find that this case presents a
narrow issue of law that does not vary from one jurisdiction to the next. 888 F.3d at 290-91. The court there
explained how grant recipients were interconnected because “[t]he conditions imposed on one can impact the
amounts received by others.” Id. at 292. It continued
to specify that the funding the Attorney General allocates under the Byrne JAG program is directly affected
by the money distributed to other applicants, because
the amount withheld or penalized for non-compliance
with other Congressional statutory requirements is then
reallocated to other recipients.
See id. (citing 34
U.S.C. § 10156(f ) (“If the Attorney General determines
. . . that a State will be unable to qualify or receive
funds . . . then such State’s allocation (or portion
thereof ) shall be awarded by the Attorney General to
units of local government, or combinations thereof,
within such State . . . ”); § 20927 (“Amounts not allocated under a program referred to in this section to a
jurisdiction for failure to substantially implement this
subchapter shall be reallocated . . . ”); § 30307(e)
(“any amount that a State would otherwise receive for
prison purposes . . . shall be reduced by 5 percent,
unless the chief executive officer of the State submits to
the Attorney General proof of compliance with this
chapter.”)). The structure of the grant program supports nationwide relief.
California contends that it will be unable to fund critical public safety programs if the federal government
continues to cut it off from funding it is allocated by the

107a
Byrne JAG program. See Jolls Decl. ¶ 19 (“a substantial number of local programs funded by the BSCC are
funded entirely or in large part by JAG” and California
will not be able to continue funding them); Caligiuri
Decl. ¶¶ 23, 31, 32 (explaining the amount of CAMPgrant
funding at issue and what programs it funds); McDonnell Decl. ¶¶ 8-9, 15 (discussing the programs the Byrne
JAG program helps fund and the impact that lack of
funding will have on them) (CA Dkt. No. 31). DOJ has
withheld $56.6 million nationwide and issued $197.3 million in Byrne JAG funding that California was excluded
from after the Seventh Circuit partially stayed its injunctive relief. See CA RJN Exs. 27, 28. California’s
funding also affects San Francisco’s sub-grant funding.
See 34 U.S.C. § 10156(c)(2) (allocating a portion of state
funding to local governments); see also City of Chicago,
888 F.3d at 292 (finding it noteworthy that “the City is
obligated to apply for Byrne JAG funds not only for itself but for eleven neighboring localities.”).
San Francisco offers five declarations from municipal
jurisdictions across the country, similarly demonstrating the far-reaching impact that the Byrne JAG conditions and distributions have on all types grant recipients
across the geographical spectrum. See Jerzyk Decl.
¶ 9 (SF Dkt. No. 123) (stating Central Falls, Rhode Island is presented with a Hobson’s Choice of declining
funding to protect its citizens or agreeing to the conditions at the expense of its longstanding policies); Pittman Decl. ¶¶ 8, 10 (SF Dkt. No. 126) (stating the same
Hobson’s Choice for Seattle and the King County,
Washington consortium of cities); Maesta Decl. ¶ 17 (SF
Dkt. No. 127) (stating the same Hobson’s Choice for
Denver, Colorado); Hansen Decl. ¶ 5 (SF Dkt. No. 124)

108a
(stating a nationwide injunction would make it possible
for Montgomery County, Maryland to accept Byrne
JAG funding); Wright Decl. ¶ 8 (SF Dkt. No. 125) (stating that filing a lawsuit for Somerville, Massachusetts is
not feasible since the litigation costs outweigh the
amount of funding it would receive).
DOJ counters that nationwide injunctive relief is
overbroad. It contends that a nationwide injunction
would violate Article III standing. See Gill v. Whitford, 138 S. Ct. 1916, 1930 (2018) (rejecting standing for
a statewide gerrymandering challenge because a plaintiff ’s remedy must be limited to his injury); see also
Zepeda v. U.S. Immigration & Naturalization Serv.,
753 F.2d 719, 729 n.1 (9th Cir. 1983) (finding that class
action plaintiffs were not entitled to relief for those they
did not represent outside of class certification). It also
invokes the principle that injunctive relief should be limited only to the relief needed for the plaintiffs before the
court. See Los Angeles Haven Hosp. v. Sebelius, 638
F.3d 644, 664 (9th Cir. 2011) (“injunctive relief should be
no more burdensome to the defendant than necessary to
provide complete relief to the plaintiffs before the court.”).
During the hearing, it argued that nationwide injunctive
relief should be limited to class actions.
I am not persuaded that DOJ’s Article III standing
argument should prevent a nationwide injunction if it is
evidently needed to provide complete relief from a facially unconstitutionally and uniformly applied law.
Like the Ninth Circuit, I disagree with DOJ’s wholesale
arguments against nationwide injunctions; the scope of
nationwide injunctive relief is not limited to class actions. See, e.g., Bresgal, 843 F.2d at 1170-71 (determining over-breadth by the relief the parties are entitled to,

109a
not by the threshold issue of whether there is a certified
class action).
DOJ expressed additional concern that nationwide
injunctions prevent “legal questions from percolating
through the federal courts, encouraging forum shopping, and making every case a national emergency for
the courts and for the Executive Branch.” Trump v.
Hawaii, 138 S. Ct. 2392, 2425 (2018) (Thomas, J., concurring). I share that concern. Indeed, the issues in
this case are the same issues before the Third and Seventh Circuits. See DOJ. Mot. for Summ. J. at 40 (noting that granting a nationwide injunction would authorize relief that the en banc Seventh Circuit might itself
reject). DOJ called nationwide injunctions a “one-wayratchet” that allows plaintiffs to have relief on behalf of
all others, while the government cannot preclude all
plaintiffs’ claims. City of Chicago, 888 F.3d at 298 (Manion, J., dissenting in part). That is also a fair point.
Amici assert, on the other hand, that because there is
a narrow constitutional issue in dispute with little variance in the DOJ’s arguments and defenses, this does not
appear to be the type of situation in which allowing more
cases to percolate in federal courts would be of much
benefit. See Amicus Brief at 11 (SF Dkt. No. 137-1).
In addition, a nationwide injunction would not implicate
some of the other concerns raised in the DOJ’s briefing.
In L.A. Haven Hospice, Inc., the Ninth Circuit held that
“a nationwide injunction would not be in the public interest because it would significantly disrupt the administration of the Medicare program . . . and would
create great uncertainty.” 638 F.3d at 665. A nationwide injunction would not disrupt the administration of
the Byrne JAG program, a formula grant program that

110a
does not independently give the Attorney General authority to impose additional conditions not conferred by
Congress. Public interest would be served, as I stated
earlier, because an injunction would bring “clarity to all
parties and to citizens dependent on public services.”
City & Cty. of San Francisco, 897 F.3d at 1244. Without a nationwide injunction when the court finds a constitutional violation, there is even greater likelihood that
relief limited to the parties “would not cure the constitutional deficiency, which would endure in all [its] applications.”
See Int’l Refugee Assistance Project v.
Trump, 857 F.3d 554, 605 (4th Cir. 2017).
California and San Francisco have shown that Section 1373 is unconstitutional and that the challenged
conditions violate the separation of powers. In consideration of the factual record, including the structure of
the Byrne JAG program and the harm to jurisdictions
across the country, I find that this case justifies nationwide relief under City & Cty. of San Francisco, 897 F.3d
at 1231. That said, this Order alternatively relies on
my narrow interpretation of Section 1373 as it applies to
California’s and San Francisco’s “sanctuary” laws and
practices. If the Ninth Circuit agreed with those alternative findings, but disagrees about the constitutionality of Section 1373, a nationwide injunction would be inappropriate because the laws and practices of each
“sanctuary” jurisdiction differ. Accordingly, I grant
the injunction in favor of California and San Francisco
and stay its nationwide scope until the Ninth Circuit has
the opportunity to consider it on appeal.
VI. MANDAMUS RELIEF

California also seeks a writ of mandamus compelling
the Attorney General to disburse Byrne JAG and COPS

111a
grant funding because the challenged conditions are unlawful under the APA. The APA authorizes the court
to “compel agency action unlawfully withheld or unreasonably delayed.” 5 U.S.C. § 706(1). The Ninth Circuit evaluates mandamus under the so-called TRAC factors. See Indep. Min. Co. v. Babbitt, 105 F.3d 502, 507
(9th Cir. 1997) (citing Telecommc’ns. Research & Action
v. FCC (TRAC), 750 F.2d 70, 79-80 (9th Cir. 1984)).
(1) the time agencies take to make decisions must be
governed by a rule of reason; (2) where Congress has
provided a timetable or other indication of the speed
with which it expects the agency to proceed in the enabling statute, that statutory scheme may supply
content for this rule of reason; (3) delays that might
be reasonable in the sphere of economic regulation
are less tolerable when human health and welfare are
at stake; (4) the court should consider the effect of
expediting delayed action on agency activities of a
higher or competing priority; (5) the court should
also take into account the nature and extent of the
interests prejudiced by delay; and (6) the court need
not find any impropriety lurking behind agency lassitude in order to hold that agency action is unreasonably delayed.
750 F.2d at 80 (citations and internal quotation marks
omitted). The first factor, the “rule of reason,” is the
most important but is not determinative. See In re
Core Commc’ns, Inc., 531 F.3d 849, 855 (D.C. Cir. 2008).
The court is still required to consider all factors. See
In re A Cmty. Voice, 878 F.3d 779, 786 (9th Cir. 2017).
Each factor supports mandamus relief for the Byrne
JAG grant and COPS grant funding. For the first two

112a
factors, delays beyond a year time frame preclude recipients from receiving their awards when they need them
to support more immediate projects or programs. See
City of Philadelphia, 309 F. Supp. 3d at 343 (“it bears
emphasis that Congress specifically set the JAG Program as an annual award, and the DOJ’s delay has precluded the City from receiving the intended award at
such time as the City can make timely use of it.”). The
Byrne JAG program is a formula grant that requires the
Attorney General to disburse funds annually, and the
COPS grant is a competitive program California applies
for and has traditionally received each year.
Factor three favors relief because the delay impacts
human health and welfare, particularly for California as
the COPS and Byrne JAG funds aid task forces aimed
at stopping illicit drug trafficking and go towards funding court programs to reduce recidivism of at-risk
youth. See Jolls. Decl. ¶ 10; Caligiuri Decl. ¶¶ 23-25.
Similarly, factor five supports relief because the human
welfare and community safety concerns that California’s
grant funding addresses are at risk of being discontinued for lack of funding and are prejudiced by this delay.
Expediting this matter, as discussed in factor four,
would not prejudicially affect the federal government’s
tangentially related interest in federal immigration enforcement. Finally, the sixth factor, if it has any weight
at all here, would favor relief because DOJ is withholding grant funding based on conditions that violate the
separation of powers. I will GRANT California’s request for mandamus relief.
CONCLUSION

For the reasons stated, California and San Francisco’s motions for summary judgment are GRANTED

113a
and the DOJ’s motions for summary judgment are DENIED. 8 Judgment will be entered accordingly.
IT IS SO ORDERED.

Dated:

Oct. 5, 2018
/s/

WILLIAM H. ORRICK
WILLIAM H. ORRICK
United States District Judge

The parties requested judicial notice of various public records
and government documents in support of their motions for summary
judgment, with no opposition or dispute to their accuracy or authenticity. To the extent I rely on those documents, the requests are
GRANTED. See CA Dkt. Nos. 117, 125, 128; SF Dkt. Nos. 107, 115.
All other requests for judicial notice are DENIED AS MOOT.
8

114a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 17-cv-04642-WHO
CITY AND COUNTY OF SAN FRANCISCO,
PLAINTIFF

v.
JEFFERSON BEAUREGARD SESSIONS, ET AL.,
DEFENDANTS

Filed:

Oct. 5, 2018

JUDGMENT AND ORDER

On October 5, 2018, I granted plaintiff ’s motion for
summary judgment and denied defendants’ motion for
summary judgment. Pursuant to Federal Rule of Civil
Procedure 58, I hereby ENTER judgment in favor of
plaintiff and against defendants, and grant the following
relief as set forth below.
DECLARATION

I find declaratory relief under 28 U.S.C. § 2201 is appropriate in this case. It is hereby DECLARED that:
1.

The 8 U.S.C. § 1373 certification condition and
the access and notice conditions for Byrne JAG
grant funding are unconstitutional because they:
(i) exceed the congressional authority conferred
to the Executive Branch; and (ii) they exceed the

115a
Congress’s spending powers under Article I of
the Constitution to the extent Congress conferred authority to the Attorney General.
2.

San Francisco’s Chapters 12H and 12I of the San
Francisco Administrative Code comply with
8 U.S.C. § 1373.

3.

San Francisco does not have in place a prohibition or restriction that applies to any program or
activity funded under the Byrne JAG program,
and which deals with sending to, receiving from,
or requesting immigration status information
with the federal government, or maintaining such
information.
PERMANENT INJUNCTION

I also find a permanent injunction is appropriate in this
case for the reasons stated in the October 5, 2018, Order
granting plaintiff ’s motion for summary judgment.
Pursuant to Federal Rule of Civil Procedure 65, it is now
ORDERED that defendants ARE HEREBY RESTRAINED AND ENJOINED from committing, performing, directly or indirectly, the following acts:
1.

Using the Section 1373 certification condition,
and the access and notice conditions (“Challenged Conditions”) as funding restrictions for
any Byrne JAG awards.

2.

Denying or clawing back San Francisco
Byrne JAG funding on the basis of alleged noncompliance with Section 1373.

116a
Consistent with my October 5, 2018 Order granting
plaintiff’s motion for summary judgment, it is now ORDERED that the nationwide aspect of the permanent
injunctive relief set forth above is STAYED until the
Ninth Circuit has the opportunity to consider it.
IT IS SO ORDERED.

Dated:

Oct. 5, 2018
/s/

WILLIAM H. ORRICK
WILLIAM H. ORRICK
United States District Judge

117a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 3:17-cv-04701-WHO
STATE OF CALIFORNIA, EX REL. XAVIER BECERRA,
ATTORNEY GENERAL OF THE STATE OF CALIFORNIA,
PLAINTIFF

v.
JEFFERSON B. SESSIONS III, ATTORNEY GENERAL OF
THE UNITED STATES, ET AL., DEFENDANTS
Filed:

Nov. 20, 2018

AMENDED JUDGMENT AND ORDER

On October 5, 2018, I granted plaintiff ’s motion for
summary judgment and denied defendants’ motion for
summary judgment, and I entered a corresponding Judgment and Order on the same date. Dkt. No. 138. Defendants have filed a motion to alter or amend that judgment in certain respects. Dkt. No. 139. Upon consideration of defendants’ motion and of all materials submitted in relation thereto, defendants’ motion to alter or
amend is hereby GRANTED. Pursuant to Federal
Rules of Civil Procedure 58, I hereby ENTER this
amended judgment in favor of plaintiff and against defendants, and grant the following relief as set forth below.

118a
DECLARATION

I find declaratory relief under 28 U.S.C. § 2201 is appropriate in this case. It is hereby DECLARED that:
1.

The 8 U.S.C. § 1373 certification condition, and
the access and notice conditions for Byrne JAG
grant funding are unconstitutional because they:
(i) exceed the congressional authority conferred
to the Executive Branch; (ii) they exceed the
Congress’s spending powers under Article I of
the Constitution to the extent Congress conferred authority to the Attorney General; and
(iii) they violate the Administrative Procedure
Act.

2.

The State’s TRUST, TRUTH, Values Act, and
Shield Confidentiality Statutes comply with
8 U.S.C. § 1373.

3.

8 U.S.C. § 1373 is unconstitutional on its face under the Tenth Amendment of the United States
Constitution.
PERMANENT INJUNCTION

I also find a permanent injunction is appropriate in
this case for the reasons stated in the October 4, 2018,
Order granting plaintiff ’s motion for summary judgment. Pursuant to Federal Rule of Civil Procedure 65,
it is now ORDERED that defendants ARE HEREBY
RESTRAINED AND ENJOINED from committing,
performing, directly or indirectly, the following acts:
1.

Using the Section 1373 certification condition,
and the access and notice conditions (“Challenged Conditions”) as requirements for Byrne

119a
JAG grant funding for any California state entity, any California political subdivision, or any
jurisdiction in the United States.
2.

Withholding, terminating, or clawing back JAG
funding from, or disbarring or making ineligible
for JAG, any California state entity, any California political subdivision, or any jurisdiction in
the United States on the basis of the Challenged
Conditions.

3.

Withholding, terminating, or clawing back JAG
or COPS funding from, or disbarring or making
ineligible for JAG or COPS, any California state
entity or any California political subdivision on
account of any grant condition challenged in this
lawsuit and based on the TRUST Act, Cal. Gov’t
Code §§ 7282-7282.5; the TRUTH Act, Cal. Gov’t
Code §§ 7283-7283.2; the California Values Act,
Cal. Gov’t Code §§ 7284-7284.12; California Penal Code §§ 422.93, 679.10, or 679.11; California
Code of Civil Procedure § 155; or California Welfare and Institutions Code §§ 827 or 831, or
based on policies implementing these statutes.

4.

Withholding, terminating, or clawing back JAG
or COPS funding from, or disbarring or making
ineligible for JAG or COPS, any California state
entity or any California political subdivision on
account of the entity or jurisdiction spending its
own money on the program or activity that JAG
or COPS would be funding during the period under which Defendants withheld awards or funding from that entity or jurisdiction.

120a
5.

Enforcing 8 U.S.C. § 1373’s statutory obligations
against any California state entity or political
subdivision.

6.

Requiring compliance with 8 U.S.C. § 1373 as a
grant condition against any California state entity or political subdivision based on 34 U.S.C.
§ 10102(a)(6) or 34 U.S.C. § 10153(A)(5)(D), on
the basis of 8 U.S.C. § 1373 being an “applicable
Federal law,” or on the basis of 8 U.S.C. § 1373’s
independent statutory obligations.

Consistent with my October 5, 2018 Order granting
plaintiff’s motion for summary judgment, it is now ORDERED that the nationwide aspect of the permanent
injunctive relief set forth above is STAYED until the
Ninth Circuit has the opportunity to consider it.
MANDATORY INJUNCTION

As set forth in my October 5, 2018 Order I found all
the necessary elements for issuing California mandamus relief are met. I hereby ORDER defendants to issue without further delay the fiscal year 2017 JAG awards,
without enforcement of the enjoined conditions, and
JAG funding, upon a jurisdiction’s acceptance of the
award, to the California Board of State and Community
Corrections, and all California political subdivisions that
applied for JAG. Acceptance of the FY 2017 awards by
the California Board of State and Community Corrections or any California political subdivision shall not be
construed as acceptance of the enjoined conditions.
After the jurisdiction or entity accepts the fiscal year
2017 award, defendants are further ORDERED to process and approve the jurisdiction’s requests for drawdowns of the jurisdiction’s fiscal year 2017 JAG funds as

121a
it would in the ordinary course, and without regard
to the enjoined conditions, compliance with 8 U.S.C.
§ 1373, or if the jurisdiction spent its own money on the
program or activity funded during the period under which
defendants withheld awards and funding.
Defendants are further ORDERED to permit without further delay, the California Bureau of Investigation
within the California Department of Justice to drawdown its fiscal year 2017 COPS grant award upon the
Bureau of Investigation’s acceptance of its fiscal year
2017 COPS grant. After the Bureau of Investigation
accepts its fiscal year 2017 COPS award, defendants are
further ORDERED to process and approve the Bureau
of Investigation’s requests for drawdowns of the fiscal
year 2017 COPS funds as it would in the ordinary course,
and without regard to the enjoined conditions, compliance with 8 U.S.C. § 1373, or if the Bureau of Investigation spent its own money on the program or activity
funded during the period under which defendants withheld funding.
IT IS SO ORDERED.

Dated:

Oct. 5, 2018
/s/

WILLIAM H. ORRICK
WILLIAM H. ORRICK
United States District Judge

122a
APPENDIX E

1.

8 U.S.C. 1373 provides:

Communication between government agencies and the
Immigration and Naturalization Service
(a)

In general

Notwithstanding any other provision of Federal,
State, or local law, a Federal, State, or local government
entity or official may not prohibit, or in any way restrict,
any government entity or official from sending to, or receiving from, the Immigration and Naturalization Service information regarding the citizenship or immigration status, lawful or unlawful, of any individual.
(b)

Additional authority of government entities

Notwithstanding any other provision of Federal, State,
or local law, no person or agency may prohibit, or in any
way restrict, a Federal, State, or local government entity
from doing any of the following with respect to information regarding the immigration status, lawful or unlawful, of any individual:
(1) Sending such information to, or requesting
or receiving such information from, the Immigration
and Naturalization Service.
(2)

Maintaining such information.

(3) Exchanging such information with any other
Federal, State, or local government entity.

123a
(c)

Obligation to respond to inquiries

The Immigration and Naturalization Service shall respond to an inquiry by a Federal, State, or local government agency, seeking to verify or ascertain the citizenship or immigration status of any individual within the
jurisdiction of the agency for any purpose authorized by
law, by providing the requested verification or status information.
2.

34 U.S.C. 10102 provides:

Duties and functions of Assistant Attorney General
(a)

Specific, general and delegated powers

The Assistant Attorney General shall—
(1) publish and disseminate information on the
conditions and progress of the criminal justice systems;
(2) maintain liaison with the executive and judicial branches of the Federal and State governments
in matters relating to criminal justice;
(3) provide information to the President, the Congress, the judiciary, State and local governments, and
the general public relating to criminal justice;
(4) maintain liaison with public and private educational and research institutions, State and local governments, and governments of other nations relating
to criminal justice;
(5) coordinate and provide staff support to coordinate the activities of the Office and the Bureau of
Justice Assistance, the National Institute of Justice,

124a
the Bureau of Justice Statistics, the Office for Victims of Crime, and the Office of Juvenile Justice and
Delinquency Prevention; and
(6) exercise such other powers and functions as
may be vested in the Assistant Attorney General pursuant to this chapter or by delegation of the Attorney
General, including placing special conditions on all
grants, and determining priority purposes for formula
grants.
(b)

Annual report to President and Congress

The Assistant Attorney General shall submit an annual report to the President and to the Congress not
later than March 31 of each year.
3.

34 U.S.C. 10109(a) provides:

Office of Audit, Assessment, and Management
(a)

Establishment
(1) In general

There is established within the Office an Office of
Audit, Assessment, and Management, headed by a Director appointed by the Attorney General. In carrying out the functions of the Office, the Director shall
be subject to the authority, direction, and control of
the Attorney General. Such authority, direction, and
control may be delegated only to the Assistant Attorney General, without redelegation.

125a
(2) Purpose

The purpose of the Office shall be to carry out and
coordinate program assessments of, take actions to
ensure compliance with the terms of, and manage information with respect to, grants under programs
covered by subsection (b). The Director shall take
special conditions of the grant into account and consult with the office that issued those conditions to ensure appropriate compliance.
(3) Exclusivity

The Office shall be the exclusive element of the
Department of Justice, other than the Inspector General, performing functions and activities for the purpose specified in paragraph (2). There are hereby
transferred to the Office all functions and activities,
other than functions and activities of the Inspector
General, for such purpose performed immediately
before January 5, 2006, by any other element of the
Department.
4.

34 U.S.C. 10152 provides:

Description
(a)

Grants authorized
(1) In general

From amounts made available to carry out this
part, the Attorney General may, in accordance with
the formula established under section 10156 of this
title, make grants to States and units of local government, for use by the State or unit of local government
to provide additional personnel, equipment, supplies,

126a
contractual support, training, technical assistance, and
information systems for criminal justice, including
for any one or more of the following programs:
(A)

Law enforcement programs.

(B)

Prosecution and court programs.

(C)

Prevention and education programs.

(D) Corrections and community corrections
programs.
(E) Drug treatment and enforcement programs.
(F) Planning, evaluation, and technology improvement programs.
(G) Crime victim and witness programs
(other than compensation).
(H) Mental health programs and related law
enforcement and corrections programs, including
behavioral programs and crisis intervention teams.
(2) Rule of construction

Paragraph (1) shall be construed to ensure that a
grant under that paragraph may be used for any purpose for which a grant was authorized to be used under either or both of the programs specified in section
10151(b) of this title, as those programs were in effect
immediately before January 5, 2006.
(b)

Contracts and subawards

A State or unit of local government may, in using a
grant under this part for purposes authorized by subsection (a), use all or a portion of that grant to contract
with or make one or more subawards to one or more—

127a
(1) neighborhood or community-based organizations that are private and nonprofit; or
(2)
(c)

units of local government.

Program assessment component; waiver

(1) Each program funded under this part shall contain a program assessment component, developed pursuant to guidelines established by the Attorney General,
in coordination with the National Institute of Justice.
(2) The Attorney General may waive the requirement of paragraph (1) with respect to a program if, in
the opinion of the Attorney General, the program is not
of sufficient size to justify a full program assessment.
(d)

Prohibited uses

Notwithstanding any other provision of this Act, no
funds provided under this part may be used, directly or
indirectly, to provide any of the following matters:
(1) Any security enhancements or any equipment to any nongovernmental entity that is not engaged in criminal justice or public safety.
(2) Unless the Attorney General certifies that
extraordinary and exigent circumstances exist that
make the use of such funds to provide such matters
essential to the maintenance of public safety and
good order—
(A) vehicles (excluding police cruisers), vessels (excluding police boats), or aircraft (excluding
police helicopters);
(B)

luxury items;

(C)

real estate;

128a
(D) construction projects (other than penal
or correctional institutions); or
(E)
(e)

any similar matters.

Administrative costs

Not more than 10 percent of a grant made under this
part may be used for costs incurred to administer such
grant.
(f )

Period

The period of a grant made under this part shall be
four years, except that renewals and extensions beyond
that period may be granted at the discretion of the Attorney General.
(g)

Rule of construction

Subparagraph (d)(1) shall not be construed to prohibit the use, directly or indirectly, of funds provided under this part to provide security at a public event, such
as a political convention or major sports event, so long
as such security is provided under applicable laws and
procedures.
5.

34 U.S.C. 10153(a) provides:

Applications
(A) 1 In general

To request a grant under this part, the chief executive officer of a State or unit of local government shall
submit an application to the Attorney General within
1

So in original.

Probably should be “(a)”.

129a
120 days after the date on which funds to carry out this
part are appropriated for a fiscal year, in such form as
the Attorney General may require. Such application
shall include the following:
(1) A certification that Federal funds made available under this part will not be used to supplant State
or local funds, but will be used to increase the amounts
of such funds that would, in the absence of Federal
funds, be made available for law enforcement activities.
(2) An assurance that, not fewer than 30 days before the application (or any amendment to the application) was submitted to the Attorney General, the
application (or amendment) was submitted for review
to the governing body of the State or unit of local government (or to an organization designated by that
governing body).
(3) An assurance that, before the application (or
any amendment to the application) was submitted to
the Attorney General—
(A) the application (or amendment) was made
public; and
(B) an opportunity to comment on the application (or amendment) was provided to citizens
and to neighborhood or community-based organizations, to the extent applicable law or established
procedure makes such an opportunity available.
(4) An assurance that, for each fiscal year covered by an application, the applicant shall maintain

130a
and report such data, records, and information (programmatic and financial) as the Attorney General
may reasonably require.
(5) A certification, made in a form acceptable to
the Attorney General and executed by the chief executive officer of the applicant (or by another officer of
the applicant, if qualified under regulations promulgated by the Attorney General), that—
(A) the programs to be funded by the grant
meet all the requirements of this part;
(B) all the information contained in the application is correct;
(C) there has been appropriate coordination
with affected agencies; and
(D) the applicant will comply with all provisions of this part and all other applicable Federal
laws.
(6) A comprehensive Statewide plan detailing
how grants received under this section will be used to
improve the administration of the criminal justice
system, which shall—
(A) be designed in consultation with local governments, and representatives of all segments of
the criminal justice system, including judges, prosecutors, law enforcement personnel, corrections
personnel, and providers of indigent defense services, victim services, juvenile justice delinquency
prevention programs, community corrections, and
reentry services;

131a
(B) include a description of how the State will
allocate funding within and among each of the uses
described in subparagraphs (A) through (G) of
section 10152(a)(1) of this title;
(C) describe the process used by the State
for gathering evidence-based data and developing
and using evidence-based and evidence-gathering
approaches in support of funding decisions;
(D) describe the barriers at the State and
local level for accessing data and implementing
evidence-based approaches to preventing and reducing crime and recidivism; and
(E) be updated every 5 years, with annual
progress reports that—
(i) address changing circumstances in the
State, if any;
(ii) describe how the State plans to adjust
funding within and among each of the uses described in subparagraphs (A) through (G) of
section 10152(a)(1) of this title;
(iii) provide an ongoing assessment of need;
(iv) discuss the accomplishment of goals
identified in any plan previously prepared under this paragraph; and
(v) reflect how the plan influenced funding
decisions in the previous year.

132a
6.

34 U.S.C. 10154 provides:

Review of applications

The Attorney General shall not finally disapprove
any application (or any amendment to that application)
submitted under this part without first affording the applicant reasonable notice of any deficiencies in the application and opportunity for correction and reconsideration.
7.

34 U.S.C. 10155 provides:

Rules

The Attorney General shall issue rules to carry out
this part. The first such rules shall be issued not later
than one year after the date on which amounts are first
made available to carry out this part.
8.

42 U.S.C. 3712 (2000) provides:

Duties and functions of Assistant Attorney General
(a)

Specific, general and delegated powers

The Assistant Attorney General shall—
(1) publish and disseminate information on the
conditions and progress of the criminal justice systems;
(2) maintain liaison with the executive and judicial branches of the Federal and State governments
in matters relating to criminal justice;

133a
(3) provide information to the President, the
Congress, the judiciary, State and local governments,
and the general public relating to criminal justice;
(4) maintain liaison with public and private educational and research institutions, State and local
governments, and governments of other nations relating to criminal justice;
(5) provide staff support to coordinate the activities of the Office and the Bureau of Justice Assistance, the National Institute of Justice, the Bureau of
Justice Statistics, and the Office of Juvenile Justice
and Delinquency Prevention; and
(6) exercise such other powers and functions as
may be vested in the Assistant Attorney General pursuant to this chapter or by delegation of the Attorney
General.
(b)

Annual report to President and Congress

The Assistant Attorney General shall submit an annual report to the President and to the Congress not
later than March 31 of each year.

